<html>
<title> - SUSTAINABLE TRANSPORTATION SOLUTIONS: INVESTING IN TRANSIT TO MEET 21ST CENTURY CHALLENGES</title>
<body><pre>[Senate Hearing 111-68]
[From the U.S. Government Publishing Office]


                                                         S. Hrg. 111-68
 
                 SUSTAINABLE TRANSPORTATION SOLUTIONS: 
                   INVESTING IN TRANSIT TO MEET 21ST  
                           CENTURY CHALLENGES 

=======================================================================

                                HEARING

                               before the

                              COMMITTEE ON
                   BANKING,HOUSING,AND URBAN AFFAIRS
                          UNITED STATES SENATE

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                                   ON

COORDINATING HOUSING AND TRANSPORTATION POLICY TO ENCOURAGE SMART LAND 
  USE, GENERATE ECONOMIC GROWTH, AND DEVELOP SOLUTIONS TO EFFECTIVELY 
                ADDRESS 21ST CENTURY TRANSIT CHALLENGES

                               __________

                             MARCH 12, 2009

                               __________

  Printed for the use of the Committee on Banking, Housing, and Urban 
                                Affairs


Available at: http://www.access.gpo.gov/congress/senate/senate05sh.html

                               ----------
                         U.S. GOVERNMENT PRINTING OFFICE 

51-476 PDF                       WASHINGTON : 2009 

For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2250 Mail: Stop SSOP, 
Washington, DC 20402-0001 










            COMMITTEE ON BANKING, HOUSING, AND URBAN AFFAIRS

               CHRISTOPHER J. DODD, Connecticut, Chairman

TIM JOHNSON, South Dakota            RICHARD C. SHELBY, Alabama
JACK REED, Rhode Island              ROBERT F. BENNETT, Utah
CHARLES E. SCHUMER, New York         JIM BUNNING, Kentucky
EVAN BAYH, Indiana                   MIKE CRAPO, Idaho
ROBERT MENENDEZ, New Jersey          MEL MARTINEZ, Florida
DANIEL K. AKAKA, Hawaii              BOB CORKER, Tennessee
SHERROD BROWN, Ohio                  JIM DeMINT, South Carolina
JON TESTER, Montana                  DAVID VITTER, Louisiana
HERB KOHL, Wisconsin                 MIKE JOHANNS, Nebraska
MARK R. WARNER, Virginia             KAY BAILEY HUTCHISON, Texas
JEFF MERKLEY, Oregon
MICHAEL F. BENNET, Colorado

                 Colin McGinnis, Acting Staff Director

        William D. Duhnke, Republican Staff Director and Counsel

                Mitch Warren, Professional Staff Member

                      Aaron Klein, Chief Economist

                       Bonnie Graves, FTA Fellow

                   Lisa Frumin, Legislative Assistant

          Shannon Hines, Republican Professional Staff Member

                       Dawn Ratliff, Chief Clerk

                      Devin Hartley, Hearing Clerk

                      Shelvin Simmons, IT Director

                          Jim Crowell, Editor

                                  (ii)












                            C O N T E N T S

                              ----------                              

                        THURSDAY, MARCH 12, 2009

                                                                   Page

Opening statement of Senator Dodd................................     1
Opening statements, comments, or prepared statements of:
    Senator Shelby...............................................     3
    Senator Reed.................................................     5
        Prepared statement.......................................    42
    Senator Bennett..............................................     5
    Senator Merkley..............................................     6
    Senator Bennet...............................................     7
        Prepared statement.......................................    42

                               WITNESSES

Raymond H. LaHood, Secretary, Department of Transportation.......     8
    Prepared statement...........................................    43
    Response to written questions of:
        Chairman Dodd............................................    68
        Senator Shelby...........................................    68
        Senator Corker...........................................    70
        Senator Bunning..........................................    72
John Hickenlooper, Mayor, Denver, Colorado, Representing The 
  U.S. Conference of Mayors......................................    24
    Prepared statement...........................................    47
    Response to written questions of Senator Shelby..............    73
Joseph F. Marie, Commissioner, Connecticut Department of 
  Transportation, on Behalf of The American Association of State 
  Highway and Transportation Officials...........................    27
    Prepared statement...........................................    59
    Response to written questions of Senator Shelby..............    74
Beverly Scott, Ph.D, General Manager and CEO, Metropolitan 
  Atlanta Rapid Transit Authority, and Chair, American Public 
  Transportation Association.....................................    29
    Prepared statement...........................................    62
    Response to written questions of Senator Shelby..............    76

                                 (iii)


SUSTAINABLE TRANSPORTATION SOLUTIONS: INVESTING IN TRANSIT TO MEET 21ST 
                           CENTURY CHALLENGES

                              ----------                              


                        THURSDAY, MARCH 12, 2009

                                       U.S. Senate,
          Committee on Banking, Housing, and Urban Affairs,
                                                    Washington, DC.
    The Committee met at 10:07 a.m., in room SD-538, Dirksen 
Senate Office Building, Senator Christopher J. Dodd (Chairman 
of the Committee) presiding.

       OPENING STATEMENT OF CHAIRMAN CHRISTOPHER J. DODD

    Chairman Dodd. The Committee will come to order. Welcome, 
everyone. Welcome, Mr. Secretary. We are delighted to have you 
with us this morning. Let me welcome our guests in the hearing 
room, as well, and my colleagues.
    I am going to make some brief opening comments, turn to 
Senator Shelby, and then I would like to invite my colleagues 
for any brief opening comments they would like to make, as 
well, Mr. Secretary, and then we will get to you. We have got a 
second panel, as well, with some very good witnesses here to 
talk about ``Sustainable Transportation Solutions: Investing in 
Transit in the 21st Century,'' is the headline of our hearing 
here this morning.
    Let me first of all welcome, as I said, everyone here to 
the first in a series of hearings this Committee will hold in 
the coming months as we prepare to write new surface 
transportation legislation. It comes not a moment too soon, in 
my view. The challenges our nation faces now are very clear--
the deep recession, obviously, a dangerous dependence on 
foreign oil that we are all painfully aware of, energy price 
volatility, worsening metropolitan traffic congestion, the 
effects of climate change, and a growing aging population. In 
my view, each compel us to take a fresh look at our nation's 
transportation policy, much of which has grown out of the 1956 
Federal Aid Highway Act that created the Highway Trust Fund and 
the Interstate Highway System back in the mid-1950s.
    The highway system set the stage for decades of economic 
growth and prosperity, much as the construction of the Erie 
Canal, the Transcontinental Railroad, the Rural Electrification 
did before it, and just as our efforts to build the Internet 
did in more recent years. With a very different world today, we 
need a transportation policy that addresses a very different 
set of challenges that the 21st century poses.
    Secretary LaHood, as you well know, Federal leadership in 
transportation is one of the keys to getting our economy 
growing again and to a more secure energy future, and to 
addressing climate change. All of that will require a bold new 
commitment to public transportation.
    And ridership is expected at record levels. Last year, 
Americans took over 10.7 billion trips on our nation's buses 
and rail lines, ironically, the largest number of public 
transportation trips taken since 1956, the year that President 
Eisenhower created the Interstate Highway System.
    In fact, just in my State alone, I was looking at some of 
the numbers, and I am sure my colleagues can cite similar ones, 
because this is true across the country. I know you are aware 
of this, Mr. Secretary. But the New Haven, Connecticut line 
added 1.4 million more customers, almost a 4-percent increase 
over 2007. The New Haven Branch Line rail service also 
experienced an increase. The Waterbury Line, with a growth of 
34 percent over 2007. The Shore Line East, which runs along 
from New London toward New Haven, Connecticut, for those 
familiar with the State, saw a 12 percent increase, with almost 
540,000 new customers traveling those lines. And there are 
several more in my State that just cite this across-the-board 
increase.
    So in many ways, the public and the country are ahead of us 
on this issue. It is not a question of promoting growth of 
transit systems. The growth is there. The question is whether 
or not we are going to accommodate it and be able to service it 
well, as well as the increasing demand I think will come in the 
coming years.
    As I mentioned, my State is working toward a tri-city 
corridor commuter line linking major cities and towns in one of 
the densest corridors in the State, and the country, for that 
matter. This will reduce congestion along I-91, New Haven to 
Springfield, going to Massachusetts, on to Vermont. So again, 
it is not just a localized but a regional corridor that could 
really deal with both energy, environment, housing, and 
transportation issues simultaneously.
    Anyway, despite these obvious benefits, too often over the 
past half-century, transit has taken a back seat to funding of 
our roads and highways. And while the Federal Government is 
prepared to pick up 80 percent of the cost for new highway 
capacity projects, it generally pays less than half of that 
number for new transit projects. Of course, roads and highways 
will continue to be essential to our nation's economic growth, 
and none of us are arguing that point at all, and 
competitiveness, as well, as will our States' role in building 
them.
    But America will never, ever meet the challenges in this 
century we are in with 50 States carrying out 50 different 
plans without a national vision of where we need to go in 
transit issues. The time has come, in my view, to put transit 
in the driver's seat again, to lay the groundwork for an 
integration transportation system that coordinates land use and 
economic development plans to meet today's challenges. By 
coordinating housing and transportation policy to encourage 
smart land use, we can generate economic growth and create 
vibrant communities where people can live and work with a 
smaller carbon footprint.
    Transit is a fundamental building block of economic growth. 
I recently was in North Carolina, where the city of Charlotte 
is demonstrating the difference transit-oriented development 
can make, spurring $2 billion in private development along its 
new light rail lines in that city.
    The Brownfield site in Connecticut is another such project 
that is along those same lines as Charlotte. When completed, 
the Fairfield Metro Center is expected to include 860,000 
square feet of office space, retail space, as well as a hotel 
and condominiums, creating 3,000 construction jobs, and more 
importantly, almost 3,000 permanent jobs. Powered by fuel 
cells, solar power, and other energy-efficient technologies, 
and it is all contingent on an access to mass transit. These 
types of projects didn't happen by accident. They happened 
because community leaders recognized the need to integrate land 
use and transportation decisions and involve every aspect of 
its city government, from planning to public works, in the 
effort.
    Secretary LaHood, it is time, as I know you are aware, that 
the Federal Government mirrored the example set by these 
communities. They are doing it on their own. They are really 
moving aggressively. We need to catch up with them, in a sense 
here, if we are going to succeed.
    That is why I have written President Obama, urging him to 
establish a White House Office of Sustainable Development, to 
ensure that we are coordinating all of these issues in the most 
comprehensive, integrated, holistic way possible.
    As Chairman of this Committee, I intend to make public 
transportation a priority because it is critical to making our 
entire transportation system work, getting our economy moving 
again and addressing the challenges that we will face in the 
decades to come. And with this Committee's work this year and 
with your leadership, Mr. Secretary, I am confident we can make 
that happen. And so I can't tell you how pleased I am that you 
are here with us this morning. We will have our second panel, 
as well. And we talk about here the authorization of a surface 
transportation bill, not the reauthorization, the 
authorization, because we truly need to think afresh on this 
problem.
    And as I said a moment ago, the public is way ahead of us 
on this. Our communities are moving way ahead of us on this and 
we need to catch up with them to make this work in an 
integrated fashion.
    With that, Senator Shelby.

                  STATEMENT OF SENATOR SHELBY

    Senator Shelby. Thank you, Senator Dodd. Thank you, Mr. 
Secretary, for appearing before us today to discuss the 
importance of public transportation. I also appreciate our 
other witnesses that will testify on the second panel.
    Today, Mr. Secretary, as you well know, our nation is 
facing the worst financial crisis in nearly a century and 
millions of people are out of work and struggling. Public 
transportation can be an important tool, particularly in times 
such as these, that provides reliable access to jobs, child 
care, health care, and other vital services. Promoting and 
supporting policies that ensure these important services are 
maintained is essential to us.
    The future of our nation's transportation infrastructure is 
at a crossroads. We must decide if our next steps will be 
incremental or transformative. Ultimately, any proposal we 
adopt must balance flexibility with stringent spending 
requirements and long-term sustainability.
    Last year, public transportation experienced record high 
ridership. Initially, much of the increase was due to the spike 
in gas prices. Over time, however, these increases have lasted 
and have proved to be both a blessing and a curse for transit 
systems. While a spike in fuel prices caused an increase in 
transit ridership, it also resulted in a significant decline in 
gas tax receipts into the Highway Trust Fund. This 
unpredictable fluctuation is precisely why we must consider, 
Mr. Secretary, alternative forms of financing for our nation's 
public transportation infrastructure.
    Some have proposed significantly increasing gas taxes. I do 
not believe that raising taxes during the economic crisis makes 
sense. We must consider innovative alternatives and encourage 
creativity in the marketplace.
    By most estimates, it will require nearly $200 billion to 
simply maintain our current surface transportation 
infrastructure. This need far outstrips our current funding 
capacity. More importantly, the $200 billion estimate does not 
account for new projects that add capacity or replace existing 
systems. Clearly, Mr. Secretary, financing these projects is 
going to be a significant challenge for all of us.
    In addition to financing, we must also look at the question 
of accountability for maintaining a state of good repair. We 
have heard a great deal about our nation's crumbling 
infrastructure and the trillions of dollars necessary to 
rehabilitate or to replace it. Nevertheless, the Federal 
Government continues to provide hundreds of millions of dollars 
for infrastructure projects without any requirement to maintain 
them. The Federal Transit Administration imposes an extremely 
vigorous approval process for major capital projects, and yet 
there is very little follow-up or accountability regarding 
long-term maintenance, as it should be.
    Even more disturbing is the lack of requirements to bring 
an existing system up to a state of good repair before new 
funding for an expansion is allowed. This gap ultimately 
exacerbates the overall problem. In light of the continued 
requests for additional infrastructure funding, I believe this 
is an area that requires thorough review and significant 
reform.
    These are just a few examples of the many areas that I 
believe we must address during what I hope are a number of 
hearings on this reauthorization.
    Thank you, Mr. Chairman.
    Chairman Dodd. Thank you, Senator, very much.
    Senator Reed?

                   STATEMENT OF SENATOR REED

    Senator Reed. Thank you very much, Mr. Chairman, and 
Secretary LaHood, Ray, welcome. I also want to welcome Beverly 
Scott, who will be on the next panel. Beverly was the Director 
of the Public Transportation Authority and now she is--she took 
our heart and our money down to Atlanta, so we will talk about 
that later.
    [Laughter.]
    Senator Reed. But we are in an interesting situation where 
we are seeing increased demand for transit services across the 
country, but because of operating funding difficulties, we are 
seeing service cutbacks. It seems to be absolutely 
counterintuitive.
    So I think it requires us to think seriously about 
operating assistance, but also a new, more stable funding 
mechanism for transit across the country, not 50 different 
models but one unified model.
    I know the American Recovery and Reinvestment Act has 
provided assistance to transit systems, which is necessary, but 
that is more of a stop-gap than a permanent, long-term, stable 
approach, which I think we need.
    And as the Chairman and the Ranking Member suggested, these 
issues are intertwined not only with transit policy, but with 
environmental policy, with good land use policy, with economic 
development, and a host of others. This really could be one of 
the keys to the new economy that we are all trying to foster.
    So I am particularly delighted, Secretary, that you are 
there. You bring great judgment and great integrity and decency 
to the job and I look forward to working with you.
    I have a longer statement which I would make part of the 
record, Mr. Chairman.
    Chairman Dodd. Thank you very much.
    Senator Bennett?

                  STATEMENT OF SENATOR BENNETT

    Senator Bennett. Thank you, Mr. Chairman. I appreciate your 
calling the hearing.
    Secretary LaHood, welcome. We are delighted to have you 
here and appreciate your expertise.
    As I listened to you, Mr. Chairman, talk about the impact 
of mass transit on a city, my mind goes back to the experience 
of the Washington Metro. I was involved in transportation 
issues when the Metro in Washington was first conceived and 
then built, and I remember and will not rehearse here the 
attitude of citizens in Georgetown who said they did not want a 
Metro stop in Georgetown, that for whatever reason it was all 
right for other people to have one, but they didn't want one in 
Georgetown. And now we look back on it, there is a Metro stop 
across the river from Georgetown in Rosslyn, Virginia, which is 
where my wife and I have our temporary home, the permanent one 
being in Salt Lake. I have to make sure the local papers get 
that.
    [Laughter.]
    Senator Bennett. And you see the difference that has 
occurred around the Metro stops that are available in Northern 
Virginia and what the situation is in Georgetown. Now, maybe 
the people in Georgetown like it, although I understand they 
are now lobbying for a Metro stop in Georgetown.
    But when you look at the economic development that has 
occurred as a result of the Metro stops that are available, the 
buildings that have been built, and start to think about the 
property taxes that are being paid and the economic activity 
that is producing income taxes, you say transit produces 
significant economic advantages to those who take advantage of 
it. We often don't think of that. You made reference to it in 
your opening statement and I want to underline it.
    I have seen it happen here in Washington and I have seen it 
happen in Salt Lake, where we have produced a light rail 
system. Businesses that are along the light rail system are now 
beginning to flourish and an entire housing area on land that 
would otherwise not be used is springing up because they are 
going to have a line of the light rail go to that area, and 
that means residents of that area can commute from downtown if 
they want without having to be adding to the congestion. It is 
creating a whole new housing market simply because there will 
be a transit stop.
    Those are the kinds of visions that we need to keep in mind 
as we deal with our testimony here today, and I applaud you in 
your determination to see to it that mass transit becomes an 
important part of the agenda in this Committee this year.
    Chairman Dodd. Senator Bennett, I appreciate your comments. 
I guess a lot of us grew up with the notion of living along the 
tracks, that you would have a devaluation in property, or that 
was considered not the most ideal place to live. Of course, 
what Charlotte has proved and others are proving is that, in 
fact, being along the tracks does just the opposite, in effect, 
today. It is a very different mentality altogether. And as you 
say, you can then start deciding on smart land use issues. 
Climate change issues, energy use--I mean, the energy 
connection and the transit are just stunning, the numbers, if 
you start looking at how much actually gets saved as a result 
of moving in this transit area. So I appreciate your comments.
    Senator Merkley?

                  STATEMENT OF SENATOR MERKLEY

    Senator Merkley. Thank you, Mr. Chair, and welcome, Mr. 
Secretary.
    I simply associate myself with the colleagues of my 
colleagues and add that transit in Oregon has been incredibly 
important, certainly from the viewpoint of economic 
development, from the viewpoint of reducing our carbon 
footprint, and certainly in contributing to the form of our 
cities. It has been a key to the success of our urban growth 
boundary strategy to preserve open spaces and create livable 
neighborhoods.
    I certainly appreciate your leadership and look forward to 
working with you.
    Chairman Dodd. Thank you.
    Senator Bennet?

                  STATEMENT OF SENATOR BENNET

    Senator Bennet. Thank you, Mr. Chairman. I first want to 
say a word of introduction later about Mayor Hickenlooper, but 
I want to thank you and the Ranking Member for having John 
Hickenlooper here from Denver. I can't think of anybody better 
situated to talk about these issues than John.
    Mr. Secretary, welcome to the Committee. We are happy to 
have you here.
    There are a lot of exciting things going on in Denver when 
it comes to transit. The Fast Tracks Project, which our Mayor 
will talk about, marks the largest rail expansion in the 
country and it is a model of cooperation of local and Federal 
Government. By the time the project is completed in 2017, the 
Denver area will have six new commuter rail and light rail 
corridors, three extensions of existing corridors, 18 miles of 
bus rapid transit, and 21,000 new parking spaces, not to 
mention a redeveloped Denver Union Station, and at least when I 
was helping the Mayor get this passed, when I worked for him, 
we used to claim, Mr. Chairman, that this would cover an area 
the size of the State of Connecticut and it is coming along 
very well.
    But as you said, our local communities are really ahead of 
the Federal Government when it comes to investment and much of 
their investments are based on sales tax. I think I would like 
to see us produce a bill in this Committee that shows our 
commitment to helping local transportation at least more 
adequately meet these goals, because they are so critical.
    Finally, I just want to say that this bill has a lot of 
significance to transit in rural areas, as well. While urban 
areas receive the bulk of Federal transit dollars, I want to 
make sure we don't forget our rural communities during this 
reauthorization process. An increasing number of seniors and 
people with disabilities rely on public transportation in rural 
parts of Colorado and it is very important that we keep them in 
mind as we think about this.
    Mr. Chairman, I have got a longer statement I would like 
included in the record. Thank you.
    Chairman Dodd. It will be so included and we thank you for 
your comments. We will be giving you an opportunity to give a 
formal welcome to the Mayor when we get to the second panel.
    Mr. Secretary, thank you very much for being with us and I 
hope these opening comments were of some help to give you an 
idea how--there are a lot of issues which we spend a lot of 
time working together on. I think this is going to be one of 
them, as well, where you are looking at a Committee here that 
is not divided between red and blue States or ``R''s and 
``D''s, but people who have a deep interest in the subject 
matter. It is a unique area of jurisdiction of this Committee, 
in many ways going back many years, but a very, very important 
one and one that I want to highlight. And obviously, your 
participation will mean a great deal in that.
    The floor is yours.

   STATEMENT OF RAYMOND H. LaHOOD, SECRETARY, DEPARTMENT OF 
                         TRANSPORTATION

    Secretary LaHood. Chairman Dodd, Ranking Member Shelby, and 
members of the Committee, I am pleased to appear before you 
today to discuss issues related to the reauthorization of 
Federal public transportation programs.
    This hearing is especially timely for two reasons. First, 
as you know, the current authorization legislation, SAFETEA-LU, 
expires at the end of fiscal year 2009. I hope Congress can act 
swiftly to pass new legislation to ensure that these important 
programs continue uninterrupted. Investing in surface 
transportation is one of President Obama's key economic 
initiatives. The administration's surface transportation 
authorization proposal continues that important work. Improving 
the efficiency and reliability of our surface transportation 
system is vital to enhancing the nation's productivity and 
competitiveness.
    Second, with the passage of the American Recovery and 
Reinvestment Act, hundreds of ready-to-go capital transit 
projects are poised to begin. These projects will create 
thousands of jobs quickly and they will enable transit 
operators around the country to improve and expand service to 
millions of customers. We need an innovative and forward-
looking reauthorization package to keep the economic recovery 
going in the public transportation sector and we need to ensure 
that local communities can establish and preserve sustainable, 
safe, environmentally friendly transit systems that improve 
mobility and reduce traffic congestion.
    We should also find new ways to deliver Federal surface 
transportation programs in light of the industry's fiscal 
challenges. Over the last year, transit ridership has attained 
its highest level in more than 50 years. To handle the growth 
in demand, the industry needs roughly $22 billion annually to 
improve conditions and performance of existing transit systems.
    The nation's oldest rail cities, such as New York and 
Chicago, are in serious condition, as well. We are in the 
process of releasing a report to Senator Durbin and others 
describing the conditions of the nation's seven largest rail 
transit operators. In a nutshell, there is a significant 
backlog of unmet recapitalization needs of about $50 billion.
    The administration believes the next authorization should 
address five critical areas. First, as I noted, investments 
have not kept pace with needs. Therefore, I ask the Committee 
and Congress to look closely at new ways to structure funding 
for transit and highway programs.
    Second, we should do more to improve safety. The level of 
transportation-related fatalities in this country across all 
service modes is unacceptable. We need data-driven, 
performance-based safety programs to identify what works, 
followed by swift implementation of these solutions.
    Third, we should promote more livable communities. The era 
of one-size-fits-all transportation projects should be replaced 
by an emphasis on preserving and enhancing the things that make 
each community special. That means expanding travel choices, 
including transit, wherever possible. This helps to reduce 
greenhouse gasses emissions and slows the pace of climate 
change.
    Fourth, President Obama has stressed the need for 
accountability, transparency, and performance throughout the 
Federal Government. The next authorization package should 
require every program and initiative to reflect these core 
principles. To accomplish this, we may need to find new ways of 
doing business and implement stringent new performance 
measures. This is the right thing to do for taxpayers.
    And finally, throughout our nation's history, 
transportation has been marked by innovation. We must carry 
that tradition forward by investing in technology and smarter 
ways of delivering transportation systems and services. These 
investments will pay off in greater safety, less congestion, 
and a state-of-the-art transportation infrastructure system for 
America.
    Mr. Chairman, many public transportation challenges await 
our action and leadership. In addition to a strong 
reauthorization bill, we will need to address the future of the 
Highway Trust Fund, commitment authority for the New Starts 
Program, and the potential creation of a National 
Infrastructure Bank, and I look forward to working with you on 
these issues.
    And let me just say parenthetically--this is not a part of 
my statement--I don't think there is another administration 
that has ever come to this town that knows more about transit 
and public transportation than this. President Obama is from 
Chicago, and I can tell you that he has ridden lots of buses 
and lots of transit transportation. And when you look, his 
Chief of Staff is from Chicago. Again, these folks have 
utilized public transportation and transit in many different 
forms in the city from which they come. So they understand this 
issue very well because they have used these systems.
    And I also want to make note of the Mayor of Denver, who 
came to my office about a week ago with a very good suggestion 
which he and I are going to implement. He offered the 
opportunity to bring about 8 or 10 mayors to Washington to meet 
with me to talk about the future and to talk about innovative 
approaches that they have taken around the country. We have a 
meeting scheduled, I think a week from Monday in my office with 
8 or 10 mayors to talk about the way forward. We know that the 
cities are really the incubators of a lot of good ideas, some 
that have been implemented and some that people are thinking 
about. So I am delighted that the Mayor of Denver is a part of 
this second panel today.
    I look forward to your questions and thank you for the 
opportunity to be here today.
    Chairman Dodd. Well, thank you very much, Mr. Secretary, 
and thank you for your statement, as well. I commend you on the 
idea of listening to our mayors of our cities and smaller 
communities, as well, that can bring some great ideas.
    And let me just parenthetically say I appreciate your 
particular comments on the Infrastructure Bank idea. As you 
know, I authored that legislation along with Chuck Hagel, a 
former member of this Committee, with people like Warren 
Rudman, Bob Kerry were involved in it. Felix Rohatyn of the 
Center for Strategic and International Studies did a lot of 
work over the last several years in helping us develop the 
idea. And I was pleased to see that President Obama included 
that in the budget request, as well. And we are going to sit 
down and work, because we need creative ideas in funding, in 
leveraging private capital.
    The Mayor of Vancouver, Canada--I was talking with Governor 
Schwarzenegger the other day on a number of these matters and 
he highlighted the significant work the mayor of that city in 
Canada has done by utilizing an Infrastructure Bank in terms of 
supporting the needs of the infrastructure demands of that 
city. So we are going to proceed with that idea, as well. As 
you point out, just talking about additional monies without 
having creative ideas on how we can attract different sources 
of capital to come into it is not going to make much of a 
difference.
    Let me just mention, because you and I have talked about 
this and obviously this is not really a question for you, but 
just the whole notion of what I am trying to do in that tri-
city development of New Haven, Connecticut through Springfield 
into Vermont is, I think, a wonderful example of something that 
may not be shovel-ready tomorrow, but certainly is shovel-ready 
very quickly and is a demonstrable evidence of what could be 
done in terms of linking up communities, reducing traffic 
congestion, helping smart growth in a fairly congested area. 
And so I have raised the issue with you and your office and we 
would ask you to pay some attention to that, if you could, as 
an example of what could happen here in this development of 
transit policy.
    Second, and you have made this point, as well, and I think 
all of us have here, the numbers, the growth numbers are really 
rather remarkable and I think every evidence is they are going 
to stay with us given the economic conditions we have. And I 
think once people, even though they may have gotten into the 
use of transit for reasons that they didn't particularly like, 
because of the cost of gasoline and others, I think it is one 
of those things that once you experience it, you start 
utilizing it, you realize how easy it is, how comfortable it 
is, how time-saving it is in terms of using it. So while we are 
in this and people may be using it for reasons they didn't 
anticipate, once that starts, I think it gets very difficult to 
turn it around, and I think you will hear that from some of our 
witnesses, as well, today.
    Let me, if I can, just raise a couple of questions, if I 
can. One has to do with the Office of Sustainable Development, 
which I have mentioned in a letter to the President, to bring 
together your office, the Office of the Department of Energy, 
and Housing, as well as the environmental issues together to 
link these up in a way that we have never really done before. 
We have sort of this stovepipe mentality, sort of separate 
issues that we deal with separately and not a lot of that 
interconnectability between these questions of housing, 
transportation, energy, and environment.
    And I wonder what role you might see the Department of 
Transportation obviously playing in cooperating with other 
Federal agencies to help meet these challenges and what steps 
you might be prepared to take to help coordinate this effort.
    Secretary LaHood. Well, I haven't talked to the President 
about your letter, Mr. Chairman, but sustainability is a very, 
very important aspect of what we are doing at the Department of 
Transportation. If the President decides to accept your idea, 
we want to be a big player in sustainability.
    What we are doing now with the economic program, the 
recovery program, is trying to get people to work very quickly, 
but we know that sustainability on a number of these things 
that we are doing very quickly here can be very important. And 
I also think the idea of sustainability in terms of livable 
communities and what you are talking about in terms of your own 
State and the idea of connecting these communities and having 
people have opportunities to get away from their cars and get 
away from congestion and live in communities that offer lots of 
different amenities and lots of different options. I think the 
idea of livable communities, sustainability, and really tying 
it into the economic recovery, but also the authorization of 
transit, all of these things tie together.
    And so I look forward to working with you if we get a 
signal from the President to be a part of this team. We want to 
be a big player in this.
    Chairman Dodd. Well, you can be, obviously, and I would 
urge you maybe to even be an advocate. As they are sitting down 
and asking about these things, it would be helpful. And our 
intention here with the Committee is to invite you, along with 
others from the respective four Secretariats I have mentioned, 
to come together under the auspices of this Committee, if 
necessary to begin to talk about how we do coordinate that. It 
is important.
    Let me mention two other issues to you quickly, if I can. 
One has to do with just the inequities in many ways of the 
competing systems when you start talking about transportation, 
between highway and transit programs. When a State or a city or 
a region wants to build a new highway or a new lane of traffic, 
there are very few questions asked by the Federal Government in 
that process.
    On the other hand, when a State or region or city enters 
the New Starts process, which involves answering a multitude of 
questions and undergoing a rigorous analysis that can take 
years, in some cases a decade or more, what I believe--
certainly I believe there are benefits to a rigorous review. I 
am not arguing. To the contrary. But it seems to me that the 
burdensome, literally an incredibly burdensome path that you 
must follow when you seek transit support as opposed to highway 
support, I think everyone knows this, but it clearly--if you 
have got to go through it to get the easier money, not to 
mention the percentages, then obviously the option is quite 
clear, what people are going to opt for.
    Many communities, rural and urban, would like to be in a 
neutral position where they can make decisions that they think 
serve their needs best. But when there is a bias, both in terms 
of the bureaucracy as well as cost, then you get a predictable 
outcome, it seems to me, and so I wonder if you could comment 
on that.
    Secretary LaHood. Well, I think this. I think now that we 
have built a state-of-the-art interstate system in this country 
and we know now that people's choices are for transit, I think 
you are going to see us in the Department develop hopefully a 
system whereby it becomes easier and we become more open-minded 
about the idea that transit will become the transportation of 
choice for many, many communities and many, many people around 
the country and we can develop a system that makes it easier 
and less bureaucratic for communities to really have access to 
these kinds of programs and these dollars.
    I think the legislation that you all draft can send a 
pretty strong message in that regard, also. Transit and the 
forms of transportation we are talking about here really now 
have come into their own, and it is an opportunity, I think, to 
send a message not only to our Department but around the 
country that it is going to be the choice of transportation for 
many, many Americans and we ought to make the opportunities 
available to people without a lot of bureaucratic red tape. It 
has to be done correctly and done right, but we should make it 
accessible in terms of a lot less bureaucracy.
    Chairman Dodd. And I want to--I am sure I am expressing the 
views of all of us here. This is not a question of being anti-
highway. We understand that. But just so there is sort of that 
level playing field. And I welcome your comments and would very 
much like to have our staffs work with yours, because it is 
obviously important to have the support of the Department of 
Transportation as we move forward, not just a Committee bill--
--
    Secretary LaHood. Of course.
    Chairman Dodd.----but I appreciate your point.
    The last point I want to make to you is one that is also of 
concern. It has been well documented by this Committee and 
others that multi-year dedicated funding is critical to 
building and maintaining transportation systems. Congress 
realized this when as part of the T-21 in the 1990s we 
established budgetary firewalls to ensure that the authorized 
funding levels in the transportation bill were real, guaranteed 
funding. This has been a great success in the past decade. It 
is unique, in a sense, that authorizing committees have that 
firewall built in. So your authorizing numbers become your 
appropriated numbers.
    The administration--this has been very successful over the 
past decade and I was disappointed that the administration's 
budget included a provision that would weaken these guarantees. 
I, along with Senator Shelby and our counterparts in the 
authorizing Committee, sent a letter to the administration 
expressing our opposition to the proposed change here. I wonder 
if you would comment on that.
    Secretary LaHood. Well, I saw your letter, Mr. Chairman, 
Mr. Shelby and others, and I know of your concern. What we will 
try and do is, as good members of this administration, work 
with you and your Committee to reach some kind of a 
consideration for the issues that you raise in your letter. I 
understand completely as a former member of the House, a former 
member of the T&I authorization Committee, and a former 
appropriator. I know of what you speak. And so we will work 
with you, and obviously we need to bring OMB into the mix on 
this, and take into consideration the concerns that you have 
expressed in that letter.
    Chairman Dodd. Well, I appreciate that very much, because 
again, the obvious point here is if we all of a sudden 
fundamentally alter this funding scheme, then the idea of doing 
one of the things we are talking about is dealt a significant 
blow----
    Secretary LaHood. Sure.
    Chairman Dodd.----to those efforts, and a fundamental 
alteration of a decades-long policy. So I welcome your comments 
and we will work very closely with you to try and alter that.
    Secretary LaHood. Sure.
    Chairman Dodd. Senator Shelby?
    Senator Shelby. Thank you, Mr. Chairman.
    Secretary LaHood, I am extremely concerned about continuing 
to make investments in infrastructure without any requirement 
for maintaining a state of good repair long-term. In your 
testimony, you referenced the rail modernization study and that 
there is a backlog of $50 billion in unmet recapitalization 
needs in the nation's seven largest rail transit operators. It 
is my understanding these properties have received billions in 
Federal funding for new projects, too.
    What can we do to make certain that we adequately monitor 
and ensure the long-term maintenance of these assets, and what 
does the administration intend to propose on this front?
    Secretary LaHood. Well, we do have a study that we are 
going to be looking at very carefully, as I indicated, that has 
looked at all of the assets and what we need to do going 
forward. Obviously, that will be made available to all of you 
and I think we have to be committed not only to continuing 
progress and the way forward, but we also have to take care of 
the assets that we have. I think you will see in the report 
there will be opportunities to do that.
    Senator Shelby. Mr. Secretary, in the last authorization 
bill, we attempted here to streamline the New Starts process 
and add additional categories for consideration during project 
evaluation. Nevertheless, the process continues to take what 
seems like an inordinate amount of time and many of the factors 
Congress added, including economic development, still have not 
been implemented.
    I know you are new in your job, Mr. Secretary, but I am 
interested in your thoughts on the overall process and what 
changes can be made to ensure that it can move forward more 
expeditiously while still conducting a thorough evaluation.
    Secretary LaHood. Well, we have found in the process of 
implementing the Recovery Act, where we were provided by 
Congress in the bill about $8 billion for transit, that we have 
been able to work pretty efficiently and effectively and pretty 
quickly with the transit districts in identifying some 
projects, and we will be making those known very soon.
    So we know that it is possible in working with the 
different transit authorities and officials around the country 
that these things can be streamlined and the money can get out 
quick and we have established a little model here during this 
recovery opportunity to make that happen and we hope that that 
can continue in the future.
    Senator Shelby. Mr. Secretary, you bring a unique 
background here to your job as a Cabinet member and Secretary 
of Transportation and we are very aware of this. I am 
interested in learning more about the administration's plans 
for the future of the Highway Trust Fund. Specifically, do you 
anticipate continuing financing of surface transportation from 
the Highway Trust Fund, including public transportation, or do 
you expect more funding to come from the general fund?
    Secretary LaHood. Well, I think this. I think that the 
Highway Trust Fund was adequate for building a state-of-the-art 
interstate system. We are the model for the world. When people 
look at America and see our interstate system, they use it as a 
model. And the Highway Trust Fund provided the adequate funding 
to make that happen.
    But it is an antiquated system now. I think what we should 
do is continue the Highway Trust Fund, but we have to build on 
that. There are simply not enough resources in the Highway 
Trust Fund to fund all the things that you and we at the 
Department would like to do. And there are a lot of creative 
ideas out there--public-private partnerships, tolling of lanes.
    I was in Miami, Florida, a week ago. I was on Interstate 95 
where they built a lane with tolls and it was, you know, it was 
right next to--it was right on the same road. A creative way to 
do it, because there wasn't enough money in the Highway Trust 
Fund to do it.
    So, look, there are about five or six very creative ideas 
that we can build on the Highway Trust Fund in order to get to 
where we want to be with all of the infrastructure needs that I 
know that are needed and we have identified and you all have 
identified. But the Highway Trust Fund is insufficient to 
continue what we want to do in America with highways and 
bridges and our infrastructure.
    Senator Shelby. Mr. Secretary, as you well know, certainty 
is very important in the planning and financing of transit 
projects and so forth. The Highway Trust Fund and the 
guarantees provided in the authorization bill have provided 
certainty for long-term planning and enactment of 
transportation projects. Are you concerned that increased 
reliance on the general fund could displace this certainty and 
result in difficulties conducting long-range planning and 
raising capital, or do you think that will complement what we 
are doing?
    Secretary LaHood. Well, I am going to let you all decide 
whether you want to use general revenue and put it in the 
Highway Trust Fund. I would rather talk from the point of view 
of a National Infrastructure Bank, public-private partnerships, 
tolling of roads, and other ways, creative ways of thinking 
about building on the Highway Trust Fund.
    You know, I am not prepared to say here today--I will leave 
that to all of you that are going to have to make those hard 
decisions, as were made last year when $8 billion was put into 
the Highway Trust Fund. I would rather talk from the point of 
view of let us be creative and try and find other creative ways 
to supplement the Highway Trust Fund.
    Senator Shelby. But do you believe certainty in the 
planning is important, too?
    Secretary LaHood. There is no question about it. People 
have to know where the money is coming from and that it will be 
there----
    Senator Shelby. Absolutely.
    Secretary LaHood.----when these important road, bridge, and 
other infrastructure projects. We have to have certainty about 
where the money is coming from, no question about it.
    Senator Shelby. Thank you. Thank you, Mr. Chairman.
    Chairman Dodd. Thank you very much, Mr. Chairman.
    Senator Jack Reed?
    Senator Reed. Thank you very much, Mr. Chairman, and again, 
welcome, Secretary.
    In your comments to APTA on Monday, you talked about at 
least thinking about providing some operating assistance to 
transit agencies. If you could elaborate on that, and also the 
challenge of ensuring this is a maintenance of effort by local 
and State communities, because they are under pressure, too. 
There is a strong temptation, I think, for if we will do it, 
they won't. So could you comment on that, Mr. Secretary?
    Secretary LaHood. Sure. Senator, when I was in Congress, I 
represented a couple of fairly good-sized communities, Peoria 
and Springfield, who had good transit systems. I tried to be 
helpful in making sure that they had the equipment. But if you 
have the equipment without people to operate the equipment, it 
does you no good. You can't provide the service.
    I know that transit districts and transit systems have an 
inability to use some of their money for operational purposes, 
and I am speaking for myself now, OK. What I told the folks at 
the transit meeting, I am going to be open-minded about this. 
Look at it, we have to be realistic about these things and we 
have to use a little bit of common sense here. If you have all 
the great equipment but it is sitting and not really delivering 
people where they want to go because you don't have people to 
drive the buses or drive the trains or whatever, then we should 
do something about that. And I want to be open-minded about the 
idea that some of these funds could be operating.
    Now, that is Ray LaHood's point of view and I want to work 
with the administration, I want to work with all of you, I want 
to work with these folks that are in a real pickle right now 
about trying to find out how they are going to pay their bus 
drivers and train drivers and all these other folks, engineers. 
But I think we need to be open-minded about these things and I 
am willing to do that.
    Senator Reed. Well, thank you, Mr. Secretary.
    Last year, at the end of the previous Congress, your 
predecessor used her authority, which was clear and legal, to 
allocate a portion of so-called lapsed funds, projects that had 
been authorized, appropriated, but because of local problems 
with matching funds and local problems with environmental 
clearances, et cetera, weren't used. One of those projects was 
in Rhode Island, but there are several other projects across 
the country.
    In the Omnibus Appropriation Act the President signed 
yesterday, we are urging you to use the remaining unobligated 
funds to go back and to fund these projects that have, as I 
said, been duly authorized. I would hope that you could commit 
to your best efforts to using these unobligated funds that 
exist to go back and fulfill the requirements and the 
authorization directions of the Congress.
    Secretary LaHood. Well, Senator, this is what I will pledge 
to you and the other members of the Committee and to any Member 
of Congress. As a former member, I know that when these 
particular projects are placed in a bill that they are 
important to people and they are important to the people around 
the country who would be served by these. And my pledge is to 
look at the unobligated funds in the context of the way that 
they were included in a particular bill for a particular area 
and do all that we can to be very open-minded about doing what 
we can to make sure the intent of Congress is carried out.
    Senator Reed. Thank you, Mr. Secretary, and we will help 
you to keep that mind open and focused.
    [Laughter.]
    Senator Reed. I think just a final comment. I think all the 
questions so far have suggested that we are on the verge of a 
significant change in the way we fund transit projects and 
transportation projects. One factor is the declining 
productivity of the gas tax, which we have to recognize. Others 
is the need to recognize environmental costs, externalities to 
traffic and travel and congestion, all these other things. I 
know you have thought about these things and I just want to 
simply say I look forward to working with you as we deal with 
some very difficult and challenging issues, but fundamental to 
our economic progress.
    Secretary LaHood. Thank you, sir.
    Senator Reed. I am glad you are there doing it.
    Secretary LaHood. Thank you, sir.
    Chairman Dodd. Thank you, Senator.
    Senator Bennett?
    Senator Bennett. Thank you, Mr. Chairman.
    Mr. Secretary, I have two issues I want to raise with you 
based on our experience in Utah, and let me preface the remark 
by saying that our experience in Utah with the Department of 
Transportation and particularly FTA has been very, very good. 
We have built what we think is a model system and the degree of 
cooperation we have had with the Feds has been terrific.
    Having said that, there are two areas where we may have a 
little bit of heartburn. The first one is the New Starts 
process. It has become lengthy and time consuming, and when it 
becomes time consuming it becomes expensive. It is a little bit 
overcomplicated and we would like to know if you have plans to 
help streamline the process so that it might move a little more 
rapidly, and that helps speed delivery and helps cut cost.
    The second one is the ongoing debate about the role of 
program of projects. We have bundled our activities into a 
program of projects and we have had the experience of having to 
re-explain this on occasion, where it got approved and then, 
well, maybe we are going to fund this and not that because the 
local match isn't there, and we go back to the original 
conversations and say, but the local match is there once you 
take this whole thing as a program of projects.
    Now, this maybe is down in the weeds, but these are the 
issues that we deal with most directly and I would appreciate 
your comment about both of these.
    Secretary LaHood. Well, as I said earlier, we have found in 
our ability to get the money out the door in the Economic 
Recovery Plan, whether it is the $28 billion for roads and 
bridges, whether it is the $8 billion for transit, whether we 
are putting together some criteria for our discretionary pot of 
money, these things can be done in a more expedited way.
    I want to make it clear. Things are going to be done by the 
book, by the law, but there are ways to streamline, Senator, 
and I want you to know that we have found those ways in our 
ability to comply with the law that was passed by Congress, 
which said, get the money out the door in 120 days and have it 
spent in 18 months. We are going to comply with that.
    So my answer is, there are ways to make sure that we don't 
cut corners and we don't go against what the Congress has 
passed, but our ability to cut through some of the bureaucracy 
at DOT, and we did it by really putting together what we called 
a Tiger Team, a group of people from all the different modes 
that meet every day and talk about, OK, what is the next box we 
have to check? What is the next rule or regulation that we have 
to meet? All done by the book, but just by people sitting 
together, talking to one another from the different modes so 
people really have an understanding.
    We have shown that we can do it under the recovery bill and 
get the money out the door and I think we can do it in this 
instance, also, and I pledge to you that we will work very hard 
to do that.
    Senator Bennett. Thank you. I appreciate that, and, of 
course, no one is asking you to cut corners.
    Secretary LaHood. No, sir. I know that.
    Senator Bennett. We understand that. But as you pointed 
out, there are ways to do it perhaps more efficiently.
    Can you comment on the program of projects situation or do 
you want to get back to me?
    Secretary LaHood. I would rather get back to you on that, 
Senator.
    Senator Bennett. All right.
    Secretary LaHood. I just--I don't feel I can really give 
you a very good answer, but I will be happy to get back to you.
    Senator Bennett. I would appreciate if you would focus on 
that, because that becomes--that has become a key issue on how 
we deal with the question of the local match and what we put 
into the mix to provide the local match. If it then gets broken 
up and each project is viewed as an individual project, then 
local match that was pledged to the overall situation suddenly 
disappears and we are told, no, we can't fund beyond a certain 
level because the local match isn't there. That is the 
difficulty with respect to this and I am grateful that you 
would take a look at it.
    Secretary LaHood. Yes, sir.
    Senator Bennett. Thank you.
    Chairman Dodd. Senator Merkley?
    Senator Merkley. Thank you, Mr. Chair.
    Mr. Secretary, I want to start by following up on the 
questions Senator Bennet raised in regard to Small Starts. 
Specifically, let me begin first just by inviting you to come 
out to Oregon. We would love to show you our streetcar system, 
which has become very, very popular and contributed enormously 
to reducing our carbon imprint and stimulating economic 
development and certainly making the city far more livable. So 
I look forward to checking in with your team to see if you 
might be able to join us out in Oregon.
    In regard to that particular streetcar project, our 
delegation sent you a letter in January noting the successes 
but also noting how additional streetcar projects seemed very 
difficult to get initiated under the Small Starts Program. You 
were very kind in replying to us that you shared our concerns 
and that you would be looking into this. We pointed out that 
there has been essentially an institutional bias previously in 
not using that program to support streetcars and so I really 
want to thank you for your reply and want to follow up on that 
and ask if indeed you can continue to look into that, because 
we really need to reverse kind of a bureaucratic formula that 
was put out by the previous administration that essentially 
created a roadblock to streetcar systems being considered under 
that program.
    Secretary LaHood. Senator, let me just say this. I feel 
privileged to be part of a transformational administration, and 
I feel privileged because I do think this President wants to 
transform transportation. We are going to look--we are looking 
very carefully at your program. I am very aware of it. I have 
had at least three conversations in his office with Earl 
Blumenauer, and I was just in Peter DeFazio's office a week 
ago. I would be happy to come to your office. I am sure I will 
hear the same thing.
    But the point is, sir, that we are very interested in what 
you are doing in Portland and we are very open-minded about it. 
And I think you will be very pleased here with what we are 
going to be able to do in working with you to make some of the 
things that you all have been planning and working on and 
implementing further reality for really making Portland and 
other places in Oregon really livable communities.
    You all are way ahead of the curve on this and I have sort 
of adopted Earl's livable communities as something that we want 
to work with the Congress on and really make a part of the 
authorization of a transportation bill. I think we have to do 
it for the people, for what the Chairman said about what is 
going on in his State and the connection of communities and 
people being able to get out of their cars and riding buses or 
riding bikes or however you want to express it.
    But I think you will be pleased that we will be working 
with you and there is a lot more open minds as a result of the 
leadership that we have received from the White House and our 
ability really to look at this in a very productive way, I 
think.
    Senator Merkley. Mr. Secretary, I am absolutely thrilled to 
hear your comments, and as you can tell by the enthusiasm of 
our Congressmen that you have spoken with from both Northern 
Oregon and Southern Oregon, we are very united in the success 
of this. But we do look forward to, instead of just inviting 
you to our offices, to actually get you out on one of those 
streetcars in Oregon and we----
    Secretary LaHood. I will be there.
    Senator Merkley. Thank you so much.
    The second piece I wanted to address is really to echo 
Senator Dodd's comments about the efforts to tackle some of 
the--to streamline some of the bureaucratic processes, and I 
deeply appreciate your reference to the Tiger Team that you 
have put together. We have found it much more difficult with 
transit issues than with surface transportation or highway 
issues, and part of it is the need to complete each and every 
phase before you can move on to the next phase. So, for 
example, we are working on an extension of our light rail 
system to Milwaukee and we are trapped in early preliminary 
engineering, because until we get that box checked, we can't 
proceed to the next stage.
    We would love to work with your folks to figure out how we 
can emulate more expeditious procedures in making transit 
happen, because it is just a series of obstacles that make 
projects take far longer than they would ever need to.
    And so I think you have really already addressed this as a 
question. I certainly invite any additional comments, but I 
wanted to thank you for your Tiger Team and say how important 
this is to the success of building transit.
    Secretary LaHood. Well, look, I think the fact that the 
Chairman, the Ranking Member, Senator Bennett, and now you, 
sir, have raised this issue, we really need to deal with this 
at the Department. I think we have the ability to do it. We 
should not let the bureaucracy get in the way of creative, 
innovative ideas being carried out in as expeditious a way as 
possible. I get the point here.
    I mean, the value of this hearing today is that all of you 
have expressed the idea that it takes too long, and you know my 
point is we have got to do things by the book. But we have 
proven that we can do them by the book very quickly and get an 
enormous amount of money out the door by the kind of 
coordination that the Tiger Team has allowed us to do. And so I 
take all of your points on this, very well made. I will be 
committed to trying to figure out ways in our Department to do 
things right, but to get them done quicker.
    Senator Merkley. Your approach is refreshing and energizing 
and thank you very much.
    Secretary LaHood. Thank you, sir.
    Chairman Dodd. Thank you very much.
    Senator Bennet?
    Senator Bennet. Thank you, Mr. Chairman.
    Mr. Secretary, first of all, happy to have you stop in 
Denver on your way out to Portland or on the way back.
    [Laughter.]
    Senator Bennet. So let me know when it is going to be.
    I want to just continue in this vein and say thank you to 
you and to the President for keeping up your end of the bargain 
with respect to the Recovery Act. We in Colorado have received 
$100 million in transit money as part of that and your team 
made that happen in an expeditious way. We really appreciate it 
and our constituents noticed this. I mean, it is so frustrating 
to people that things in Washington seem to take forever and 
decisions never get made and they never--it takes so long to 
see the benefits come back to them. I think the administration 
really has done a real service here by holding up its end of 
the bargain and my hope is that it will continue to do that 
over the next 18 months or so.
    Transparency is incredibly important. Accountability is 
incredibly important. Making sure that the money is getting 
spent where we said it would be spent is the most important 
thing. But I would say the second most important thing is that 
we act expeditiously. So I just want to join my colleagues in 
urging you to, as you said you will, to do that.
    And in that vein, since you have been on this side of the 
table, I would love to hear your thoughts about how we move 
this authorization process along. As you know, SAFETEA-LU was 
enacted 22 months after T-21 had expired. How do we avoid doing 
that again? How do we move this forward as fast as we can?
    Secretary LaHood. Well, I am not an independent operator 
anymore, so I didn't get elected to anything last November. Let 
me just say on the transparency issue first, we have a--there 
is a Web site that we put information into every day. It is 
called Recovery.gov. It is at OMB, but it is also something 
that the White House has taken a great deal of pride in. Any 
taxpayer right now can access information about where the money 
is being spent from the recovery, how many dollars have gone 
out the door, what States have gotten it, and ultimately what 
projects are funded, and ultimately--not yet, but ultimately, 
how many people are put to work.
    We are all very proud of that, and that came from the very 
top. That is the President. Every time the President has given 
a speech, or when I have been with the Vice President, 
Recovery.gov is one of the things that is emphasized. We want 
taxpayers to know, this is an enormous amount of money and we 
believe it is going to put an enormous number of people to work 
in good-paying jobs this spring, summer, and fall. I believe 
that. But we want total transparency. We want hard-working 
taxpayers to know their money is being spent correctly.
    With respect to your question about how you get a bill 
passed, I think for starters you are going to have an 
administration, including myself, which I said I am privileged 
to be a part of this team, that is going to work very closely 
with Congress on getting a bill as quickly as you all can get 
one. We are going to be full partners with you in all of this. 
That will be a pretty good start.
    I know Chairman Oberstar in the House has a very ambitious 
schedule to get a bill passed, hopefully, I mean he claims 
before the end of the fiscal year. I don't want to speak for 
him, but I have had about four or five meetings with him and I 
know this is his No. 1 goal. It will be up to all of you over 
here to work as expeditiously as you can. But you are going to 
have a real partnership with this administration and this 
Department to get this done, because we have to have a good 
follow-on to the Recovery Plan. If we are really going to have 
sustainability and have the ability to keep these people 
working beyond the 18 months, we need to have an authorization 
bill that takes us beyond the 18 months into the next 5 years 
and we are going to work with you on that.
    Senator Bennett. I appreciate that.
    Thank you, Mr. Chairman.
    Chairman Dodd. Thank you very much.
    We have been joined by Senator Kohl coming in. Senator, 
welcome this morning. We have had the Secretary with us a bit 
here. I don't know if you have any comments.
    Senator Kohl. Yes, I have. Thank you very much, Mr. LaHood. 
Last year, the Federal Transit Administration proposed changing 
the rules regarding public transportation to and from the 
schools. Particularly, the new rule prevents transit systems 
from matching travel times and the patterns of the students, 
with consequences for both the students and the transit systems 
serving these communities.
    Yesterday, I heard in Wisconsin from systems about the 
heavy toll that this proposed change would take on their 
agencies and the families they serve. Transit agencies, school 
boards, and principals have commented on how this change is a 
break with over 30 years of policy.
    My question is, will the FTA reverse this proposed rule? 
And without changing the rule, is it your understanding that 
transit agencies could well be subject to lawsuits to terminate 
the services they currently offer on behalf of students? Are 
you familiar with the topic?
    Secretary LaHood. Yes, sir, Senator Kohl. I was briefed on 
this and I really wasn't aware of it until I prepared for this 
hearing. Your staff was good enough to work with us and I know 
about this, and what I would say to you, sir, is that we are 
evaluating all--the docket is closed on this and we are 
evaluating all the comments. We know that this is a very 
serious problem, and I just want you to know that we are going 
to look at the comments and we are in the process of really how 
best to decide to move forward.
    But I know it is a real serious issue, not only in your 
State, but in other States, too. And we recognize that now and 
we appreciate the fact that you have brought this to our 
attention. I want you to know that we are going to look at it 
very carefully and review it very carefully. I don't want to 
say something here today that I can't really stand by, but I 
want you to know that we are taking this very seriously and we 
know it is a real serious concern in Wisconsin and in other 
States and we will look at it very carefully.
    Senator Kohl. The rule, as I understand it, what, has not 
yet been implemented, the new rule?
    Secretary LaHood. That is right.
    Senator Kohl. So it does give you the chance to review it 
to be sure it does--that our buses really serve the purpose in 
picking up----
    Secretary LaHood. That is correct.
    Senator Kohl. Otherwise, what is the point?
    Secretary LaHood. That is correct.
    Senator Kohl. And right now, as I understand it, the buses 
will maybe go here and there and to the other place to be sure 
that they can accommodate students in terms of picking them up 
and dropping them off in the afternoon. And if we say, well, 
that is not something we do anymore, I don't understand what 
the purpose would be in implementing that kind of a rule. At 
least on the surface as we look at it and think about it in our 
discussion today, it seems to be--not to be the intent of what 
we are trying to do, isn't that true?
    Secretary LaHood. It is, and again, as I said earlier to a 
couple of other Senators, I think the value of my service in 
this position is I have been a Member of Congress for 14 years 
and I would like to think I bring a little level of common 
sense here.
    Senator Kohl. Right.
    Secretary LaHood. I take your point, Senator.
    Senator Kohl. I do appreciate that, Mr. Secretary.
    Thank you, Mr. Chairman.
    Chairman Dodd. Thank you very much, Senator.
    Mr. Secretary, we thank you. I don't know if my colleagues 
have any additional questions they want to raise, and maybe we 
will leave the record open for a day or two here to submit some 
to you in writing. But I think all of us appreciate very much 
your knowledge of these issues, and the fact that you have 
served on this side of the dais gives us some confidence that 
you understand the perspective, obviously, of those of us 
representing our respective States and the needs and demands 
out there.
    I am particularly heartened that you responded favorably to 
the issue of the bias that occurs bureaucratically between 
modes of transportation, which really should not be the case at 
all, that we ought to be in a position where we allow 
communities to decide what they think is in their best 
interest, particularly when you talk about regional and 
national issues, as well, that we have a chance to work that 
out so we don't tilt this conversation in such a way that it 
makes it difficult to even talk optimistically about a transit 
process that could be far more vital and vibrant than it 
presently is.
    And I appreciate, as well, your support, at least 
generally, for the notion of examining more creative ideas on 
how we end up financing and funding a lot of these needs, 
because clearly in the absence of that, this is nothing more 
than a lot of talk. If you don't have the resources to do it, 
then you can't do much at all, and these are obviously hard 
times, but these hard times are forcing us to think more 
creatively and differently and that is not a bad thing. 
Obviously, we would trade the hard times for the alternative, 
but we are in the hard times, whether we like it or not at this 
point, and none of us like it, so we need to be talking about 
ways in which we could be imaginative in moving forward.
    So we are very excited about your presence, and the 
sustainable development issue one that clearly I am going to 
pursue and would like your thoughts on that, as well, as how we 
bring together respected agencies to think holistically about 
this. The more we do that, I think the better off we are really 
going to be, where we get various agencies and constituencies 
thinking in a common direction on these issues.
    And transit is the one issue in many ways that links all of 
these other issues together--the housing issue, the energy 
issue, the environmental issue, as well as obviously moving 
people. And it seems to me it is the linchpin that brings us to 
a point here where we can get that level of cooperation we have 
been talking about for many, many years. But now we are in a 
wonderful position, I think, to move forward with it, and you 
can play such a pivotal role in that debate and discussion as 
we go forward. So I thank you very much for being here.
    Secretary LaHood. Mr. Chairman, can I just say that I am 
going to take your suggestion. I am going to talk to the 
administration about your letter. I think your letter is well 
stated and signed by other Senators, and so I am going to speak 
to them about that and we will see what happens.
    Chairman Dodd. Thanks very much, Mr. Secretary. Glad to 
have you with us.
    Now we will get to our second panel as the Secretary moves 
along and I am going to ask our colleague from Colorado if he 
would like to introduce the Mayor.
    Senator Bennett. Thank you, Mr. Chairman. I would like to 
introduce the Mayor, John Hickenlooper. We are very fortunate 
to have him here today. I think that he is one of the most 
visionary leaders in the country right now. Time Magazine named 
him one of the top five mayors in the United States.
    He got his education at Wesleyan University in your home 
State, where he began his entrepreneurial approach to life by 
creating, among other things, a community health center that is 
still in existence, still serving the people of Middletown, 
Connecticut. He was a small business owner in Colorado that got 
fed up with what he described then as the fundamental nonsense 
of government, ran for Mayor, and brought an entirely new 
approach to governing in Colorado that has now gone beyond just 
the city limits of Denver but has reached from one end of the 
State to the other.
    The leadership on transit that he has shown with his 
colleague mayors and commissioners around the city has really 
become a model for regional cooperation, as you were just 
saying, over lots of other things, like water, natural 
resources, I hope someday education. And all that is a 
consequence of the discussions around transit and what it means 
for our quality of life. He has also led a fight against 
homelessness in Denver that is a model for the rest of the 
country and has been adopted in many other cities.
    So I believe that, as you were saying, and I want to 
applaud your letter on sustainability, that the issues that 
attach themselves to transit are so important that they could 
actually change the political conversation in this country and 
give us the chance to solve some of the problems that we 
haven't addressed for a very long time. Mayor Hickenlooper's 
brand of politics and brand of leadership is a model for all of 
us as we begin those conversations, so thank you.
    Chairman Dodd. Well, thank you very much, Senator, and 
Mayor, we welcome you. As I have gotten to know the Mayor, as 
well, over the years, we brag about your Connecticut 
connections. And I have visited on more occasions than I can 
even begin to count the community health center in Middletown, 
Connecticut, that you helped start. In fact, I was at the--we 
now have several of them. I was at the one in Norwalk the other 
day and I am going to be in Torrington and Willimantic, but 
that community health center in Middletown is just a model of 
service to the community that is remarkable. And so even though 
you have gone back home to Colorado, you left a lasting 
impression and mark in the small State of Connecticut, so we 
thank you for that, Mayor.
    Let me introduce the person sitting to your left, Mr. 
Joseph Marie, who is the Commissioner of Connecticut's 
Department of Transportation and recently named Chair of the 
Standing Committee for Public Transportation for the American 
Association of State Highway and Transportation Officials. He 
has 22 years of transit industry experience. Mr. Marie has 
served in many executive positions, such as the Director of 
Operations and Maintenance for Metro in Phoenix, Arizona. We 
welcome you before the Committee. You are doing a great job in 
our State and we are honored to have you with us today and 
thank you for the work that you have been doing.
    And finally, and Senator Reed has already, and maybe wants 
to add some additional thoughts, but I had a wonderful 
conversation yesterday with Bev Scott and have gotten to 
understand how much a role and how important she is and how 
knowledgeable she is about all of these issues.
    Jack, do you want to add any additional thoughts?
    Senator Reed. Beverly was an extraordinary leader of our 
public transit authority, and so good that she was lured away 
by Atlanta. But we are hoping that she returns home some day. 
She is a great professional and I look forward to her comments, 
Mr. Chairman.
    Chairman Dodd. I should point out, she is the General 
Manager and Chief Executive Officer of the Metropolitan Atlanta 
Rapid Transit Authority, referred to as MARTA, and she is the 
Chairperson of the American Public Transportation Association, 
APTA, which I had the pleasure of addressing the other day as 
their national organization met in the city. As Jack pointed 
out, she has worked in Rhode Island, also New Jersey, New York, 
a wonderful broad experience in these areas, so we thank you, 
Bev, very much for being with us today.
    We will begin in the order we have introduced you, I guess. 
John, welcome, and we are anxious to hear your thoughts.

   STATEMENT OF JOHN HICKENLOOPER, MAYOR, DENVER, COLORADO, 
           REPRESENTING THE U.S. CONFERENCE OF MAYORS

    Mr. Hickenlooper. Thank you very much, Chairman Dodd, 
Ranking Member Shelby----
    [off microphone]
    I am a little new at this big city stuff.
    Chairman Dodd. Don't start that.
    [Laughter.]
    Mr. Hickenlooper. Thank you very much, Chairman Dodd and 
Ranking Member Shelby, members of the Committee. Senator 
Bennet, I especially appreciate the kind introduction. You will 
all see as I did that his unfailing good judgment and always 
good humor makes him a pleasure to have in any working group.
    I appreciate your inviting me to talk today about 
``Sustainable Transportation Solutions: Investing in Transit to 
Meet 21st Century Needs.'' We appreciate all of your hard work, 
especially the Housing and Economic Recovery Act of 2008, which 
has gone a long way to helping build our foundations.
    I also want to recognize and thank Secretary LaHood. As 
long as I have been working on transportation, it is just 
refreshing to have his positive energy and his collaborative 
spirit and we are very optimistic.
    This nation cannot deal with the energy and climate 
challenges without addressing the transportation sector head 
on. Oil independence starts with giving people good 
alternatives. This means going forward, all federally assisted 
transportation investments must address energy and climate 
concerns in addition to mobility and do this through needed 
shifts and reforms in Federal policies and programs.
    The foremost recommendation among the long list of 
transportation authorization policy positions that the U.S. 
Conference of Mayors adopted in June was a call for a 
metropolitan mobility program that really focused on not just 
congestion relief, but economic development, sustainability, 
and environmental matters. These must emphasize--all these 
efforts must emphasize sustainable transportation investments 
led by increased investment in public transit and intercity 
passenger rail.
    To accelerate the achievements of more sustainable 
transportation solutions, Federal policy must increasingly 
empower local elected officials, especially in metropolitan 
areas, to make the decisions on how Federal transportation 
resources can be best invested and to provide incentives for a 
collaborative process in our metropolitan regions.
    As Mayor of Denver, as Chair of the Transportation 
Committee of the U.S. Conference of Mayors, my own perspective 
on the transportation authorization bill is driven by our 
experience and collaboration across the metropolitan region to 
build our FasTracks transit project. Twenty-five years ago, a 
young lawyer challenged the people of Denver to imagine a great 
city. Federico Pena went on to become Secretary of 
Transportation for 4 years under Clinton and his challenge was 
taken to heart.
    Metro Denver has been nationally recognized for our 
capacity to plan and work collaboratively across potentially 
balkanized local jurisdictions. When we passed FasTracks in 
2004, all 32 mayors, Republicans and Democrats, large cities 
and small towns, unanimously supported a four-tenths of a cent 
sales tax increase on our regional area, which as Senator 
Bennet noted was roughly the size of Connecticut.
    From our FasTracks transit project to our regional economic 
development initiatives to our cultural facilities tax 
districts, all of which involve and benefit the localities 
within the eight metro Denver counties, this collaborative 
ability continues to grow. Beyond the collaboration, FasTracks 
represents a possibility for successful transit, not just in 
the more dense and older cities, but across the American West. 
Especially at this moment in history when we have factories and 
other Brownfield sites sitting empty, we have the opportunity 
to transform how we grow, how we think about economic 
development, and we can change zoning so that we get 25- and 
30-block areas around transit stops with denser zoning where we 
have six- and eight-story buildings permitted that encourage 
retail and housing and various forms of mixed use all in the 
same place.
    As has been the case in other cities that have embarked on 
ambitious transit projects, FasTracks has tremendous potential 
for positive change in all these areas, from congestion 
reduction to energy savings to economic development. Most 
importantly, in these difficult economic times, it holds the 
possibility for sustainable economic development through job 
creation.
    Transit has been an economic development tool for Denver 
and for the entire region. We see close to TODs, to the Transit 
Oriented Developments, home values are higher. Closer to TODs, 
foreclosures appear to be lower. Choices are very important. 
When gas prices rise, people especially need alternatives. When 
the gas rose above $4 a gallon, lower- and middle-class 
Americans were forced to not pay mortgages and credit cards. I 
am not saying that this caused the economic collapse, but 
certainly if you follow the spike in gasoline prices and the 
level of foreclosures of those people on the margin, there is 
an alarmingly close correlation.
    Denver Union Station--or I should go back. Having a well 
planned, accessible, efficient transit system demonstrates a 
city's focus on its economic future. It is crucial to a city's 
ability to attract visitors and conventions. In fact, our 
transit planning, I think, was a key to Denver successfully 
hosting the DNC last summer, and as Senator Bennett would say, 
I think Salt Lake City experienced a similar success in hosting 
the Olympics with their transit.
    Denver Union Station, which has become an icon of Denver's 
transportation history, is being redeveloped as a modern, 
multi-modal transit hub, making it easier for people to access 
goods and services and creating hundreds of jobs, both short-
term in construction and long-term in new retail developments 
that will be included.
    TODs are one of the key priorities because they create 
economic vitality and improved quality of life and public 
safety. Because of their density and mixed uses, TODs are 
sustainable communities. Transit can also drive appropriate 
growth and spur sustainable economic development and land use.
    We deeply appreciate what Congress did in SAFETEA, which 
changed New Starts criteria by raising assessment of economic 
development and land use impact analysis to top priorities 
alongside the cost-benefit analysis. Transit can be a very 
powerful tool in orienting development. When the New York City 
subway system was first constructed, if you go back and look at 
the history, they built lines out into the cow pastures in 
Brooklyn and the growth followed. We envision the same 20- to 
25-year return on investment by expanding our lines from Denver 
to Boulder and Longmont.
    However, the problem has been in the previous 
administration an implementation by DOT, not Congress, which 
failed to take in some of these factors, such as economic 
development and other forms of assessment, and instead focused 
on simply dividing the number of current riders by the cost per 
mile. The analysis doesn't even adequately take into account 
future population changes and out-year ridership. As I 
understand it, if you plan to build a transit station in a 
place where you know growth is coming, the evaluation still 
forecasts zero ridership. I understand that economic benefit 
and land use are difficult to measure, but there clearly are 
ways to do it and it is critical that we do so. It is equally 
critical that this forward-thinking investment, as well as 
environmental impact, be considered by DOT now and be 
reasserted in any reauthorization.
    Thank you.
    Chairman Dodd. Thank you very much.
    Mr. Marie?

    STATEMENT OF JOSEPH F. MARIE, COMMISSIONER, CONNECTICUT 
    DEPARTMENT OF TRANSPORTATION, ON BEHALF OF THE AMERICAN 
   ASSOCIATION OF STATE HIGHWAY AND TRANSPORTATION OFFICIALS

    Mr. Marie. Good morning, Senator Dodd, Ranking Member 
Shelby, members of the Committee. I am pleased to be here today 
to represent the State of Connecticut as well as AASHTO's 
Standing Committee on Public Transportation.
    I spent my entire career in the field of public 
transportation, although I must admit to you today that my 
journey in the business started many years before my career 
earning money. One day at a young age, about 10 or 11, I 
boarded a Route 430 bus to the Malden Center subway station in 
Boston. I remember the freedom and the exhilaration that this 
gave me. It had nothing to do with the technology or the ride. 
I felt mobile and the world around me was not so small and 
constrained anymore. I felt alive and rich with ideas.
    This is not the first time I had taken the train. In fact, 
I had taken it many times as a boy to Fenway Park. At one 
point, I thought Fenway was indeed the last stop on earth. 
Within 2 years, I knew every stop of the MBTA system. Taking 
the buses, trains, and subways was my connection to the outside 
world. It made me mobile, connected me to a larger place, and 
opened my eyes.
    About a decade later, and after a brief tenure working here 
in Congress, I started my career as a management intern with 
the very same MBTA. Over the last 24 years, my journey in the 
field of public transportation has taken me to virtually every 
corner of the earth. I have worked on, studied, and written 
about transportation systems all over the world. And while the 
Nation as a whole has made tremendous progress in recent years, 
particularly in the development of light rail and commuter rail 
systems, we lag significantly behind our counterparts in 
investment levels in Europe and Asia.
    In a few minutes, I want to share with you some facts and 
figures that should give you a sense of the current state of 
the business, but I first wanted to share with you some 
assurances of some of the successes around the nation. I think 
these stories will demonstrate that the commitment of taxpayer 
money has been put to good use.
    In 2004, I had the pleasure to oversee the startup and 
testing of the Hiawatha Light Rail Transit System in 
Minneapolis, Minnesota, as Assistant General Manager of 
Operations. The success of this line is undisputed. Originally 
expected to carry 19,000 passengers per day, the line carries 
more than double that today. Plans are underway to build a 
commuter rail line to the north and a light rail line to St. 
Paul, which will provide much-needed relief to the congested I-
94 corridor.
    These are impressive statistics and developments, but more 
impressive to me was the reaction of people who attended 
Minnesota Vikings and Twins games along the corridor. I 
remember working the first games after the rail line opened and 
watching thousands and thousands of passengers streaming from 
packed trains with smiles on their faces. Even the Green Bay 
Packers seemed to enjoy it.
    These customers had choices. They could have easily driven 
their automobiles to the game, but they chose the train 
instead. Having a train system to serve downtown Minneapolis 
has improved the quality of life, sustainability and livability 
of the urban core. Private developments, including retail and 
housing, have sprung up around the stations. There was a time 
when many of our cities and their respective downtowns were 
places to avoid. Today and recently, there is a movement back 
to our urban cores.
    In the last century, our train centers were places where 
people converged. Buses and trolley lines provided seamless 
connections to inner-city trains. Today, our topic is investing 
in transit to meet 21st century challenges. Well, we can look 
at history and find a lot of solutions to what comes in front 
of us in the future.
    Until very recently, I served as Director of Operations and 
Maintenance for Metro in Phoenix, Arizona. I oversaw the 
startup of a rail system which has linked the cities of Mesa, 
Tempe, and Phoenix. Although the system opened only a few 
months ago, ridership is exceeding expectations. Incredibly, 
ridership on Saturdays is actually higher than weekday 
averages, which should tell you something about choices. People 
will come to public transit if it works.
    About a year ago, I participated in the inaugural test 
trains from Phoenix to Tempe, where we made a brief stop at Sun 
Devil Stadium and had a chance to meet with a number of members 
of the senior community who were really looking forward to 
getting back on trolleys, as they called them, from their youth 
back in Pittsburgh. This was an incredible investment for the 
city--it was a $1.2 billion investment-- and also for the 
Federal Government. The good news is that investment attracted 
more than four times that in private investment and the line 
works very well today.
    Successful examples of integrating modern rail solutions 
into urban centers can be found all over the United States. 
Since 1980, 18 new light rail systems have opened in the United 
States, with the following being only a partial list: Houston, 
Dallas, Charlotte, Sacramento, Salt Lake City, St. Louis, San 
Diego, Portland, Denver. Seattle, Washington, will join the 
club later this year, and in a few years, Norfolk, Virginia, 
will see a light rail system open. In addition, new commuter 
and regional lines have opened in places like San Jose, 
Albuquerque, Nashville, and Fort Worth.
    The impacts of the overall livability the systems have had 
on their communities has been impressive. The economic 
development, transit-oriented development, and smart growth 
initiatives that have been spurred by these new starts has been 
dramatic.
    At home in Connecticut, I oversee a rather unique DOT. We 
are a fully multi-modal transportation organization responsible 
for the State's commuter rail system, bus operations, ferry 
services, ports, highways, bridges, as well as all public 
airports, including Bradley International Airport. In 
Connecticut, our Governor, Jodi Rell, has spearheaded one of 
the largest public transportation investments in the State's 
history. Why? As Senator Dodd pointed out, ridership on our 
rail lines is exploding in double-digit fashion.
    Together with our friends in Massachusetts, we are hoping 
to bring first-class rail service to the Connecticut River 
Valley between Springfield, Massachusetts, and New Haven, 
Connecticut. We have an ongoing dialog with Amtrak and are 
optimistic that we can form a partnership to obtain the 
necessary investment to bring this key intercity rail service 
to reality. This project is about economic development, jobs, 
and regional solutions.
    Around the nation, demand for public service is growing 
steadily. In 2008, ridership grew in every mode of public 
transportation, and they are now, as you indicated earlier, up 
to levels we haven't seen in 50 years. While some may say 
ridership has resulted from increased gas prices, it does not 
explain the fact that ridership continued to grow even after 
gas prices dropped late last year.
    Before closing my comments, I would be remiss if I failed 
to mention our appreciation for the recently enacted American 
Recovery and Reinvestment Act. You have thrown us an important 
lifeline during a turbulent time. A month ago, commissioners 
from DOTs around the country met with Secretary LaHood and we 
promised to put the money to good use and quickly. We will and 
we thank you.
    I wanted to let you know that I took Amtrak's Acela down to 
see you today. Like the four other trips I have taken on the 
Acela over recent months, I had the chance to look out the 
windows at our cities. While we have made some great strides in 
creating densities in these urban corridors, we can and must do 
better.
    In the months ahead, you will be confronted with important 
decisions related to reauthorization of the new surface 
transportation bill. You will hear from many about how much is 
needed and why. I will leave you with something which I believe 
you already know. Preserving, renewing, and reinvesting in our 
nation's infrastructure is absolutely inextricably linked to 
the economic well-being of our nation. Thank you.
    Chairman Dodd. Thank you very much, Mr. Marie.
    Ms. Scott, thank you very much for being with us today, 
Doctor, and we appreciate your tremendous efforts and work over 
the years.

  STATEMENT OF BEVERLY SCOTT, Ph.D, GENERAL MANAGER AND CEO, 
   METROPOLITAN ATLANTA RAPID TRANSIT AUTHORITY, AND CHAIR, 
           AMERICAN PUBLIC TRANSPORTATION ASSOCIATION

    Ms. Scott. Thank you. Chairman Dodd, Ranking Member Shelby, 
always my Senator Jack Reed, and all members of the Committee, 
it is an honor for me to have the opportunity to appear before 
you in my capacity as Chair of the American Public 
Transportation Association and General Manager of MARTA in 
Atlanta.
    Let me start by thanking you and all the members of the 
Committee for your national leadership and focus in this 
absolutely crucial area. I have personally been privileged to 
work in the industry for over 30 years, serving diverse 
communities across the United States, and I can honestly say 
that regardless of the size of community, how effectively we 
move people, goods, and services is key to economic 
competitiveness and overall quality of life. It is just that 
basic and a fundamental that our country and public has 
understood and invested in from our earliest days.
    My written testimony on behalf of the American Public 
Transportation Association has been submitted and I want to 
focus my personal comments on a few key things.
    First and foremost, we desperately need a significantly 
greater investment in all aspects of our nation's public 
transportation infrastructure. At the same time, these are very 
changing and different times that will require bold leadership 
and transformational thinking to help us make the kind of 
break-throughs necessary to help us get unstuck. We definitely 
agree with you that this next transportation bill will not be 
business as usual.
    Almost heretically, I will say that while there has been 
some movement, for the most part, we are still largely suited 
up in 20th century armor for a 21st century world from how we 
fund public transportation to how we organize public 
transportation to how we manage public transportation and 
deliver all of the various programs, still much too siloed, 
fragmented, and protective of turf, all of us typically much 
more comfortable with a focus at the tactical level of needs 
and funding formulas than the more visionary and strategic 
level of national goals, mode-neutral resource allocation, 
outcomes, performance metrics, and standards.
    This past year, APTA developed a strong, bold vision for 
the future, Transit Vision 2050. In 2050, America's energy 
efficient, multi-modal, environmentally sustainable 
transportation system powers the greatest nation on earth. 
Getting from here to there will definitely require a 
significant shift in thinking, planning, funding, organizing, 
managing, and a broader range of tools, both alternative 
business models, public-private partnerships, funding 
strategies, including tolls, usage fees, a National 
Infrastructure Bank, and innovative project delivery methods 
like design-build-operate-maintain approaches where it makes 
sense.
    Senators, the work that this Committee does to ask and 
address the big hard questions and break through the comfort 
zone of business as usual will be invaluable in helping to move 
America forward during these admittedly challenging times.
    The second theme I would like to emphasize is somewhat 
related to the first, and that is the importance of connecting 
the dots. Chairman Dodd, your idea about a Sustainability 
Office and the need to insist upon serious communication, 
policy, and program coordination between transportation, 
housing, energy, and environmental officials, as well as their 
Health and Human Services and Labor Department counterparts, 
would be a master stroke. All of these areas are interconnected 
and have profound impacts on the daily lives of people and the 
viability of communities across America, regardless of size or 
geography.
    Today, there is very little that consciously connects 
policy development resource allocation and/or program 
development and delivery between these key departments at the 
national level. At a minimum, some type of coordinating 
councils at a national and regional level would be extremely 
beneficial, anchored by a clear national vision once again 
focused on outcomes and actionable achievement strategies, 
smart public investments that produce real results.
    My final observations are a request that you help ensure 
that we also give priority attention to the people aspects of 
our industry as we rebuild, retool, and expand our physical 
infrastructure to move America forward. Please let us not 
forget the hundreds of thousands, millions of employees and 
workers across the full breadth of our national transportation 
industry. In order to be the best, our folks must have the 
tools, education, and training they need to excel. Simply, our 
human capital also requires an investment, and it is one that 
will pay off in tremendous dividends.
    Over the last several years at the National, State, and 
local levels, public transit management and labor have 
increasingly partnered together to develop and pilot a number 
of very key workforce development and training initiatives 
focused on skills development in critical areas like bus 
maintenance, complex rail signal and train control systems, 
escalator and elevator maintenance. Similar to the air traffic 
controller and maintenance challenges in aviation, we face the 
same kinds of impacts in surface transportation.
    Finally, we require national attention and action on the 
critical need for some assistance with operations and 
maintenance funding, particularly during this unprecedented 
economic downturn. I don't have to tell you that during the 
very time that people across the country are flocking to public 
transit at an all-time high, transit systems across the country 
are struggling with the negative impacts of our sagging 
economy, and alarming numbers are having to cut service and 
sharply increase fares and fees. The contradiction simply 
doesn't make sense.
    Recently, I heard it said that it is not logical to operate 
vehicles forever without any purchases of new equipment, and I 
agree. And it is equally illogical to spend money on vehicles 
and not use them. Somewhere between these two poles, we must 
find the balance that makes good common sense, particularly 
during these unquestionably atypical times.
    In summary, we thank you very much for actively soliciting 
our input as you move forward on this next transportation 
authorization. We urge this Congress to authorize the Federal 
Transit Program with a 6-year investment level of at least $123 
billion. The next program will absolutely require a wide range 
of financing options, but for the immediate future, we feel 
strongly that the base program must restore and increase the 
purchasing power of the Federal Motor Fuels User Tax while we 
concurrently move with a true sense of urgency to develop and 
implement a national transportation future funding model that 
is both economically and environmentally sustainable. We also 
need to have funding predictability, both for our agencies and 
our private sector partners. We also believe that we need to do 
everything that we can to simplify, coordinate existing 
programs within and across the departments and speed project 
delivery.
    Finally, I can only say again that there are many public 
transit systems across our country that are unfortunately on 
life support and I just have to say in the strongest of terms a 
plea that your immediate assistance in that regard would be 
most humbly appreciated.
    So thank you very much for the opportunity.
    Chairman Dodd. Thank you very, very much, and again, we 
thank all three of your for your participation and your 
testimony here this morning.
    Let me begin just briefly, Commissioner Marie. In your 
testimony, you cited your organization's goal of doubling 
transit ridership over the next 20 years. Obviously, that may 
be happening whether you wanted to do it or not. It is 
essential if we are going to address traffic congestion, 
energy, climate change, as well.
    Based on your previous experience in the public transit 
industry and your current experience in our home State of 
Connecticut, please share some suggestions as to how we in 
Washington can help State and local transportation leaders like 
yourself achieve this goal. Obviously, Mayor Hickenlooper and 
Dr. Scott, we would like to hear your thoughts, as well.
    Mr. Marie. Yes, Senator Dodd. That is a good question and I 
can tell you that our I-95 corridor is completely congested. We 
do not have the opportunity to expand the highway network, 
particularly in the southwestern part of the State, in 
Fairfield County, which is important to the overall economic 
health of not only Connecticut, but certainly the region and 
the country, as well.
    In order for us really to do something about that, we have 
to invest in the infrastructure along that corridor, the train 
line along that corridor. We have an older, antiquated 
signaling system. We are constantly investing in modernizing 
our overhead wire Catenary system, which provides the energy 
for the trains. In order to improve the overall throughput and 
capacity, we are going to continue to modernize that so that we 
can attract the ridership and sustain the ridership on the 
line.
    At the end of the day, it is going to come down to 
investment in new types of transit services. We view the 
potential service between Springfield and New Haven as a way 
for us to help out with some of the I-91, I-95 bottleneck in 
New Haven. And we are doing our part at the State level as much 
as we can. We are investing about $700 million in new trains 
right now, which are going to start being delivered later on 
this year. We are also investing $1 billion in a new rail yard. 
So we are making a fairly sizable State investment, but it is 
really putting a considerable damper on our financial state 
within Connecticut.
    We are doing the best we can, but we are going to need some 
help with not only sort of modernizing that corridor, which 
also serves Amtrak, by the way. We own 47 miles that the Amtrak 
high-speed service runs on. So we share those tracks and work 
together to coordinate that.
    But we are going to have to grow our bus system, expand our 
bus fleet. We are going to have to start service between 
Springfield and New Haven in order to achieve our goals of 
doubling ridership.
    Chairman Dodd. Very good.
    Mayor, do you have any thoughts on this question?
    Mr. Hickenlooper. Absolutely. I mean, there are several 
different approaches to attacking it. As our mutual old friend 
Mark Maselli once told me, the more money you save, the more 
people you can help, and so part of this is making sure that we 
allocate our resources correctly and we are as frugal and have 
enough resources so we can buy additional trains and rolling 
stock when we need it.
    Certainly in our situation, FasTracks becomes that solution 
by which, again, as cost-effectively as possible rolling out a 
transit system and making sure that the benefit in terms of 
congestion is where the congestion is the worst, and that is 
the crucial element in terms of getting the regional 
collaboration, is to be able to show people in all parts of the 
metro area who are traveling cross currents to every corner of 
the metro area that they all benefit by getting people off the 
roads. And I think that part of it.
    We can also provide more incentives, making sure that 
people have additional opportunities to have an easier trip. We 
are going to roll out this summer a bike sharing program that 
we tried during the convention. We will have 500 bikes this 
June, and then another 500 bikes for a total of 1,000. They 
will be located close to or at each bus stop or transit stop, 
light rail stop, and then have other stations where they can 
lock this bike up, they can swipe a credit card and get it, and 
then swipe the credit card to lock it at the employment centers 
or places of work, so that taking transit becomes suddenly much 
easier and more available.
    Chairman Dodd. Dr. Scott?
    Ms. Scott. I think that the two things that you can really 
do at the national level to help us at the State and local 
level are, one, to really level the playing field in terms of 
the transportation decisionmaking in terms of funding. That 
will help to do more to rationalize what we wind up doing at 
the State and local level than I think just about anything that 
you could do.
    The other is to really once again help us focus in terms of 
outcomes and performance metrics. And so if we really wind up 
having a situation where one is making decisions and you have a 
level playing field in terms of funding, that will in and of 
itself help to make there be much more rational decisions that 
wind up taking place at the State and local level.
    Chairman Dodd. Yes. There have been issues raised, what we 
call metropolitan mobility, I guess is what some have called 
it, and that is developing a mode-neutral metropolitan-focused 
program that could directly fund metropolitan regions to 
advance sustainable transportation initiatives and address 
regional congestion issues.
    One of the concerns that we hear from those who are 
critical of that approach is the ability of regional 
governments to administer significant new funding. I wonder, 
Mayor Hickenlooper, I will begin with you--I will welcome 
response from the entire panel, but give me your thoughts on 
this issue as well as how we might want to structure a program 
focused on metropolitan mobility.
    Mr. Hickenlooper. Well, I think the efficiency in regional 
approaches to the implementation of these plans is clear. 
Certainly, depending on the regional area you are talking 
about, there might have to be some ramping up. There might need 
to be an evolution of how their decisionmaking takes place so 
that they can accommodate those larger sums of dollars.
    But I think that the key here is that the efficiencies are 
so significant that we have got to have that as the ultimate 
goal, that we have got to be looking at metropolitan areas. It 
is where the vast majority, over 85 percent of our jobs, are, 
almost 90 percent of our gross domestic product takes place, 
and to have them balkanized and having the decisions either 
being made in many places at small amounts or being made 
sometimes, with all due respect, on a State level so that the 
decisions are made by a group that isn't the citizens that are 
directly affected, it hurts that efficiency.
    In Denver, certainly, we have been able to demonstrate that 
on a regional basis, we can implement large-scale projects at 
significant costs. FasTracks is a $6.9 billion project that is 
moving forward on time. If you take out the incredible increase 
in commodity costs, it is on budget.
    Chairman Dodd. Dr. Scott?
    Ms. Scott. I was just going to say that I think that, and 
it is not to debate that--surely, there may wind up needing to 
be something that is added at the regional level in terms of 
some additional administrative support, but I think that the 
more that decisionmaking and resources are pushed down to 
regional and local levels that are closest to the people or 
closest to the issues and the needs that they have, the better.
    The other thing that I think that we are finding 
increasingly is that there is a tremendous amount of innovation 
that is taking place across the country in different locales, 
in regions of all different sizes.
    So when I just kind of come back and look at all the 
research that is out there in terms of mega-regions and regions 
and how much they are responsible for really moving us, that I 
think it would be, once again, a master stroke to move it down.
    Mr. Marie. I would just like to echo the Mayor's comment. 
Denver has, Salt Lake City has, Portland have done a great job, 
I think, administering and managing rather complex major public 
infrastructure investments. Connecticut is kind of unique in 
that the State DOT manages most of the efforts, but we work 
very cooperatively in partnership with all of our regional MPOs 
and planning organizations and districts to make their programs 
come to fruition.
    Chairman Dodd. Well, that is great.
    Senator Shelby?
    Senator Shelby. Thank you, Mr. Chairman.
    Mayor Hickenlooper, in your testimony, you advocate 
eliminating the current funding structure in which 
transportation is designated for either highways or transit. 
Some argue that a general pot of money without any required 
spending for transit would result in a significant decrease in 
funding for transit projects. Could you explain your reasoning 
behind this proposal and why the concern regarding transit 
funding might be misplaced?
    Mr. Hickenlooper. I am not sure, I will have to go back and 
look at my own testimony. I certainly didn't intend that. What 
we are trying to look at is by reducing the firewalls that 
separate these types of funding, what we are trying to look at 
is how can we be more mode-neutral in making our decisions on 
where to put financing. Now, I didn't mean to imply that we 
should get rid of those firewalls because obviously then from 
one administration to the next, or depending on where the 
emphasis is, things could change dramatically. I think as a 
country, we need to begin to define the outcomes we want and 
the expectations that we believe in and what are our guiding 
principles and then orient ourselves in that direction.
    I guess what I am talking about, perhaps a way to describe 
it is a greater permeability in terms of being able to move 
funding from one mode to another based on their outcomes.
    Senator Shelby. Of course, there is a great body of members 
of the House and the Senate here that are mainly interested in 
highway funding----
    Mr. Hickenlooper. I am aware of that.
    Senator Shelby.----as opposed to transit funding and so 
forth.
    Mr. Hickenlooper. They let me know that on a frequent 
level.
    Senator Shelby. Absolutely. New Starts--I touched on the 
issue of New Starts with the Secretary earlier, but I want your 
input regarding additional changes that need to be made to the 
overall process to ensure--to ensure that projects continue to 
receive a thorough evaluation and move at a more expeditious 
pace. Mr. Marie, do you want to comment on that?
    Mr. Marie. That is a very good question. I think that if 
you look at some of the New Starts that have taken place in the 
United States in the last 20 years or so, some of them have 
taken a long time to build, political consensus to build in the 
first place. That sometimes takes a considerable period of 
time. But if you look at the case of the light rail line that 
was built in Minneapolis, that project actually was conceived 
in 1972 when then-Attorney General Walter Mondale obtained a 
right-of-way in which the light rail line was ultimately built 
32 years later.
    I think that the Secretary is certainly, it appears to be, 
open to looking at ways to streamline the review process for 
New Starts. We are currently in a review process now for a 
busway that we are hoping to build between New Britain, 
Connecticut, and Hartford, Connecticut. It has been a long, 
tenuous process----
    Senator Shelby. How would the busway work, sir? How would 
it work?
    Mr. Marie. It is essentially a line that is a dedicated 
right-of-way for buses only. There have been successful 
examples of that in places like Pittsburgh and most recently in 
Los Angeles, where you essentially build a dedicated right-of-
way, or there might be an existing right-of-way. In this case, 
there is some existing abandoned railroad right-of-way that we 
are going to build a bus network on that will be basically 
serving only buses.
    Senator Shelby. You can move a lot of people that way 
quickly.
    Mr. Marie. You can move a lot of people quickly, so it is a 
good solution. I think at the end of the day, as we talk about 
these mode-neutral decisions, the truth is when we are going 
through the process of evaluating what works in any given 
corridor, the technology or the mode--or the sleekness of the 
technology should not guide the modal choice. The modal choice 
really should be driven by how many people you expect to move 
on your peak hour of service, and that generally results in a 
decisionmaking process that yields the technology of choice, 
whether it be busways or light rail or commuter rail. It just 
depends really on the corridor and the individual needs of that 
corridor.
    Senator Shelby. You just referenced that, but what about 
dedicated bus lanes in existing roads? We have heard a lot 
about that and that seems to be an economical way to move 
people.
    Mr. Marie. Yes, it certainly is a solution where you have 
potential untapped capacity on an existing roadway network. 
Regrettably, in Connecticut, we don't have that luxury these 
days. Our roadways are so congested that really we are at the 
point where our only choices are investing in--reinvesting in 
what we have and investing in new transit alternatives.
    Senator Shelby. Dr. Scott, we heard from Secretary LaHood a 
few minutes ago on the issue of insuring a state of good repair 
long-term. But I am also interested in your perspective and 
that of your organization you represent. What makes such 
seemingly basic efforts at maintenance a difficult, if not 
impossible, task, and what can be done to address the backlog 
and ensure that it does not happen again?
    Ms. Scott. I would say, number one, there is no question at 
all but that we are absolutely focused in terms of fix it first 
and state of good repair.
    Senator Shelby. Yes.
    Ms. Scott. And so what I will tell you is that we have 
built up a significant amount of infrastructure in this country 
and so we have to get about the business at all levels of 
significantly increasing the amount of investment that we have, 
that is both at the national level as well as at regional and 
local levels.
    I know I am going through this right now at MARTA. When we 
started out 30 years ago, we were brand new and so it was all 
build, build. Now we sit up on top of $6.4 billion in 
infrastructure, and so it is a reeducation for our community of 
really understanding that it takes--when you get to be middle-
aged, it takes more money to wind up--that is the key, is when 
you get to be middle-aged, it takes more money to wind up 
having to make those kind of investments than when you have the 
luxury of being new. And so I think that is a continuous, 
almost an education process for all of us that the state of 
good repair and fix-it-first is key.
    Mr. Marie. Senator Shelby, if I could add to that, just 
real quickly----
    Senator Shelby. Go ahead.
    Mr. Marie. I think Bev hit it right on the mark. I think, 
fundamentally, the regional transit authorities in large 
districts as well as States that run and maintain roadways and 
rail systems and bus systems do a very effective job on the 
day-to-day lifecycle maintenance of our assets and our transit 
infrastructure. Where we are all struggling right now is when 
we reach those midlife crises, when we reach that point where a 
train is 15- or 18-years old and the useful life is 35-years 
old, to get it to that useful life it requires some tender 
loving care. It is the same with our roadway system. So that is 
where we struggle, is with those peaks and valleys of 
investment in those sort of, you know, heavy maintenance 
midlife crises periods for all of our assets.
    Senator Shelby. Mayor, I will ask you this question first. 
Do you support requiring systems to achieve and maintain a 
state of good repair in order to receive additional Federal 
funding for new or expanded systems? In other words, should you 
or shouldn't you keep in good repair what you have before you 
expand more and exacerbate your problems? What should you do?
    Mr. Hickenlooper. Well, certainly--and let me tie back, 
Senator, back to your previous question, just to make sure 
that--because I did look up my testimony, and what I was 
talking about was trying to get past the bias in terms of 
actually the different firewalls between highway and transit 
funding. I am not and the U.S. Conference of Mayors is not 
saying that we should take down that firewall, but just that 
there should be less bias and really a mode-neutral approach.
    Senator Shelby. How do you describe that, because we would 
be very interested in what you mean by that? Do you mean bias 
toward highways as opposed to transit, or vice versa?
    Mr. Hickenlooper. Yes. Right now, there are a number of 
processes that are followed and there are various incentives 
that create--many people believe when you actually look at all 
the costs involved, more money should be going to transit, and 
especially when you look at places where the land value to add 
an extra lane on a highway becomes incredibly expensive.
    Senator Shelby. Sure.
    Mr. Hickenlooper. That is what we are talking about, is 
just reducing that bias.
    In terms of maintaining the quality of your operating 
system, obviously, I think that that is one of the roles of the 
Federal Government, is to make sure that we are not keeping up 
with the operating maintenance and the quality and the capacity 
of the infrastructure that we have built. Certainly, as you 
look around the country and you occasionally from time to time 
see a rec center or a library the community built and then 
doesn't have the money to operate, that is everyone's worst 
nightmare. I think that it rarely happens, and I think----
    Senator Shelby. How do we deal with it, then?
    Mr. Hickenlooper. Well, what is happening right now is with 
the sudden economy, the drop in sales tax and most of the 
funding mechanism suddenly puts the operating systems of almost 
every transit system in the country at peril. Certainly what 
you are all doing in terms of trying to solve the various 
issues around the financial crisis and being optimistic, we 
appreciate your, I think, the tone that you all set here is 
going to go a long way toward turning this economic crisis 
around, and that is going to be the best thing we can do to 
help operating systems and maintain that equipment.
    Generally, I don't think it was a significant problem in 
very many places. It has never been a problem in Denver in 
previous years.
    Senator Shelby. So basically, do you support requiring 
systems, including your own, to achieve and maintain a state of 
good repair in order to receive additional funding for 
additional----
    Mr. Hickenlooper. Yes. Obviously, the devil is in the 
details and how one defines good repair and what that exactly 
is defined as----
    Senator Shelby. Well, basic maintenance----
    Mr. Hickenlooper. Basic maintenance, I completely agree 
with that. I don't think we should be all building things if we 
don't have a plan of exactly how we are going to finance that 
going forward.
    Senator Shelby. Well, the best thing would be to do both.
    Mr. Hickenlooper. Right.
    Senator Shelby. Mr. Marie?
    Mr. Marie. Yes, Senator Shelby. One of the things that we 
all had to sign, our Governors had to sign in receipt of 
stimulus funding is to certify that we are indeed maintaining a 
level of effort on our existing infrastructure and within our 
existing program for maintenance of our existing 
infrastructure----
    Senator Shelby. Do you certify it yourself or do the 
transportation people check it?
    Mr. Marie. Well, we have a number of different checks and 
balances to certify that.
    Senator Shelby. OK.
    Mr. Marie. But I think that, fundamentally, you would find 
that the industry would welcome the notion of ensuring that we 
maintain the current level of our investment and our 
maintenance efforts to ensure the safety and reliability of our 
systems, and tying that to receipt of money, I think is a good 
idea.
    Senator Shelby. Dr. Scott, what is your view personally, 
and then that of your Association?
    Ms. Scott. My personal view is that a state of good repair 
is critical. I tell people all the time, the best marketing 
that I do is the quality of the service that I put out the day 
before. But at the same time, sir, I think we have kind of 
gotten ourselves into a conundrum, and Joe kind of talked to it 
earlier. There are three levels of pots in terms of how to keep 
it running: Day-to-day operation and maintenance, you have got 
what is a system preservation and a state of good repair, and 
you have got expansion.
    And so what has happened is because we have so much that 
went into the growth mode when we were--everything was new, 
that we have kind of got that part of it. Now we have this big 
bulge for us as a country and a region of this now, all of this 
infrastructure that is now into these 30s, 50s, 70s, 75-, 90-
years old and there really has not been the funding there at 
all of the levels to wind up really accommodating that. So what 
is going to have to happen is that all of us together are going 
to have to be realistic about that and then figure out how we 
put our arms around it and come at it.
    And so I can't--I am always going to say state of good 
repair because I am never any better than what I am 
maintaining. But at the same time, we have had such tremendous 
growth, we can't just say state of good repair completely and 
then say we are not going to do anything for expansion because 
that is not going to be practical. That is not going to be 
practical, either.
    Senator Shelby. On your own transit system in the Atlanta 
area, you said that you have invested about $6 billion, more or 
less. How far outside of the city of Atlanta does MARTA go now? 
Is it extended into the other counties now?
    Ms. Scott. We are in Fulton and DeKalb County, and we 
actually had the first time unanimous adoption of a 14-county 
Concept 3 plan that occurred in December, and so I think you 
are going to begin to see some additional expansion that is 
going to take place in the Atlanta region.
    Senator Shelby. Thank you.
    Thank you, Mr. Chairman.
    Chairman Dodd. Thank you, Senator Shelby.
    Senator Reed?
    Senator Reed. Just very quickly to Dr. Scott and Mr. Marie. 
The Secretary talked about open-mindedness toward operating 
assistance to local transit authorities. If you could both 
elaborate. And also the issue of ensuring a maintenance effort 
by locality, because the strong temptation in these times is 
to, someone else is paying, and then not to pay.
    And thank you, by the way, Mr. Mayor, for your 
extraordinary service in Denver. I enjoyed very much last 
August. Thank you. For many reasons.
    Dr. Scott?
    Ms. Scott. As I have said, Senator, this whole area in 
terms of operations and maintenance support, certainly during 
this period of economic downturn, is critical, but I would 
actually urge the Committee on a personal level to relook at 
the whole issue of operations and maintenance support, period, 
as you move into authorization.
    You know, about 10 or 12 years ago, there was a sea change 
that took place in terms of large- and medium-sized systems. 
Any system over 200,000 no longer is able to be eligible for 
operating assistance, and I would just urge you to take another 
look at that during authorization.
    But the most critical problem that we have right now is 
that particularly with what has occurred in terms of the 
plummeting of local sales tax and revenues, that there are 
systems that are just absolutely, I am just saying, at life 
support, period. We were not successful in stimulus in terms of 
getting that point--as effectively getting that point across 
and we need your help. I just can't say it any other way or any 
more strongly than all of the support that would be needed in 
that regard.
    Senator Reed. Just a quick follow-up before Mr. Marie 
responds is that one other way, I think, that would link 
operating assistance would be to those systems that are 
environmentally advanced, electric or hybrid vehicles, so that 
essentially we are not investing in the old technology, but we 
are supporting operationally the new technology. It might be 
both substantively and symbolically a better way to approach 
this than simply saying we ought to give you some money to keep 
going.
    Ms. Scott. Yes.
    Senator Reed. Mr. Marie, please.
    Mr. Marie. You hit on a very important point. We are 
getting hit with a double-whammy in some respects in our 
industry. We are in an industry where our operating costs are 
growing, and a lot of that is related to health care. All of us 
are struggling with maintaining--we certainly want our 
employees to have good health care, but that is increasing our 
direct operating cost. And at the same time, we have 
infrastructure that is requiring more tender loving care. So we 
have these big capital needs colliding with big operating needs 
and we are all struggling around the country.
    And I think the Secretary was talking about the big seven, 
the Bostons, the New Yorks, the Philadelphias, the Chicagos of 
the country that are incredibly important cities to the 
vitality of this nation. What they are going through right now 
is something that the London Underground went through in the 
early part of the 1990s and up until the turn of the century. 
The London Underground was once a marvel for public 
transportation subway operations and they got hit with that 
whammy of rising health care costs and infrastructure costs 
that they just could not keep up with. They are still trying to 
dig themselves out of that mess.
    So we have to take strides in this nation to make sure that 
our big cities--can avoid that to the greatest extent possible 
and operating assistance would be helpful to them. I think the 
more critical need for the big cities is that modernization of 
the existing infrastructure. Preservation of aging 
infrastructure is going to be the big challenge.
    Senator Reed. Thank you.
    Thank you, Mr. Chairman.
    Chairman Dodd. Let me just point out, as staff has said, we 
put $100 million, Jack, I think, in the stimulus package to 
deal with the energy efficiencies and so forth. We hope that 
will be of some help, Mr. Marie, as I see Dr. Scott nodding her 
head affirmatively, as well. And obviously beyond that, because 
that is money initially, but you have to have a sustainable 
program, as well. This gets you over a hump but doesn't deal 
with the long-term problems.
    Thank you, Senator, very much.
    Senator Bennet.
    Senator Bennet. Thank you, Mr. Chairman.
    Mayor, I just wanted to go back to the conversation you 
were having with the Ranking Member because I wanted to make 
sure I understood what you were saying, and I think I do, and 
that is that when you look at the difference between highways 
and transit, it seems like the red tape and the regulatory 
aspects that get in the way of communities like ours getting 
these projects off the ground are what the U.S. Conference of 
Mayors is trying to deal with, is that right?
    Mr. Hickenlooper. Exactly.
    Senator Bennet. OK. And then I wonder if you would talk 
just briefly about--I was interested in your comment about how 
the existing formulas don't take into account things like 
economic development and the benefits of that, and I think that 
my impression from your work in the metro area of Denver is 
that that was a critical part of being able to bring all of 
these competing interests together to say, you know what? We 
can do this together. And I wonder if you could share with the 
Chairman of the Committee what the economic development effects 
have already been in Denver as a consequence of FasTracks, and 
not just Denver, but the region.
    Mr. Hickenlooper. Right. We can already see, and again, 
around the proposed transit-oriented developments around the 
stations, we can see an increase in property values. We can see 
a demonstrated--an added success in terms of office space 
utilization and the price per square foot that office space 
rents at. We also see a much greater expansion of investment 
around these stations and connected with the investment of 
light rail, to the point where I think as it builds out, and by 
2017 we will see many billions of dollars, a significant level 
multiplier from that original investment in terms of direct 
economic benefits.
    That part of the--that part that you don't see is the 
collaborative nature of building FasTracks helps our community 
work collaboratively in all these other areas. So now we are 
beginning to merge together fire districts and seeing dramatic 
savings in the delivery of other services by, instead of doing 
it on an balkanized basis, by doing it in a collaborated and 
consolidated basis. The savings in Denver alone, we will be 
able to take street repair, fire, police, six core services, 
would be somewhere in the vicinity of $250 million per year, 
were we to pull that all together. That is a back-of-the-
envelope kind of rough justice approach. But those are all 
things that I think you have to kind of factor into this kind 
of a network.
    Senator Bennet. And I think it is particularly important 
when we talk about things like the deferred maintenance that we 
were talking about a minute ago to remember that this really is 
an investment in our communities, an investment in our economy, 
and we need to think about it that way. I mean, in order to 
really have the cost-benefit analysis pencil, we need to 
understand it that way.
    I wonder if either of the other two witnesses have----
    Mr. Marie. Senator Bennet, the system in Denver is a 
remarkable success story. When you get right down to it, you 
are talking about a system that when started, it was a 5.5-mile 
system consisting of 14 trains. Within 60 days of opening that 
system--I was working at Siemans Transportation Systems at the 
time. We built the trains for the Denver system and also for 
the Salt Lake system. Within 2 months of opening the system, 
they were calling us to order more trains because they couldn't 
handle all the capacity on the line, and now I think the Denver 
RTD system is up to more than 100 trains. And that is only in 
12 or 13 years of operating. So it is a tremendous success 
story. It has spurred great development.
    I think we all have seen what has happened with our 
stations. They have become places where people want to go now 
and to do business and to have lunch and to meet. I could tell 
you that our stations on our Metro North Line: Stanford, New 
Haven, and Fairfield, we have robust transit-oriented 
development programs developing around those stations and it is 
really up to us to work closely with those towns and 
municipalities to make those things come to fruition.
    Ms. Scott. We have had the same experience in the Atlanta 
region. Actually, where our headquarters is is one of the kind 
of legendary transit-oriented developments with Lindberg. We 
just had Georgia State University about a year ago completed a 
report for us. We have, just because of the developments and 
our transit system, we have generated over $2.5 billion 
additional investment for the area and over 40,000 jobs, and 
that is just to date. And when you look at what is projected 
over 2030, those numbers are like ten times.
    Senator Bennett [presiding]. Well, we are all that is left, 
so----
    [Laughter.]
    Senator Bennett. I want to on behalf of the Committee thank 
the three of you for your testimony. It is fascinating. I think 
we are in fascinating times in this country and this is going 
to be a big part of moving us forward.
    And with that, we are adjourned. Thank you.
    [Whereupon, at 12:13 p.m., the hearing was adjourned.]
    [Prepared statements and responses to written questions 
follow:]
                PREPARED STATEMENT OF SENATOR JACK REED
    Chairman Dodd, thank you for holding this important hearing as we 
begin the process of reauthorizing our nation's surface transportation 
policy.
    Secretary LaHood, thank you for your continued service to the 
country and for coming before the Committee today. I would also like to 
welcome and acknowledge Dr. Beverly Scott, General Manager of the 
Metropolitan Atlanta Rapid Transit Authority (MARTA), who will be on 
the second panel representing the American Public Transportation 
Association (APTA). Previously, Dr. Scott ably led the Rhode Island 
Public Transit Authority (RIPTA), and I am pleased that she is bringing 
her perspective to the Committee.
    Mr. Chairman, last September, this Committee held hearing titled 
``Strengthening the Ability of Public Transportation to Reduce Our 
Dependence on Foreign Oil.'' At that time gasoline was still $3.73 a 
gallon, down slightly from its July peak of $4.16. Those high fuel 
costs had brought increased ridership to transit systems. Indeed, 
according to a report released by APTA on Monday, 2008 ridership was 
the highest it has been in 52 years. However, faced with the same price 
increases as other consumers, including average diesel prices as high 
as $4.76, systems struggled to accommodate the growth in demand last 
year. Ironically, agencies dependent on gas tax revenue saw their 
operating budgets revenue slump as more people gave up driving to take 
the bus.
    The Rhode Island Public Transit Authority (RIPTA) was no exception, 
and at the time of our last hearing, an agency with an annual budget of 
slight more than $100 million anticipated an operating shortfall of 
between $10.8 and $12.2 million. Consequently, it had initiated a 
process to cut service by 20 percent. With the sharp drop in oil, 
diesel, and gas prices in the intervening months, RIPTA's shortfall has 
since declined to $1.3 million and steps are being taken fill that hole 
with little or no significant cuts to service this year. Despite the 
reprieve, RIPTA faces a chronic funding challenge on the operating 
side, and it is just another price spike away from being forced to make 
unthinkable cuts in service. Other agencies are still suffering. 
Indeed, Washington DC's Metro board meets today to discuss proposals to 
fill a $29 million funding gap.
    The American Recovery and Reinvestment Act will be an enormous 
benefit for transit agencies as they upgrade their facilities, 
infrastructure, and fleets. Indeed, RIPTA is using this opportunity to 
make improvement to its fleet through the purchase of hybrid buses and 
to make key enhancements to its facilities. However, one of the law's 
largest short-comings was its failure to provide transit agencies with 
emergency operating assistance. Such assistance would have been 
extremely helpful to RIPTA, Metro, and transit systems throughout the 
country. Given vulnerability of these systems to the volatility of 
energy prices, I believe that we should consider providing transit 
agencies greater flexibility to use their urbanized formula grants to 
help support service, particularly at times when there are unexpected 
increases in expenses or declines in revenue.
    The challenge facing all levels of government, but particularly 
Federal Government, as we begin to take steps to reduce the Federal 
deficit, is to find a revenue stream that can meet our transportation 
needs. It is clear that under the current gas tax regime we will not 
have the resources to sustain the Highway or Mass Transit Accounts. 
Moreover, as we promote greater efficiency and alternative energy, 
gasoline taxes will become less viable.
    Finally, we must carefully assess how we integrate transportation 
and housing development to creating liveable and sustainable 
communities. I appreciate and commend the work of Chairman Dodd and 
Secretary LaHood in making that a priority for this reauthorization.
    Thank you, Mr. Chairman, and I look forward to hearing from our 
witnesses.
                                 ______
                                 
            PREPARED STATEMENT OF SENATOR MICHAEL F. BENNET
    Thank you, Chairman Dodd and Ranking Member Shelby for holding this 
hearing and for inviting Mayor Hickenlooper to be with us today. As I 
said in my introduction, I can think of no one better to help guide 
this Committee through our discussion on the reauthorization of Federal 
transit programs than John.
    As John said in his testimony, there are exciting things going on 
in Denver when it comes to transit. The FasTracks project, which marks 
the largest rail expansion in the country, is a model for cooperation 
at the local and Federal level can make reliable, safe public 
transportation a reality. By the time the project is completed in 2017, 
the Denver area will have six new commuter rail and light rail 
corridors, three extensions of existing corridors, 18 miles of Bus 
Rapid Transit, 21,000 new parking spaces, and a redeveloped Denver 
Union Station.
    As the Secretary mentioned in his testimony, we find ourselves at a 
crossroads at this time of economic downturn--a crossroads at which we 
must choose a path that creates jobs and moves us to a cleaner, greener 
future. My State just received over $100 million in stimulus funding 
for transit projects, and I thank the Secretary for holding up his end 
of the bargain by putting this money into the community so quickly. I 
know that Colorado will put it to good use.
    Having said that, I know my State and many others continue to face 
funding challenges when it comes to transit funding. Many transit 
systems, like Denver's Regional Transportation District (RTD), are 
funded through sales taxes. In this time of economic distress, as 
families cut back and tighten their purse strings, this source of 
revenue has not provided our transit systems with the funding they need 
to meet the challenges associated with the increased ridership that has 
been a direct result of that very economic downturn.
    Local leaders are making tough choices in order to help meet those 
needs. In doing so, they are showing their commitment to public 
transit. I hope that we can produce a bill in this Committee that shows 
that our commitment to helping local transportation entities more 
adequately meet those needs is just as strong.
    At the same time, I am interested to know how we can increase the 
private sector's role in creating our transit future. The Denver metro 
transit system is participating in an FTA pilot program called the 
Private Partnership Pilot Program (Penta-P) that has the potential to 
transform the way we develop, finance, and maintain transit systems. I 
am closely following the project in Colorado and will be keeping this 
model in mind as the Committee works on the reauthorization bill.
    Finally, I want to touch on the significance this bill has on 
transit in rural areas. While urban areas understandably receive the 
bulk of Federal transit dollars, I want to make sure that we do not 
forget our rural communities during this reauthorization process. An 
increasing number of seniors and people with disabilities rely on 
public transportation in the rural parts of Colorado, and while their 
transit options look quite a bit different from those in the more urban 
areas, it is no less important for them to reap the benefits of a new 
and improved transit future.
    My time has expired, and I thank the Chairman, Ranking Member, and 
our witnesses.
                                 ______
                                 
                PREPARED STATEMENT OF RAYMOND H. LaHOOD
                Secretary, Department of Transportation
                             March 12, 2009
    Chairman Dodd, Ranking Member Shelby, and members of the Committee, 
it is indeed a pleasure to appear before you today to discuss issues 
related to reauthorization of the Federal public transportation 
programs.
    As you know, our Federal public transportation programs were 
reauthorized by the Safe, Accountable, Flexible, Efficient 
Transportation Equity Act: A Legacy for Users (SAFETEA-LU) which was 
enacted on August 10, 2005. SAFETEA-LU provides program authorizations 
through fiscal year 2009. So this hearing is particularly timely if 
Congress is to act expeditiously to ensure that important surface 
transportation investments continue uninterrupted.
AMERICAN RECOVERY AND REINVESTMENT ACT
    Before I discuss authorizing legislation, I believe it is important 
to spend a few moments on our efforts on recovery and reinvestment. As 
you know, the American Recovery and Reinvestment Act of 2009 (ARRA) was 
signed into law by President Obama on Tuesday, February 17, 2009. At 
the outset, I wish to thank Congress for your support in adopting this 
important legislation, and in particular for the transportation funding 
that it provides.
    The ARRA includes appropriations and tax law changes totaling 
approximately $787 billion to support efforts designed to 
simultaneously stimulate the economy and invest in the economy of 
tomorrow. Provisions in the legislation are designed to save or create 
millions of jobs, enable spending by businesses and consumers alike, 
and lay a foundation for long term economic growth and stability. The 
scope of the legislation is unprecedented, and provides financial 
support for investments including upgrading schools, building 
infrastructure to support a clean energy grid for America, repairing 
transportation infrastructure, building new opportunities for the 
unemployed, and helping to maintain jobs for those currently employed.
    Of the $787 billion of spending and tax law changes in ARRA, over 
$48 billion will be invested in transportation infrastructure. Of this 
amount, the Federal Transit Administration has received $8.4 billion 
for three categories of funding: Transit Capital Assistance, Fixed 
Guideway Modernization grants, and Transit New Starts. I am pleased to 
report that this money is already being made available to local public 
transit agencies around the country. On March 5, the Federal Transit 
Administration published its apportionment of the formula funds 
included in the ARRA and will shortly publish a Notice announcing the 
allocation of the New Starts funds.
    ARRA specifies that funds are to be used only for capital 
expenditures. FTA is encouraging grantees to identify projects or 
expenditures that meet the broader goals of the legislation, including 
preserving or creating jobs; contributing to cleaning our environment 
through green purchases, retrofitting existing facilities, and 
construction; making additional public transportation opportunities 
available to more people; and helping to ease fiscal problems at the 
State and local level. A final, important aspect of this legislative 
initiative is to get the money into the economy and working as quickly 
as possible. To foster this imperative, there are certain time 
limitations to obligate these funds. If funds are not put to work on a 
timely basis, funds apportioned to an urbanized area or State will be 
reallocated to areas that have demonstrated the ability to finalize 
projects and are ready to execute.
    This funding will improve our Nation's transit systems and, at the 
same time, preserve or create thousands of good-paying jobs across 
America. These funds also represent an important investment in our 
Nation's ability to ensure mobility and access for our citizens.
IMPORTANCE OF THE FEDERAL PROGRAM
Recent Growth in Transit Ridership
    Recently, transit ridership has grown significantly. In fact, 
during 2008, ridership was at a 5-year high, amounting to over 10 
billion trips. While this increase was attributable in part to the 
rapid spike in fuel prices, ridership growth was sustained as overall 
economic activity began to slacken and fuel prices fell.
Rail Modernization Study
    In response to the fiscal year 2008 Transportation-HUD 
Appropriations Act conference report and again requested in a letter 
dated December 7, 2007, from Sen. Richard Durbin and 11 other senators 
to former FTA Administrator James Simpson, we have now completed a Rail 
Modernization Study. We believe our report is fully responsive to the 
requested content. The report assesses the level of capital investment 
required to attain and maintain a state of good repair (SGR) for the 
Nation's seven largest rail transit operators. The study also considers 
reinvestment needs within the context of past levels of Federal funding 
support as well as potential reforms to the current Federal program.
    The Rail Modernization Study finds that more than one-third of 
agencies' assets are either in marginal or poor condition, indicating 
that these assets are near or have already exceeded their expected 
useful life. In addition, it finds that there is a backlog of unmet 
recapitalization needs of about $50 billion at the Nation's seven 
largest rail transit operators.
    The study found that, between 1991 and 2009, although the actual 
dollar amount of capital funding from Federal sources to the seven 
agencies increased, their share of Fixed Guideway Modernization funds--
to the ``old rail cities'' in particular--actually declined as new 
fixed guideway systems, such as bus ways and high occupancy vehicle 
(HOV) lanes, entered the program. Therefore, the report presents 
several options for Congress to consider in reforming the allocation 
approach for fixed guideway modernization funding. Finally, the report 
describes a structured capital asset management process and suggests a 
number of steps FTA might take to facilitate improvements to the 
technical capacity of local transit agencies to manage their capital 
assets.
Impacts of Federal Investments
    Federal capital investments in rail, bus, and other public 
transportation systems over the last 25 years have been vitally 
important to the Nation's fastest-growing metropolitan areas, to small- 
and mid-sized cities, and to rural communities that previously lacked 
any transit options. These systems create links between home, school, 
work, recreation areas, and other important destinations. Since 1984, 
the number of cities with publicly funded passenger rail service has 
more than doubled. The size of the Nation's transit bus fleet has grown 
by more than 25 percent. Nearly every bus in the United States is 
accessible to people with disabilities and senior citizens. As a 
result, since the mid-1990s, the Nation's overall public transportation 
ridership has grown by more than a third. In many of the Nation's 
largest cities, public transportation carries roughly one-third of all 
work trips destined for central business districts and is an essential 
link between these districts and other destinations. A decade ago, two 
of every five residents in rural small urban communities and tribal 
areas did not have access to public transportation. Since then, FTA has 
been instrumental in bringing new public transportation options to 
dozens of these communities.
    Changes in demographics, shifts in land use patterns, and the 
emergence of new job markets require different approaches to managing 
mobility, particularly for people who may not be able to use existing 
transportation services due to age, disability, location, or other 
factors. Federal funding for public transportation has provided a 
framework around which eight Federal departments can develop and 
deliver community-based transportation services. These services, which 
may be operated by private nonprofit groups and community 
organizations, offer a lifeline to persons with disabilities, older 
Americans, and individuals and families who do not possess automobiles.
    Federal investments in public transportation contribute to job 
growth directly, since the transportation-related workforce grows as 
systems are built or expanded. Indirectly, FTA-funded projects can act 
as catalysts for new businesses near transit facilities. Transit-
oriented, mixed-use development provides an efficient and convenient 
option for employers, developers, young professionals and families in 
many large and small cities around the U.S. Many transit-oriented 
projects are supported by Federal resources through direct funding and 
technical guidance during the planning stages. This has contributed 
significantly to the revitalization of downtown districts, fosters 
walkable neighborhoods, and offers a remedy for urban and suburban 
sprawl.
    Federal public transportation programs also provide for strategic 
leadership and investments that foster innovative research activities 
leading to measurable improvements in the connectivity, safety, and 
efficiency of America's public transportation systems. Federal funding 
has spurred countless productive applications of new technologies and 
techniques for modernizing rail and bus systems, improving energy 
efficiency, reducing emissions, and promulgating voluntary industry-
wide standards. These outcomes reflect collaborations with other 
Federal research entities, university research centers, manufacturers, 
and transportation advocates. Further, Federal public transportation 
funding has supported training for thousands of transportation 
professionals who are the innovators of tomorrow. This has created a 
successful cooperative research program that solicits proposals for 
Federal funding from industry and academia--triggering investments in 
scores of valuable cutting-edge investigations.
    Federal investment in public transportation can also contribute to 
combating climate change. National averages demonstrate that public 
transportation can produce significantly less greenhouse gas emissions 
per passenger-mile than private vehicles, especially those with single 
occupants. Leading the way is heavy rail transit, such as subways and 
metros, which produce about 75 percent less in greenhouse gas emissions 
per passenger mile than an average single-occupancy vehicle (SOV). 
Light rail systems produce 57 percent less and bus transit 32 percent 
less. The benefit would not be as great if compared to the somewhat 
higher current average occupancy rates of passenger vehicles. Transit's 
GHG emissions savings would be even greater with higher ridership 
levels. Recent increases in ridership are not captured in these 
estimates, as the figures rely on 2007 public transportation data, the 
most recent national dataset available.
    Federal investment in public transportation also can reduce 
greenhouse gas emissions by facilitating higher density development, 
which conserves land and decreases the distances people need to travel 
to reach destinations. In many cases, higher density development would 
be more difficult without the existence of public transportation 
because more land would need to be devoted to parking and travel lanes. 
By facilitating higher density development, public transportation can 
shrink the footprint of an urban area and reduce overall trip lengths. 
In addition, public transportation supports increased foot traffic, 
street-level retail, and mixed land uses that enable a shift from 
driving to walking and biking. Public transportation can also 
facilitate trip chaining, such as combining dry-cleaning pick-up, 
shopping, and other errands on the way home from a station. Finally, 
households living close to public transportation tend to own fewer cars 
on average, as they may not need a car for commuting and other trips. A 
reduced number of cars per household can to lead to reduced car use, 
and driving may cease to be the habitual choice for every trip.
OPPORTUNITIES AND CHALLENGES
Livability and Sustainability
    In my confirmation hearing, I outlined four key themes for my 
tenure as Secretary. In addition to Economic Recovery, which is my 
primary immediate concern, and Safety, which is always an important 
part of the mission of the Department, I suggested that Sustainability 
and Livability would be hallmarks of my policies.
    To me, it is clear that our transportation system and the 
development it enables must be sustainable. Climate change must be 
acknowledged as a reality. Funding for public transportation must 
increase to help out here. Sustainability must permeate all we do, from 
highways and transit to aviation and ports.
    I am also committed to a strong focus on people and communities 
where they live and work. This implies a commitment to the principles 
that some refer to as livability--that is, investing in ways that 
respect the unique character of each community. The era of one-size-
fits-all transportation projects must give way to one where preserving 
and enhancing unique community characteristics, be they rural or urban, 
is a primary goal, rather than an afterthought. I intend to make 
livable communities a big part of reauthorization.
Housing/Transportation Relationship
    Clearly the linkage between public transportation and urban 
development is crucial, particularly when it comes to low-income 
housing. For some time, FTA has been collaborating with the Department 
of Housing and Urban Development to coordinate housing and 
transportation planning and investment decisionmaking. For example, in 
September 2008, FTA and HUD released a report to Congress on Better 
Coordination of Transportation and Housing Programs. This report 
outlines strategies to continue and expand the coordination of 
affordable housing and transit policies. Earlier, FTA and HUD conducted 
a jointly funded research study on Realizing the Potential: Expanding 
Housing Opportunities Near Transit. The report, published in April 2007 
by the Center for Transit Oriented Development, included five case 
studies examining the role of public transportation in the location of 
affordable housing in corridors in Boston, Charlotte, Denver, 
Minneapolis-St. Paul, and Portland, Oregon. In addition, FTA and HUD 
are participating in an interagency working group to continue 
development of coordinated/integrated strategies, methods and policies 
to promote the role of public transportation in affordable housing. 
Finally, FTA and HUD are developing a Best Practices Manual--a multi-
scenario ``how-to'' manual for developing mixed-income housing transit 
oriented development to be published by December 2009. Continuing and 
expanding on these efforts can be an important feature of the next 
surface transportation authorization.
Highway Trust Fund
    A challenge in addressing the needs I have outlined will be the 
availability of funding at the Federal level. More details of the 
Department's fiscal year 2010 budget will be presented in April. An 
overarching concern for all surface transportation funding is the 
status of the Highway Trust Fund. Currently, 2.86 cents of the Federal 
gasoline and diesel taxes is dedicated to the Mass Transit Account of 
the Highway Trust Fund, which generates about $5 billion annually in 
revenues. However, as you know, the Mass Transit Account, like the 
Highway Account is projected to become insolvent in the coming years 
assuming current-law spending and revenues. Clearly, the way in which 
public transportation is funded on a long-term, sustainable basis will 
have to be addressed as we move forward.
REAUTHORIZATION
    In light of these challenges, restructuring our surface 
transportation programs will require some bold new approaches. Let me 
outline for you a few of the themes which we are now considering for 
our proposal.
Economic Recovery and Reinvestment
    Surface transportation investment is an important element of 
President Obama's Economic Recovery and Reinvestment efforts to put 
people back to work and reinvigorate the economy. Congestion exacts a 
tremendous cost on the Nation's economy, by some estimates over $100 
billion a year. Improving the efficiency and reliability of our surface 
transportation system will be vital to enhancing the Nation's 
productivity and competitiveness in an increasingly global economy. 
Good transportation allows people to get to jobs and businesses to 
access wider pools of labor, suppliers, and customers. The ability to 
efficiently move freight will be critical to our economic recovery. 
Without renewal and restoration of our transportation infrastructure, 
it will not be able to support the needs of a growing economy.
Safety
    Safety will continue to be the Department's highest priority. The 
total number of transportation-related fatalities in the country is 
unacceptable. Concerted efforts to improve safety are needed in all 
surface transportation modes including auto, truck, transit, rail, bus, 
motorcycle, and pedestrian safety. Innovation and technology will be 
critical to improving vehicle and infrastructure safety. We must also 
explore innovative ways to reduce deaths and serious injuries caused by 
impaired driving, failure to wear seatbelts and motorcycle helmets, and 
other high risk behaviors. Safety problems vary from State to State, 
and it is important that data-driven, performance-oriented programs be 
established to identify the most cost-effective strategies to improve 
safety in each jurisdiction.
Livable and Sustainable Communities
    One of my highest priorities is to help promote more livable 
communities through sustainable surface transportation programs. 
Actions on many fronts will be required to enhance transportation's 
contribution to strong and connected communities. First, the range of 
transportation choices available to American families must be expanded. 
All segments of the population must have access to transportation 
services to get to work, housing, medical, educational, shopping, and 
other essential activities. Just as important is to ensure that our 
transportation investment decisions are consistent with broader 
policies to reduce greenhouse gas emissions and slow the pace of 
climate change.
Accountability, Transparency, and Performance
    Key tenets of the Obama Administration are Accountability, 
Transparency, and Performance in Federal programs. Congress demands it, 
the public demands it, and it is the right thing to do. New processes 
will have to be put in place to implement performance-based programs. 
In some cases this may require changes to long-standing ways of doing 
business. Performance-based programs cannot be implemented overnight, 
but when fully implemented they will provide the means to improve 
investment decisions, improve the performance of our transportation 
systems, and improve our stewardship of taxpayer dollars. As we 
recently pointed out in the President's Budget for Fiscal Year 2010, 
greater use of economic analysis will be needed in transportation 
planning.
Innovative Programs and Projects
    Innovation traditionally has been a hallmark of progress in 
transportation. Challenges today may be different from the past, but 
the role of technology and innovation is just as important. Technology 
will be central to our efforts to improve safety, reduce congestion, 
and manage our infrastructure more effectively. Innovation is not 
limited to new technologies, however. Innovations in the way we deliver 
programs will be just as important in our efforts to improve all 
aspects of transportation system performance.
CONCLUSION
    Thank you again for the opportunity to testify today. I know that 
there is much work ahead of us. I believe that working together we can 
craft an improved Federal surface transportation program that helps 
improve the lives of the American people across the country.
                                 ______
                                 
                PREPARED STATEMENT OF JOHN HICKENLOOPER
  Chair, The U.S. Conference of Mayors Transportation & Communications
                   Committee, Mayor, Denver, Colorado
                             March 12, 2009
    Chairman Dodd, Ranking Member Shelby, and Members of the Committee, 
thank you for inviting me to testify today about ``Sustainable 
Transportation Solutions: Investing in Transit to Meet 21st Century 
Challenges.''
    This nation cannot deal with our energy and climate challenges, 
without confronting the transportation sector.
    The United States transportation sector--its systems and 
practices--has played a significant part in growing the nation's energy 
dependency on foreign energy supplies, principally petroleum, and in 
contributing to higher oil prices and other energy price increases. In 
2007, 69 percent of the nation's total petroleum products were consumed 
in the transportation sector, with petroleum products powering more 
than 98 percent of the nation's transportation mobility. Currently, the 
United States is the world's largest energy consumer and largest 
greenhouse gas emitter.
    America's mayors understand all too well that our nation cannot 
remain economically competitive with the world if we continue down this 
path. This means going forward, all federally assisted transportation 
investments must address energy and climate concerns, through needed 
shifts and reforms in Federal policies and programs that emphasize 
sustainable transportation investments, led by increased investment in 
public transit and intercity passenger rail.
    Mayors also believe that we must rebuild and modernize our nation's 
transportation infrastructure in ways that are more energy efficient, 
less reliant on foreign oil, and more environmentally sensitive. To 
accelerate the achievements of more sustainable transportation 
solutions, Federal policy must increasingly empower local elected 
officials, especially in metropolitan areas, to make the decisions on 
how Federal transportation resources are invested. Decisions that this 
Committee makes about sustainable transportation solutions will be a 
critical factor in whether the next surface transportation 
authorization bill is sufficiently transformational to ensure that 
Federal resources are deployed more strategically so that we confront 
our nation's energy and climate challenges.
    As a broader policy matter, the next bill should empower and 
incentivize leaders, especially those at the local level, to better 
connect investment decisions about land use, economic development, 
energy, and environmental factors. Mr. Chairman, many of these 
decisions are typically under the authority of local governments, which 
explains why we believe it is so important to empower local officials 
starting with those in metropolitan regions with the decisionmaking 
responsibility coupled with greater accountability and performance 
measures.
    As Mayor of Denver, my own perspective on the next bill is driven 
by our experience in collaboration across the metropolitan region to 
build our FasTracks transit project. The City encompasses 44.7 square 
miles and roughly 600,000 residents, but our metropolitan region has a 
population of nearly 2.8 million people, and a growth rate that has 
consistently outpaced the national rate every decade since the 1930's. 
Within the next 25 years, Metro Denver's population is anticipated to 
reach almost 3.8 million. Metro Denver has been nationally recognized 
for our capacity to plan and work collaboratively across potentially 
balkanized local political jurisdictions--from our FasTracks transit 
project to our regional economic development initiatives to our 
cultural facilities tax district, all of which involve and benefit the 
localities within the eight Metro Denver counties, and encompass an 
area roughly the size of Connecticut.
    I also appear today as the Chair of The United States Conference of 
Mayors Transportation and Communications Standing Committee.\1\ 
Therefore, what I thought I would do first is provide a few remarks on 
the American Recovery and Reinvestment Act followed by remarks on 
investing in sustainable transportation solutions.
---------------------------------------------------------------------------
    \1\ There are 1,139 such cities in the country today, each 
represented in the Conference by its chief elected official, the Mayor.
---------------------------------------------------------------------------
    I want to thank the leaders of this Committee for your efforts to 
increase public transportation investments in the American Recovery and 
Reinvestment Act (ARRA). Mayors are pleased with many of the investment 
priorities set forth in this historic bill. At a time when the Nation 
is facing its deepest economic crisis since the Great Depression, ARRA 
will begin the process of rebuilding our transportation infrastructure, 
create and save transportation sector jobs, and even expand out 
transportation capacities.
    These funds will help replace and modernize congested, aging, and 
outmoded systems. This is a down payment on a new path to transforming 
our transportation systems recognizing that our Interstate system, now 
more than 50 years old, must be supplemented with alternative modes of 
travel including transit and high-speed rail--which are key Conference 
priorities.
    More broadly, this Committee's longstanding commitments to 
increasing investments in public transportation have been productive, 
especially during last year's run up in gasoline prices. Public 
transportation is a safe, reliable and cost-effective alternative for 
travel. Today, we see total ridership levels last achieved in the 50s. 
This shift to transit, often motivated by the public's desire to reduce 
household transportation costs, and declining driving rates has 
resulted in significant reductions in measured congestion levels in 
metropolitan areas throughout the U.S., although our reporting systems 
don't capture these changes in real time. For the first time, we have 
been adding transit riders during an economic downturn, contradicting 
past trends and assumptions. Ridership kept growing despite record 
declines in gas prices, especially during the last quarter of 2008. Mr. 
Chairman, I encourage you to look at the dire financial situation of 
many transit providers, especially erosion in their operating accounts, 
to make sure that resource constraints don't result in a contraction of 
services we provide at a time when more people are turning to public 
transportation.
    In addition, I want to thank Committee leaders and others for your 
many efforts during the last session to assist cities in addressing the 
many economic challenges now before our communities and regions. 
Specifically I want to recognize your work on supporting local leaders 
in addressing the foreclosure crisis, notably new resources to help us 
deal with rising foreclosures through the Housing and Economic Recovery 
Act of 2008.
Metropolitan Areas--Investing In The Engines of America's Growth 
        Through Mobility
    Metropolitan areas are the drivers of the American economy. While 
covering just 26 percent of the United States land area, metropolitan 
regions account for more than 83 percent of the nation's population, 85 
percent of national employment, 87 percent of labor income, 86 percent 
of gross domestic product (GDP), and 92 percent of the increase in real 
output in 2007.\2\ Of the 100 largest international economies in the 
world, 42 are U.S. metro areas. Metro Denver, for example, has a gross 
metropolitan product larger than Pakistan and nearly as large as 
Israel.\3\
---------------------------------------------------------------------------
    \2\ See Attachment Shares of U.S. Economy 2007: U.S. Metro 
Economies Report 2008.
    \3\ See Attachment World Rankings of Gross Domestic and 
Metropolitan Product 2007: U.S. Metro Economies Report 2008.
---------------------------------------------------------------------------
    As the Report of the National Surface Transportation Policy and 
Revenue Study Commission states, ``Federal transportation policy must 
more effectively support and encourage the use of public transportation 
as part of a balanced approach to a metropolitan mobility program. 
Traditional bus and rail transit and, where appropriate, intercity 
passenger rail, must be an increasingly important component of 
metropolitan mobility strategies due to their ability to move large 
volumes of people into and out of areas that cannot handle more 
automobiles.''
    Consistent with this need, the foremost recommendation among the 
list of transportation authorization policy positions that the 
Conference of Mayors adopted in June is a call for creation of a 
metropolitan mobility program. The recommendation also directly ties to 
the U.S. Conference of Mayors' Climate Protection Agreement--an 
agreement whereby mayors pledge to reduce carbon dioxide emissions by 7 
percent below 1990 levels by 2012--more investment in public 
transportation will lead to a reduction in energy consumption and 
greenhouse gas emissions.
Priority Areas for Sustainable Transportation Solutions Through 
        Statutory Reform
    Reflecting consultation with the mayors, seven areas of fundamental 
reform to underlying Federal transportation statutes set the context 
for a sustainable transportation focuses next surface transportation 
bill:

  <bullet>  Federal transportation investments need to reflect energy 
        and climate priorities, so that we can reengineer and expand 
        our transportation infrastructure in ways that curb greenhouse 
        gas emissions and reduce our dependency on foreign oil. 
        Nationwide, about one-third of carbon emissions are generated 
        from mobile sources; in regions like the Bay Area, cars and 
        light trucks represent about half of all carbon emissions. U.S. 
        gasoline consumption is about equal to the amount of oil we 
        import. Our national transportation policy should recognize 
        that achieving climate protection and greenhouse gas reductions 
        emissions will require increased investment in public 
        transportation. As the Report of the National Surface 
        Transportation Policy and Revenue Study Commission states, 
        ``Not only is transit an important element of congestion relief 
        strategies, it supports policies to reduce transportation 
        energy consumption, greenhouse gas emissions, and air pollution 
        if sufficient use is demonstrated.''

  <bullet>  Federal funding mechanisms must move past programmatic 
        silos and eliminate the biases embedded in current law that 
        favor some transportation modes over others. The Federal 
        funding system currently follows processes and creates 
        incentives that do not direct resources to the geographic 
        regions or types of transportation solutions that yield the 
        greatest cost-benefit impacts and are central to national 
        economic prosperity and growth. With key transportation 
        statutes--surface and aviation--under consideration for renewal 
        this year, and a new Federal commitment to high-speed rail, an 
        opportunity exists to make delivery of resources and 
        transportation services to the public more seamless and 
        integrated.

  <bullet>  Rail transportation for both freight movement and passenger 
        travel is a top priority going forward. We seek a better 
        approach to investment, and coordination of uses in existing 
        highway and railroad rights of way, that can accelerate the 
        deployment of infrastructure within and between our nation's 
        metropolitan areas. Moving more goods by rail can reduce energy 
        consumption and allow better use of existing highway capacity. 
        Transit systems are experiencing unprecedented growth in use, 
        with the public consuming existing capacities and demanding new 
        services as well. As we are witnessing in Denver, the presence 
        of transit also is driving community and economic vitality with 
        transit-oriented commercial and residential development. 
        However, while the Denver region has been highlighted as a 
        national prototype for rapid and broad-based expansion of 
        metropolitan rail services, it was very difficult to initiate, 
        and we now face the significant challenges of a weakening 
        economy producing slower local revenue growth, as well as 
        record energy and commodity prices that run up the costs of 
        operating existing services and new construction.

  <bullet>  The disparity in planning requirements for transit versus 
        highway projects promotes road investments to the detriment of 
        the urban core that most benefits from public transportation. 
        Localities must show that they have adequate resources to fully 
        construct, maintain, and operate new transit facilities, at a 
        high non-Federal match; however, none of those conditions apply 
        equally to highway projects. In fact, nearly a decade ago, the 
        Federal Government removed the major investment study 
        requirement that also had mandated for highway proposals a 
        cost-effectiveness evaluation of alternative approaches to 
        achieving a given transportation objective, taking into account 
        a range of economic, environmental, and financial factors. 
        Mayors and our regional transportation partners are asking for 
        rigorous evaluation and matching rules to apply uniformly for 
        highway and transit projects, metropolitan and non-
        metropolitan, so we can enable planners to make decisions 
        driven by the merits and not differently aligned incentives.

  <bullet>  Transportation planning processes in our metropolitan areas 
        cannot be meaningful if there is little connection between 
        those plans and control of resources to implement them. While 
        the law preserves that MPO's will take the lead in regional 
        transportation planning, Federal statute did not establish a 
        funding structure to support that practice. In most 
        metropolitan areas, local officials are not afforded the 
        opportunity to control or substantially influence how the bulk 
        of Federal resources are expended in the region. Typical State 
        practice is to determine what share of Federal resources are 
        made available to the metropolitan area, and then largely 
        decide or influence what major investments are made. Often, the 
        MPO simply confirms these investments in their plans. Of the 
        Federal transportation resources provided to the States, only a 
        small portion is definitively committed directly for local 
        decisionmaking in metropolitan areas--$54 million of $438 
        million in spending authority under the core highway program 
        categories in Colorado last year, even though Metro Denver 
        represents half of the State population and 60 percent of 
        economic output. Furthermore, metropolitan areas contribute 
        significantly more in tax receipts than they receive in 
        distributions from their State highway fund or direct local 
        transfers.

  <bullet>  Federal transportation policy does not support or provide 
        incentives for crosscutting functional relationships and 
        planning collaboration. With major population growth projected 
        in many metropolitan areas and congestion already prevalent, 
        managing decisions about meeting mobility needs and quality of 
        life will entail decisions about more than just building more 
        transportation capacity. Similarly, transportation investments 
        are major economic factors, opening up new development area 
        opportunities, creating jobs, impacting personal mobility 
        costs, and influencing productivity. Finally, transportation 
        impacts the environment and climate change, both through the 
        structure of neighborhoods and the reduction of greenhouse gas 
        emissions. In Denver, this means that our transportation 
        decisions are tied to promoting livable urban centers and 
        sustainable development broadly. The FasTracks project, 
        supported unanimously by all 32 metro mayors and approved by 
        voters in the eight Metro Denver Colorado counties in 2004, is 
        the unifying element in our regional community planning 
        efforts, $6.9 billion, 12-year plan linking the region with 
        comprehensive mass transit service through 119 miles of new 
        light rail and commuter rail, 18 miles of bus rapid transit 
        service, 21,000 new parking spaces at rail and bus stations, 
        and expanded bus service. Furthermore, in the City itself, we 
        recently completed a Strategic Transportation Plan that adopts 
        an alternative approach to transportation planning--instead of 
        just forecasting future auto travel, we have developed a 
        mathematical model that forecasts person-trips so that we can 
        evaluate the magnitude of impacts caused by all types of 
        travel. All of these transportation plans are tied to our 
        zoning decisions centered on transit-oriented development 
        (TOD), building neighborhoods around FasTracks and bus transit 
        stops so that housing, offices, and shopping are all within 
        walking distance. Helpful Federal actions to increase cross-
        cutting functional relationships and planning collaboration 
        ranges from readjusting the cost-effectiveness rating for New 
        Starts projects so that related development and environmental 
        benefits are appropriately considered to promoting affordable 
        housing near transit. Many local political obstacles to jointly 
        planning for transportation, housing, and land use decisions 
        can be overcome through the motivation of new competitive 
        Federal funding to implement those decisions.

  <bullet>  All of our key Federal transportation programs are short of 
        resources. The shortfall in the Highway Trust Fund posed the 
        most acute challenge, but other accounts to varying degrees are 
        also challenged by resource constraints. This situation argues 
        for consideration of creative, broader revenue and financing 
        options that allow us to increase our national commitments to 
        transportation infrastructure broadly, not just one mode at a 
        time or in piecemeal fashion.

    Through a transit, energy, climate, metropolitan focused next 
surface transportation authorization we will emerge as a new nation so 
that we will indeed prove what others have dubbed, the Century of 
Cities.
    All across America mayors are gearing up in cities, large and 
small, to provide jobs and opportunities to help move our nation toward 
economic recovery. The implementation stage begins now with the 
American Recovery and Reinvestment Act and will continue with the next 
surface transportation bill. There's work to be done and the Mayors 
will do it.
    Thank you again for the opportunity to speak with you about 
sustainable transportation solutions. I look forward to working with 
you during the upcoming authorization to increase funding commitments 
to public transit. 

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                 ______
                                 
                 PREPARED STATEMENT OF JOSEPH F. MARIE
         Commissioner, Connecticut Department of Transportation
       on behalf of The American Association of State Highway and
                        Transportation Officials
                             March 12, 2009
    Mr. Chairman and Members of the Committee, my name is Joe Marie. I 
am Commissioner of the Connecticut Department of Transportation. I am 
here today to testify on behalf of the American Association of State 
Highway and Transportation Officials (AASHTO) which represents the 
departments of transportation in the fifty States and the District of 
Columbia and Puerto Rico. I am currently the Chairman of AASHTO's 
Standing Committee on Public Transportation. We want to thank you for 
convening this hearing to discuss the role of public transportation in 
meeting our nation's 21st century transportation mobility, energy and 
environmental challenges.
    Today, I would like to cover three points--

  <bullet>  The commitment of State transportation agencies to ensuring 
        they provide their customers an efficient, effective multimodal 
        integrated transportation system for mobility and access and to 
        support a competitive economy;

  <bullet>  The long term capital needs of both urban and rural 
        transportation systems across the country; and

  <bullet>  AASHTO's recommendations for a next generation, multi-year 
        surface transportation bill.

    Commitment to public transportation. Public transportation provides 
basic mobility options for millions of Americans on a daily basis and 
is a critical link for the elderly, individuals with disabilities and 
low-income individuals to jobs, doctor's offices, grocery stores and 
other daily routine trips. In addition, transit plays a significant 
role in State and national efforts to reduce traffic congestion, 
conserve fuel, improve air quality, reduce green house gas emissions 
and support emergency preparedness.
    Travel on the U.S. highway system has increased fivefold over the 
past 50 years from 600 billion vehicles miles traveled (VMT) in 1956 to 
3 trillion VMT in 2006. The amount of highway mileage built during that 
period was substantial, but the increase in travel has been so great 
that most of the capacity and redundancy planned when the system was 
built has been used up. Even if the current rate of VMT growth could be 
cut by 50 percent over time, at a minimum, VMT by 2055 will have grown 
to 4.5 trillion. To support the growth that has taken place and the 
growth expected, additional highway, transit, commuter, and intercity 
passenger and freight rail capacity will all be needed.
    To meet the growing need for public transportation, two things need 
to happen. Where transit service is already available, it will need to 
be expanded. Where it is not yet available, it will need to be 
provided. Forecasts show that the U.S. population will grow from 300 
million to 435 million by 2055. Over 80 percent of that growth is 
expected to take place in our metropolitan areas.
    Over 10.3 billion passenger trips were provided by the nation's 
public transportation systems in 2007 and in some of the nation's 
largest cities, public transportation carries from 12.2 percent to over 
53 percent of all work trips originating in central cities and is an 
essential link between these Central Business Districts (CBD's) and the 
rest of the region. With the United States projected to experience 
significant population and employment growth in coming decades, with 
the aging of the population and the efforts of the population to ``age 
in place'' as well as continued issues of greenhouse gases and energy 
supplies and prices, the demand for public transportation services is 
projected to continue to increase.
    Public transportation services are available in 450 of the 
urbanized areas in the United States. In every State, public 
transportation provides service to rural residents, elderly individuals 
and physically challenged individuals with disabilities. Recently there 
has been a dramatic increase in the demand for paratransit services in 
rural areas. A substantial investment must be made in rural transit and 
intermodal connectivity as well as in urban areas.
    For example, in rural Grant County, New Mexico the system handled 
19,000 passengers in 2001. Last year, it carried 38,000 and it is on 
track for over 50,000 riders this year. Corre Caminos Transit, which 
operates the system throughout sprawling Grant County, serves a large 
elderly and disabled population which would have no means of travel to 
doctor's appointments, the grocery store or other essential errands 
without the buses served by the transit system.
    Likewise, the State of Nebraska has a growing rural population and 
has an increasingly large number of persons 65 years or older which is 
outpacing national trends. The challenge for rural transit is to be 
able to provide the transportation needed to allow elderly residents to 
remain in their homes. Without these services, many older residents 
would have to leave their homes and become residents of assisted living 
facilities and nursing homes. To solve this issue, one of the programs 
implemented by the Nebraska Department of Transportation is a ``twenty-
four-seven'' rural transit service so individuals can get early morning 
dialysis and other necessary medical treatments.
    In Randolph County, West Virginia, County Roads Transit transports 
a senior three times a week to a part time job. This disabled 
individual is supplied with wheelchair accessible vehicles through 
County Roads Transit and is able to continue to work and remain in her 
home because of the transit service. Also in West Virginia, a 72-year 
old woman moved to rural Wayne County to be closer to her daughter. 
This woman receives daily transportation from the Wayne X-Press service 
which provides access to the grocery store, doctor's visits, nutrition 
sites and social activities without adding stress to nearby relatives. 
Both of these individuals lead fulfilling, independent lives in their 
local hometowns which would not be possible without the aide of rural 
public transit.
    At home in Connecticut, I oversee one of the very unique State 
departments of transportation in the nation. Connecticut Department Of 
Transportation owns and operates not only a highway system, but also 
owns and operates two commuter railroads, the New Haven Line and Shore 
Line East services which carry over thirty-four million passengers a 
year. The State-wide bus services, includes twenty-one bus operations, 
which carry over thirty-five million passengers per year. The State 
also owns and operates six public airports including Bradley 
International Airport --New England's second largest airport, two ferry 
services and one deep seaport. In addition, the State participates in 
subsidizing several bus transit district operations, dial-a-ride 
services, job access mobility services and other transportation demand 
services. Connecticut DOT operates a truly intermodal transportation 
agency.
    In Connecticut, Governor M. Jodi Rell has spear-headed the largest 
public transportation investment in the State's history. Why? Ridership 
on our commuter rail lines is exploding, up more than 11 percent from 
last year. We are talking about ridership on the lines that parallel 
the congested I-95 corridor, so vital to the economic vitality of the 
Northeast and, indeed, our nation. Double digit ridership increases 
have been posted on our entire commuter rail network. The very 
successful New Haven Line commuter rail service operates from New 
Haven, Connecticut west along our shore through New York and into Grand 
Central Terminal. Connecticut is proud of its partnership with Metro-
North Commuter Railroad which runs this service for our State. This 
commuter rail service operates along 47 miles of the New Haven Line, 
part of the Northeast Corridor which is owned and maintained by the 
State of Connecticut. This is the largest non-Amtrak owned section of 
the Northeast Corridor. We plan to extend and expand operations on our 
Shore Line East routes and improve connectivity and seamlessness 
between our rail lines and bus system where ridership has also been 
growing steadily since 2004.
    Together with our friends in Massachusetts, we are hoping to bring 
first class rail service to the Connecticut River Valley between 
Springfield, Massachusetts and New Haven, Connecticut. We have an 
ongoing dialog with Amtrak and are optimistic that we can form a 
partnership to obtain the necessary investment to bring this key 
intercity rail project to reality. The cities and towns served by this 
corridor are already planning the developments and initiatives that 
this transformative project will bring to their downtowns and main 
streets. This project will also provide mobility connection to Bradley 
International Airport. Federal investment into intercity passenger rail 
is essential to improving mobility around the Nation and reducing 
vehicle miles traveled and carbon dioxide emissions. If we are to 
reduce our dependence on foreign oil and reduce congestion in our 
nation, we must make a greater commitment to public transportation.
    Public transportation capital needs. Transit ridership saw a 
significant increase in ridership in 2008 due largely to soaring 
gasoline prices and a weakened economy. According to the latest figures 
from the American Public Transportation Association during this period, 
there was a 4.0 percent increase in the number of transit trips over 
2007. According to the U.S. Department of Transportation, during the 
same period, highway vehicle miles traveled (VMT) declined from 3 
trillion in 2006 to 2.9 trillion in late 2008. Even though it is 
expected that highway travel growth will once again increase when the 
economy improves, a shift to alternative modes, including transit, 
commuter and intercity passenger rail should be encouraged. This will 
require substantial investment in these modes to ensure sufficient 
capacity and a state of good repair.
    According to the AASHTO's 2009 Bottom Line Report, an average 
annual capital investment of $60 billion (in 2006 dollars) for public 
transportation is necessary to expand and modernize transit assets in 
order to accommodate a 3.5 percent percent annual growth in ridership. 
This is the ridership growth rate necessary in order to double transit 
ridership over the next twenty years. Rural public transportation 
systems are a small but essential component of the nation's transit 
systems, and while their capital needs may be less by comparison to 
urban capital needs, substantial investment increases in rural transit 
to meet capital and operating needs are essential. Any Federal-State 
capital financing program established for the infrastructure needs 
along the Northeast Corridor can only be implemented after the Amtrak 
owned portions of the Northeast Corridor have been brought up to a 
state of good repair. Frequently mentioned is an 80-20 program, similar 
to the Federal highway program where the Federal Government would 
provide 80 percent of the financing of capital improvements and the 
State would provide 20 percent. Should such a program be implemented, 
the program must be eligible for all infrastructure improvements along 
a corridor, regardless of ownership.
    The opportunities for passenger rail expansion throughout this 
country are at a critical crossroad. Federal operating subsidies to 
Amtrak and cooperation between urban transit agencies using Federal 
funding have long been the custom for funding intercity and commuter 
rail passenger service. Transportation capital improvements are 
frequently based upon the successful Federal-State partnership models 
already in place for highways, transit and air modes. The difficulty in 
this amongst other factors, however, lies in the fact that these other 
successful models each have continuous revenue streams dedicated to 
that mode, while rail passenger service does not.
    Many States already provide significant financial support for 
passenger rail service such as:

  <bullet>  Regional coalitions of States banding together to provide 
        rail service connecting their major metropolitan areas,

  <bullet>  States providing funds to Amtrak for increased intercity 
        rail service,

  <bullet>  States participating in the funding of improvements to the 
        freight rail infrastructure over which intercity routes 
        operate, and

  <bullet>  States providing operationally safe and upgraded State-
        owned rail facilities for Amtrak to operate over.

Connecticut continually has upgraded and improved its New Haven Line, 
over which Amtrak operates, to a tune of over $120 million annually. 
Amtrak has partnered and participated in the incremental cost 
associated with their needs for Amtrak high speed rail operations.
    AASHTO surface transportation policies addressing public 
transportation. The AASHTO Board of Directors has agreed to pursue 
policies and program investments that will lead to a doubling of 
transit ridership by 2030. To meet the growing need for public 
transportation and to reach the goal of doubling ridership, two things 
must occur: Where transit service is already available, it needs to be 
expanded. Where it is not yet available, it will need to be provided. 
AASHTO also has a commitment on behalf of the State DOTs to provide 
transit as one of many options in a multi-modal system.
    Specifically, AASHTO recommends the following:

  <bullet>  Congress should increase funding for the transit program to 
        $93 billion over the 6-year authorization period. This increase 
        will restore the purchasing power to 85 percent of the pre-1993 
        levels. The increase in funding should more than double rural 
        transit funding.

  <bullet>  Operating assistance eligibility should be extended to 
        transit systems in urbanized areas of more than 200,000 in 
        population which operate less than 100 buses during peak 
        operation.

  <bullet>  Maintain a separate Mass Transit Account (MTA) within the 
        Highway Trust Fund with current program funding guarantees and 
        preserve, at a minimum, the current 20 percent general fund 
        contribution necessary to support a strong Federal transit 
        program.

  <bullet>  Preserve the existing transferability between the Highway 
        and Mass Transit Accounts as well as the current 80 percent 
        Federal share for transit formula and capital investment 
        programs are also critical for inclusion in the surface 
        transportation authorization legislation.

  <bullet>  Streamline the grant approval process to speed project 
        delivery and reduce the cost of routine projects. Replacement 
        of buses, rolling stock, facility components and other routine 
        transit related equipment should automatically be eligible for 
        funding and not required to go through the grant approval 
        process. An accounting of these expenses could be done through 
        the regular reporting requirements.

  <bullet>  Streamline the number of programs and pools of funding in 
        order to decrease paperwork and the time necessary to complete 
        the grant approval process. For example, we propose including 
        all eligible activities for the Job Access and Reverse Commute 
        grants as part of the Urbanized and Non-Urbanized Area Formula 
        Programs. We also propose allowing all eligible activities for 
        the New Freedom program to be included in the Elderly and 
        Individuals with Disabilities program.

  <bullet>  AASHTO believes that climate change and transportation 
        should be addressed in the upcoming authorization legislation. 
        One such way to address this issue is to double transit 
        ridership by 2030. Intercity passenger rail and transit provide 
        an alternative to automobile travel and can help reduce 
        greenhouse gas emissions. Although they serve a small share of 
        travel in the United States (approximately 1 percent of all 
        passenger trips), we believe increasing transit can contribute 
        to reducing greenhouse gas emissions.

  <bullet>  We also fully supported efforts that were included in the 
        American Recovery and Reinvestment Act to equalize the employer 
        provided pre-tax qualified transportation fringe benefits for 
        both public transportation and parking. We would encourage 
        renewing this provision as it is set to expire at the end of 
        2010.
    Public Transportation usage is growing and with an aging population 
will continue to be an important component of mobility options for 
millions of Americans.
    Before closing my comments this morning, I would be remiss if I 
failed to mention our appreciation for the recently enacted American 
Recovery and Reinvestment Act. You have thrown us an important lifeline 
during a turbulent time. A month ago, Commissioners and Secretaries of 
DOTs from around the country met with U.S. Department of Transportation 
Secretary Ray LaHood and promised to put the money which you entrusted 
to us to good use . . . and swiftly. We will and we thank you.
    I want to inform you that I took Amtrak's Acela to Washington to be 
with you here today. Like the four other trips that I have taken on the 
Acela to Washington in recent months, I spent the time gazing out the 
windows at the cities and towns that we serve. The economic growth 
which has taken place around our core stations like New Haven and 
Stamford, while impressive, is not fully realized. As I mentioned 
earlier, we have made gains, but we can and must do more.
    In the months ahead, you will be confronted with important 
decisions related to the authorization of a new surface transportation 
bill. You will hear from many about how much is needed and why. I will 
leave you with something which I believe you already know: Preserving, 
renewing and reinvesting in our nation's transportation infrastructure 
is absolutely and inextricably linked to the economic well being of our 
nation.
    Investing in transportation has a good return on investment, will 
create jobs and stimulate the economy. It also results in an unusual 
dichotomy: improving connectivity exposes us to a larger world while at 
the same time making it all the more intimate. With improved mobility, 
we come to realize that we have much in common and that there is more 
that binds us than keeps us apart.
    I thank you for giving me this opportunity to highlight some of the 
important aspects as they relate to State transportation agencies and 
to present our proposals for the future of public transportation as you 
begin the process of crafting surface transportation legislation to 
meet today's transportation mobility, economic, energy and 
environmental challenges. I will be happy to answer any questions you 
may have.
                                 ______
                                 
               PREPARED STATEMENT OF BEVERLY SCOTT, Ph.D.
             General Manager and CEO, Metropolitan Atlanta
              Rapid Transit Authority and Chair, American
                   Public Transportation Association
                            March, 12, 2009
    Chairman Dodd, thank you for this opportunity to present testimony 
to the Senate Committee on Banking, Housing and Urban Affairs regarding 
the next surface transportation authorization bill. You are holding 
this hearing at a most propitious time, as APTA announced this week 
annual ridership has reached new record levels. I truly appreciate your 
interest in improving public transportation service in the United 
States and I look forward to working with you as this next 
authorization legislation moves forward in the upcoming year.
ABOUT APTA
    The American Public Transportation Association (APTA) is a 
nonprofit international association of nearly 1,500 public and private 
member organizations, including transit systems and commuter rail 
operators; planning, design, construction, and finance firms; product 
and service providers; academic institutions; transit associations and 
State departments of transportation. APTA members serve the public 
interest by providing safe, efficient, and economical transit services 
and products. More than ninety percent of the people using public 
transportation in the United States and Canada are served by APTA 
member systems.
OVERVIEW
    We are extremely pleased to report that, despite falling gas prices 
and an economic recession, increasing numbers of Americans took 10.7 
billion trips on public transportation in 2008, the highest level of 
ridership in 52 years and a modern ridership record. This news comes at 
a particularly encouraging time for me and my colleagues within APTA in 
light of the recent commitment to public transportation investment 
demonstrated by President Obama and the Congress through the American 
Recovery and Reinvestment Act. While we are concerned about a specific 
proposal in the Administration's FY2010 budget outline affecting the 
treatment of transportation trust fund spending, contract authority and 
budget scorekeeping, we are encouraged by the outline's renewed 
commitment to public transportation and passenger rail investment.
    This commitment is important for a variety of reasons. As the 
members of this Committee know, America's population is growing at an 
unprecedented rate. A 2006 cover story in USA Today that asks: ``Where 
will everybody live?'' noted that while the U.S. population grew by 100 
million people in the past 39 years, it will grow by another 100 
million by 2040, producing a population of more than 400 million. As 
APTA proceeded through a lengthy industry discussion of its 
recommendations for the next authorization bill, we also conducted a 
parallel ``visioning'' effort, known as TransitVision 2050, in which we 
projected our industry view of the American transportation 
infrastructure in the year 2050. Our conclusion: In 2050 America's 
energy efficient, multi-modal, environmentally sustainable 
transportation system powers the greatest nation on earth.
    The challenge we face in fulfilling that vision rests on our 
willingness as a nation to commit adequate resources to the task and to 
provide a financing mechanism for these resources. It is not hard to 
recognize the diverse and promising benefits of investment in public 
transportation. Public transportation provides mobility that 
contributes to national goals and policies to increase global economic 
competitiveness, energy independence, environmental sustainability, 
congestion mitigation and emergency preparedness. For an individual 
user, public transportation saves money, reduces the carbon footprint 
of households and provides people with choices, freedom, and 
opportunities. To realize public transportation's many contributions at 
the national and local levels, and to facilitate a doubling of public 
transportation ridership over the next twenty-year period and address 
the aforementioned national goals and policies, the American Public 
Transportation Association (APTA) recommends a minimum Federal public 
transportation program of $123 billion over the next 6-year 
authorization period. In the near term, we also need the help of 
Congress to address the precipitous decline in local and State 
operating resources resulting from the current national economic 
recession.
RECORD RIDERSHIP AND GROWING PUBLIC DEMAND
    Nationally, public transportation ridership continues to set record 
levels. One only needs to ride a train or bus during the morning 
commute to recognize the growing demand, and to experience firsthand 
the strains that demand is placing on systems. The demand and support 
for public transportation is also obvious at the ballot box. Last year, 
76 percent of ballot initiatives seeking taxpayer support for transit 
investment were approved by voters. Clearly, citizens are willing to 
pay for improved transit service.
    People have experienced the pain of high gas prices, and they have 
come to realize what an important and valuable role public 
transportation service can play in their lives and their communities. 
This week, APTA announced the most recent results of its annual 
ridership report, and the news is both exciting and sobering.
    In 2008, public transportation ridership reached 10.68 billion 
trips and grew 4.0 percent compared to the same period in 2007. This 
represents the highest level of public transportation ridership in 52 
years, or since 1956. Transit ridership increased while vehicle miles 
traveled on our highways systems actually declined by 3.6 percent.
    Increases occurred in the vast majority of systems, with many 
systems reporting double digit percentage increases. All 15 heavy rail 
systems reported an increase in ridership. Seven of these systems 
reported increases of more than 5 percent. Twenty-three of 28 light 
rail providers reported ridership increases. Twelve of these systems 
reported ridership increases of more than 10 percent. Twenty-one of 22 
commuter rail systems reported ridership increases.
    We will be challenged to maintain this pace of growth as fare 
increases, service cuts, rising unemployment and a declining economy in 
general begin to affect transit systems. As State and local revenue 
sources have declined due to the current economy, many systems have had 
to consider fare increases or service cuts that undermine transit's 
ability to attract and serve increased ridership. Our hope is that 
given the national priorities of energy independence, climate change, 
and the economy, we as a nation, will be able to identify resources 
that allow public transportation systems to continue to carry more 
passengers. We should not turn our back on the years of progress we 
have made in rebuilding a quality public transportation system.
    These ridership gains force us to look for ways to meet the 
increased demands on the existing system and to also expand service to 
meet the growing needs for transit service in communities across the 
nation.
TRANSIT INVESTMENT--STATE OF GOOD REPAIR
    The maintenance of transit capital assets to ensure a ``state-of-
good-repair'' is critical. Deteriorating systems simply do not attract 
new riders. Both the National Surface Transportation and Revenue Study 
Commission and the recent report of the National Surface Transportation 
Infrastructure Financing Commission have highlighted the growing gap 
between our infrastructure needs and our present level of investment. 
The Federal Government has a clear responsibility to maintain 
infrastructure it has already spent considerable resources to build, 
and also to expand that infrastructure to meet transportation needs.
    Proper asset management is cost effective as well, as proper 
maintenance today alleviates the need for much larger capital 
investments in the future. The ARRA provided a first step in addressing 
the backlog in system rehabilitation, but many systems across the 
country still face significant needs to maintain their existing public 
transportation assets. As we continue to maintain assets, we cannot 
ignore the equally challenging demand for new and improved services 
across the country where public transportation is not yet providing a 
level and quality of service that provides a real alternative.
    Ridership growth, economic growth, and unsustainable land-use 
patterns all affect a transit system's total resources, and 
specifically the decisions we have to make on system maintenance and 
expansion. The fact is that the multi-level government financing needs 
we face are undeniably tied to this delicate balance of growth and 
asset management.
    Mr. Chairman, when it comes down to it, the real issue before us 
all is one of investment. Each of the Commission reports contains 
strong recommendations to the Congress about the investment levels 
needed in the nation's public transportation and highway systems. 
APTA's estimate of the total annual resources necessary to maintain and 
improve our systems to address our growing population and economic 
needs is $59.2 billion.
    All levels of government--Federal, State, regional, and local--must 
increase their financial investment in transportation to overcome the 
current shortfall, and the Federal Government must take a strong role 
in the process. One of the proposals in our authorization 
recommendations is the creation of incentives to increase State and 
local investment in public transportation. Only through a cooperative 
and coordinated effort among all levels of government to invest in 
transit assets and services, can we fully address the needs of our 
communities and your constituents.
ENERGY, SUSTAINABILITY AND CLIMATE CHANGE
    Mr. Chairman, whether we try to address population growth, the need 
for economic growth, or environmental and climate-based challenges, 
clearly we must take steps to address both congestion and basic 
structural issues that impact mobility, livability and sustainability. 
I commend you, Mr. Chairman, on your recent letter to the President, 
urging the creation of a White House Office of Sustainable Development. 
We need new methods for tackling the problems of energy independence, 
climate change, and sustainable development, and we see this office as 
an important way to coordinate the myriad of Federal agencies and 
policies that affect these issues.
    APTA has urged Congress to use public transportation in the effort 
to ensure clean air and the health of our residents. Reduced air 
pollutants and better personal health and fitness are core American 
goals--and public transportation is a good way to make these goals a 
reality. APTA research prepared by Science Applications International 
Corporation (SAIC) found, for example, that it takes just one commuter 
switching from daily driving to using public transportation to reduce 
the household carbon footprint by 10 percent. If that household driver 
gives up the second car and switches to public transportation for all 
solo travel, the household can reduce its carbon emissions up to 30 
percent, which is a greater reduction than if the household gave up use 
of all electricity. If quality transit service is available, public 
transportation is the single most effective way an individual can 
reduce their carbon footprint. However, we need to give more Americans 
access to public transportation so they can make that choice. Increased 
investment in our public transportation system will further advance 
these goals.
    As we have cited here in Congress on numerous occasions, transit 
use results in a significant net reduction in greenhouse-gas emissions 
and fuel consumption, and increased transit use must be a central 
strategy in Federal climate and energy legislation. And existing public 
transportation usage in the U.S. saves 37 million metric tons of carbon 
dioxide annually--equivalent to the emissions from the electricity 
generated for the use of 4.9 million households or every household in 
Washington, DC; New York City; Atlanta; Denver; and Los Angeles 
combined. Public transportation use saves the U.S. the equivalent of 
4.2 billion gallons of gasoline annually--and more than 11 million 
gallons of gasoline per day. That amount of savings is equivalent to 
more than three times the amount of oil we import from Kuwait each 
year. Mr. Chairman, it is for these reasons that APTA is legislative 
efforts to ensure that future revenue from any climate change 
legislation will be reinvested in transportation infrastructure and 
operations that reduce greenhouse gases and fuel consumption.
    Congestion in our large metropolitan areas continues to be a 
problem, and will only get worse as most of the future population 
growth is projected to occur in the largest of those areas. Public 
transportation use is a critical component of reducing congestion. 
According to the most recent Urban Mobility Report from the Texas 
Transportation Institute (TTI), Americans living in areas served by 
public transportation saved 541 million hours in travel time and 340 
million of gallons of gasoline annually. Without public transportation, 
congestion costs would have been $10.2 billion more that year.
    Also, as this Committee well knows, public transportation and 
housing are very closely interrelated. During your recent hearing with 
the Secretary of HUD, Mr. Chairman, you highlighted this issue and 
received the Secretary's commitment to work with this Committee. 
Critical issues such as housing and transit-oriented development 
demonstrate how public transportation promotes the practices and 
principles of livable communities and sustainable development. As our 
urban areas continue to grow it is important to realize that public 
transportation acts as a catalyst for promoting compact, connected and 
mixed-use development. These things make the provision of all 
transportation, and public services and facilities more efficient and 
effective while simultaneously helping achieve energy and environmental 
goals. We truly thank you for your leadership here. This Committee may 
also wish to consider advancing Federal policy that encourages or 
incentivizes smart growth and transit oriented development decisions.
APTA PROPOSAL
    As stated previously, APTA's proposal recommends an investment of 
$123 billion over 6 years. This proposed increase in the program is 
offered with a goal of meeting at least 50 percent of the estimated $60 
billion in annual capital needs by the end of the authorization period 
and to support a projected doubling of ridership over the next 20 
years.
    We are also urging that the transportation funding guarantees 
should be strengthened to ensure that authorized funds are appropriated 
each year to allow for the long-range planning, financing, and 
leveraging needed to advance necessary investment in public 
transportation capital projects and preserve and maintain the existing 
public transportation infrastructure.
    We recognize, however, that the guarantees can only be as strong as 
the revenues backing them up, and APTA recommends that Congress should 
take the necessary steps to restore, maintain and increase the 
purchasing power of the Federal motor fuels user fee to support a 
significant increase in the Federal investment for the public 
transportation program. In order to meet the full range of needs, we 
will have to employ multiple financing strategies. Our proposal also 
recommends legislation that would promote the development of revenue 
generated from innovative financing mechanisms, such as public private 
partnerships, tolling and congestion pricing to supplement current 
revenue streams.
    We also have several proposals dealing with changes to the formula 
programs. A long-held principle of the industry is that Congress should 
preserve the ``needs based'' approach to the Federal public 
transportation program. In this vein, our members have come to the 
conclusion that the High Density and Growing States program is not 
fulfilling its intended goals, as the associated formulas are impacted 
by the decennial census and additional delays estimated at up to 3 
years following census completion. It is APTA's hope that Congress 
would consider modifying program to better address its intended 
purpose.
    Another program structure recommendation is offered in the interest 
of balancing the various needs of our diverse systems. APTA recommends 
modifying the current Bus and Bus Facilities program to create two 
separate categories of funding, with 50 percent distributed under 
formula, and the remaining fifty-percent available under a 
discretionary program. Eligibility would remain the same within both 
categories. We are also recommending the creation of a new Clean Fuels 
Aging Bus Replacement Program that would direct funds to transit 
agencies to replace aging buses in their fleets with new clean fuel 
vehicles.
    Also within the formula and bus programs, APTA supports legislation 
to allow public transportation systems in urbanized areas of greater 
than 200,000 population which operate less than 100 buses in peak 
operation to utilize formula funds for operating purposes.
    In SAFETEA-LU, APTA and the Congress created the Small Transit 
Intensive Cities (STIC) program, which added a service factor to the 
distribution of funds in small urban areas. Under the previous small 
urban formula program, funds were only distributed on the basis of 
population and population density. Under the old formula, communities 
that provided significantly more transit service than other communities 
with similar population factors received no additional funding to 
support such service. The new STIC program was designed to address the 
higher capital costs of those systems with significantly higher service 
factors. APTA supports the continuation of the STIC program and it is 
our hope that the failure to utilize the STIC formula under the ARRA 
will not set a precedent for future formula program funding decisions.
    In an effort to simplify current formula programs and increase 
program effectiveness, APTA is recommending the creation of a new 
Coordinated Mobility Program, which would consolidate three other 
formula programs into one. The new program would combine the Job Access 
and Reverse Commute, New Freedom, and Elderly and Disabled Formula 
programs. The goals of the program and the eligible uses of funding 
would remain consistent with the three prior programs, while planning 
and coordination of services would be improved.
    APTA is also recommending simplification of the fixed guideway 
modernization program. Our proposal is based on assumptions that the 
program funding will double, and that the program is needs based and 
its elements would be straightforward and uncomplicated. APTA is 
recommending that the current seven tiers be folded into a much simpler 
two-tier formula program, and that the funds must be provided equitably 
to all projects, without regard to population factors.
    Additionally, within the capital investment programs, APTA is 
recommending major changes to the New Starts and Small Starts programs. 
Our recommendations are intended to simplify, streamline the rating, 
review and approval processes to encourage faster completion of quality 
projects.
    When we discussed ridership earlier in our testimony, we noted the 
challenge of meeting increased ridership demand in the face of 
declining State and local revenues, which are the primary source of 
transit operating support. During the debate on economic stimulus 
legislation last summer, we also expressed concern about how higher 
fuel costs were driving up transit operating costs. It is a simple 
fact: since transit fares are set below market rates in order to 
attract as many riders as possible, growing transit ridership will 
increase total operating costs. APTA's authorizing principles urge 
Congress to provide transit agencies with capital and operating 
assistance to meet costs related to Federal requirements and costs 
beyond their control. Therefore, we want to continue to work with this 
Committee as it crafts authorizing legislation to ensure that the 
Federal program provides the flexibility to pay for capital operating 
costs associated with growing ridership, State and local resources that 
are declining as a result of the ailing economy, potentially rising 
fuel costs and other Federal requirements.
    Finally, Mr. Chairman, we as an industry cannot operate and manage 
the transit systems of the future without a fully trained and well-
prepared workforce. With this in mind, APTA has a Workforce Development 
proposal for new and expanded training programs and initiatives, and 
program funding that grows consistent with the growth of the overall 
program.
    We hope that the Committee and the Congress will review our full 
list of authorization recommendations as you prepare to deal with this 
critical legislation.
CONCLUSION
    In summary, we urge this Congress to authorize a Federal transit 
program with a 6-year investment level of $123 billion. We urge the 
Congress to strengthen the funding guarantees important to long range 
planning and capital budgeting needs. The next program will require a 
wide variety of financing options, but the base program must restore 
and increase the purchasing power of the Federal motor fuels user fee. 
We strongly recommend adherence to the needs-based structure of the 
program which has served public transportation so well for so long, and 
we recommend a number of improvements to the program structure that 
will ensure all transit systems access to adequate capital funding 
while also simplifying the programs and speeding project delivery. And 
again, our systems are struggling to maintain basic levels of service 
in the face of declining State and local operating resources. We need 
this Committee's help to address this financial crisis which threatens 
our ability to fulfill our mission.
    Chairman Dodd, we thank you and the Committee for allowing us to 
provide testimony on these critical issues. We look forward to working 
with you and the members of the Committee as you work to develop this 
next critical authorization bill.
 RESPONSE TO WRITTEN QUESTION OF CHAIRMAN DODD FROM RAY LaHOOD

    Q.1. One of the significant improvements contained in 
SAFETEA was the elevation of land use and economic development 
factors in the competitive rating process for new transit 
projects. This was done, in large part, because of the 
demonstrated success of many New Start projects, including 
those in Denver, Salt Lake City and Charlotte, which were 
implemented with coordinated land use plans and investment to 
spur economic development.
    Despite the legal requirement that the Federal Transit 
Administration consider these factors alongside questions of 
ridership and environmental benefits, the FTA has not fully 
implemented the statute, in my opinion, and instead focuses on 
a more narrow cost-benefit analysis. Secretary LaHood, do you 
agree that land use and economic development are important 
factors in deciding which projects ought to receive Federal 
funds? What steps is the Department taking in order to more 
thoroughly rate projects on their land use and economic 
development plans?

    A.1. I believe very strongly in transit oriented 
development and land use policies that promote livable 
communities. The current Federal Transit Administration (FTA) 
New Starts process includes an evaluation and rating of land 
use which entails an examination of the existing population and 
employment in the proposed project corridor, the transit 
oriented plans and policies in place to direct future growth in 
the corridor, and the demonstrated performance of these plans 
and policies. Currently land use is weighted 50 percent of the 
summary project justification rating, with the other 50 percent 
being cost-effectiveness.
    FTA currently considers economic development as an ``other 
factor.'' FTA has been researching how economic development 
benefits can be better measured and captured in the New Starts 
evaluation process. FTA has convened several panels of experts 
to discuss methods that might be employed and has funded two 
research projects through the Transit Cooperative Research 
Program which are ongoing. In addition, FTA recently published 
in the Federal Register one proposed approach for evaluating 
economic development benefits. The public comment period on 
this proposal ended March 27th. FTA is currently reviewing the 
comments received.
    FTA is preparing to issue for comment a policy that will 
incorporate the direction given by Congress in the SAFETEA-LU 
Technical Corrections Act to give ``comparable but not 
necessarily equal numerical weight'' to each of the project 
justification criteria included in statute. FTA expects to 
publish a draft proposal in the Federal Register and will seek 
public comment before finalizing the approach.
                                ------                                


RESPONSE TO WRITTEN QUESTIONS OF SENATOR SHELBY FROM RAY LaHOOD

    Q.1. Secretary LaHood, I am extremely concerned about 
continuing to make investments in infrastructure without any 
requirement for maintaining a state of good repair long-term. 
In your testimony you reference the Rail Modernization Study 
and the findings that there is a backlog of $50 billion in 
unmet recapitalization needs at the Nation's seven largest rail 
transit operators. However, these properties have received 
billions in Federal funding for new projects. What can we do to 
make certain that we adequately monitor and ensure the long-
term maintenance of these assets and what does the 
Administration intend to propose on this front?

    A.1. DOT is approaching this issue on two fronts:
    First, we are looking at the capital maintenance and 
replacement needs of transit agencies. Some of our largest 
transit providers operate systems that are more than 100 years 
old. It is a tribute to their stewardship that these systems 
continue to attract significant ridership. However, funding for 
these systems, although substantial, has not always kept pace 
with their needs. In the Rail Modernization study we examined 
the proportion of these needs that are provided through our 
Fixed Guideway Modernization Program and found that the ``old 
rail'' transit systems receive a substantially smaller 
proportion of their needs than other systems, particularly 
commuter rail. We are examining how the surface transportation 
reauthorization formulas could change to more closely align 
resources with state-of-good-repair requirements.
    Second, we are implementing a ``State of Good Repair'' 
initiative at the Federal Transit Administration that will 
focus on improving asset management practices throughout the 
industry. FTA found that the agencies which participated in the 
Rail Modernization Study have greatly improved their asset 
management practices over the last decade, but that they still 
have to catch up with industry practices in the highway and 
public utilities areas. FTA is developing technical assistance 
for transit agencies to help them in this regard, starting with 
an Industry Roundtable on State of Good Repair in July 2009. It 
will also include training and, as funding allows, improvements 
to FTA's in-house asset management data base. FTA is examining 
adding capital asset data reporting to the National Transit 
Data base, to which all agencies that receive Federal funding 
are required to report, so that we can better monitor the state 
of good repair of our constituents.

    Q.2. We have talked a lot today about the issues of smart 
growth and sustainable development but I believe we must be 
careful about adopting a one-size-fits-all approach. Promoting 
``compact, connected and mixed-use development,'' does not 
necessarily work in rural parts of the country the way it might 
in more urban or suburban places. Mr. Secretary, how do we 
encourage such land use and planning decisions while 
maintaining local decisionmaking authority?

    A.2. Ensuring that local decisionmaking authority is 
respected in linking transportation plans and programs to 
locally adopted growth patterns is exactly the purpose of the 
transportation planning processes required under SAFETEA-LU, 
and under surface transportation authorizations enacted since 
1973. While SAFETEA-LU makes clear reference to the need for 
close coordination between planning for transportation, land 
use, and environmental quality, it does not prescribe the form 
this should take. Instead, the law calls for local and State 
officials, acting through transportation planning processes 
conducted on a metropolitan area and statewide basis, to 
consider the growth and development conditions of their 
jurisdictions in reaching consensus with their colleagues on 
future transportation spending priorities. This federally 
required planning process provides the mechanism for local 
officials to align transportation growth plans with planned 
transportation investments. It also ensures that we maximize 
the value of Federal transportation investments.

    Q.3. Mr. Secretary, I am pleased to hear that you would 
leave the decision regarding an increased reliance on the 
general fund to Congress. However, this statement seems to run 
counter to the Administration's budget proposal which indicates 
a greater reliance on general fund revenues to finance 
transportation projects. Could you elaborate on the budget 
proposal and the proposed increased reliance on general fund 
revenues in light of your comments to the contrary?

    A.3. The Administration has not yet fully developed its 
surface transportation reauthorization proposal. As a result, 
the description of the fiscal year 2010 transportation budget 
proposal in A New Era of Responsibility, Renewing America's 
Promise is necessarily general. Thus, any discussion of the 
reliance on general fund revenues for highway and/or public 
transportation investment stems from the fact that the Highway 
Trust Fund balance, particularly the Highway Account, is very 
low, rather than from a determined policy position. I look 
forward to working with you as we address the important issue 
of surface transportation reauthorization.
                                ------                                


RESPONSE TO WRITTEN QUESTIONS OF SENATOR CORKER FROM RAY LaHOOD

    Q.1. Under SAFETEA-LU and subsequent technical corrections, 
funding was set aside for magnetic levitation projects. What is 
the current status of applications for funding under that 
program? As you are aware, there is a proposal to create a 
route from Atlanta to Chattanooga and I was looking for a 
status update.

    A.1. FRA issued a Notice of Funding Availability (NOFA) for 
the grants to existing maglev projects east of the Mississippi 
River on October 16, 2008 and accepted applications through 
February 13, 2009. Applications were received from the Georgia 
DOT for the Atlanta-Chattanooga project, from the Pennsylvania 
DOT for the Pittsburgh project, and from the Baltimore 
Development Corporation (BDC), a private corporation, for the 
Baltimore-Washington project. The applications are being 
reviewed and the Department of Transportation anticipates 
awarding the $45 million during fiscal year 2009, as planned.

    Q.2. How does the Department of Transportation and the 
Federal Railroad Administration intend to allocate the funding 
set aside in the stimulus package for high speed passenger rail 
projects? Will projects like the Atlanta to Chattanooga route 
be eligible for full consideration?

    A.2. Our strategic plan for high-speed rail/intercity 
passenger rail under American Recovery and Reinvestment Act 
(ARRA) has been released. The Department is preparing and will 
be issuing specific guidelines for States to use in applying 
for ARRA high-speed rail funds. Applications will be evaluated 
in a manner consistent with the strategic plan and guidelines, 
and applicable provisions of the ARRA and the Passenger Rail 
Investment and Improvement Act of 2008 (PRIIA) (Public Law 110-
432, Sections 301, 302, and 501, among others). As outlined in 
that strategic plan, and as specified by President Obama's 
March 20 memorandum on the use of Recovery Act funds, projects 
will be selected based on transparent, merit based criteria, 
including projects' ability to produce economic stimulus, 
mitigate financial and implementation risks, and achieve the 
goals for high-speed rail and intercity passenger rail 
development specified in PRIIA.

    Q.3. The FAA has been considering de-combining of the 
Memphis air traffic control functions. Can you please provide a 
status update on that situation, an explanation of the 
evaluation process and the criteria for a justification for or 
against de-combining this facility? Will you continue to work 
constructively with all impacted parties while making a final 
decision on this matter?

    A.3. The FAA has decided to realign the Memphis air traffic 
control functions effective June of 2009. This decision was 
based primarily on the FAA's operational needs, but the 
realignment also serves the best interests of the employees. 
For nearly 20 years, the FAA has successfully realigned many 
high traffic air traffic facilities including Chicago, Atlanta, 
and Los Angeles. In each instance, the FAA does a thorough 
review of all operational and safety consequences, which 
includes controller training rates, and logistical factors 
(such as the location of each facility). Additionally, during 
the realignment planning process, the FAA requested feedback 
from the National Air Traffic Controllers Association (NATCA). 
The agency invited NATCA to send participants to a Safety Risk 
Management panel, but they elected not to participate. The FAA 
will continue to work with employees and the union during the 
realignment.
    Currently, fully certified controllers at the Memphis 
Terminal Radar Approach Control (TRACON) must maintain 
operational currency and position proficiency on 17 positions. 
In comparison, controllers at the Atlanta TRACON--one of the 
busiest facilities in the world--must stay current on only 12-
13 positions. Given the difference in traffic count and 
workload at these two facilities, there are a 
disproportionately high number of required positions at Memphis 
which the FAA expects to reduce with the realignment.
    Also, some controllers at the Memphis TRACON who are 
capable of working tower traffic are not able to certify on the 
approach positions in the TRACON, which leaves these employees 
with fewer career options within FAA. The realignment offers 
newer controllers better options, by allowing them to obtain 
tower certification first, and then progress to the TRACON.
    After the realignment, both MEM (Memphis Tower) and M03 
(Memphis TRACON) will be at 91 percent certified professional 
controller (CPC) staffing, and will have six controllers in 
training. Overtime costs will be virtually eliminated in the 
tower and significantly reduced in the TRACON. The time to 
reach CPC status will also be reduced from 18 months to 30-35 
weeks. By design, no employee will be negatively impacted and 
in fact 17 (39 percent) of these employees will receive 
immediate pay raises after the realignment ranging from $18,686 
to $28,031.
                                ------                                


RESPONSE TO WRITTEN QUESTION OF SENATOR BUNNING FROM RAY LaHOOD

    Q.1. Secretary LaHood, as you may know, the Brent Spence 
Bridge, which carries Interstates 71 and 75 over the Ohio 
River, has been linked a potential toll fee. I believe the 
Federal Government, not simply the people of Ohio and Kentucky, 
should take responsibility for paying for the Federal 
interstates that call the Brent Spence Bridge home. When the 
final price tag is revealed for the Brent Spence Bridge, which 
is expected to be a few billion dollars, will you work to make 
the Brent Spence a top Federal priority--in terms of safety and 
overall funding?

    A.1. The Federal Government has and continues to take 
responsibility for funding for Interstate System facilities in 
partnership with State governments. Federal-aid funds are 
allocated to all States according to a formula that takes into 
account Interstate System lane mileage and vehicle miles of 
travel. States have considerable flexibility on how these funds 
may be allocated to their priority projects.
    Due to the insufficiency of the Highway Trust Fund dollars 
relative to State needs, beginning with the Intermodal Surface 
Transportation Efficiency Act (ISTEA) in 1991, Congress began 
reducing Federal restrictions on tolling of Federal-aid 
highways in order to provide flexibility to States to 
supplement the apportionments they receive from the Federal 
Government with direct user charges, including tolls and/or 
congestion fees. For example, Section 129 of title 23, United 
States Code, permits tolling on Interstate System bridges and 
tunnels for the purpose of reconstruction, rehabilitation or 
expansion of these facilities. The Value Pricing Pilot Program 
permits tolling on Interstate highways, as well as bridges and 
tunnels, for the purpose of managing demand. Tolls are also 
permitted on existing Interstate System facilities under the 
provisions of the Express Lanes Demonstration program, the 
Interstate Reconstruction Toll Pilot program, and Section 166 
of the U.S. Code pertaining to High-Occupancy Vehicle (HOV) 
facilities.
    States have been responsive in taking advantage of the 
flexibilities available in Federal legislation. In reports and 
data bases prepared by Parsons Brinckerhoff for the Federal 
Highway Administration (FHWA), available at: www.fhwa.dot.gov/
PPP/toll_survey.htm, the authors have focused on the role of 
tolling in providing funding for U.S. highways, bridges and 
tunnels. During the period from 1992 to 2008, i.e., after 
enactment of the ISTEA legislation, of the average of 150 
centerline miles of expressway-standard highway added per year, 
between one-third to one-half were financed based on toll 
revenues. The projects are on major highways, bridges and 
tunnels for which States have generally found it difficult to 
pull together the required funding. The reports identified new 
toll road activity in 33 States and territories during 1992-
2008, involving 235 projects. Forty billion dollars in toll 
projects have been completed, and an additional $120 billion in 
toll projects are on the drawing boards or under construction. 
The States of Ohio and Kentucky are not unique in seeking to 
supplement their limited Federal Highway Trust Fund 
apportionments with tolls to pay for the high costs for 
reconstruction of the Brent Spence Bridge.
    States have also been exploring other ways to raise funds 
for major transportation investments. For example, the Kentucky 
Legislature recently authorized $532 million in State revenue 
bonds and $816 million in Federal Grant Anticipation Revenue 
Vehicle (GARVEE) bonds for several important transportation 
projects from State fiscal year 2009 through 2014. GARVEE bonds 
were authorized by Congress so that States can leverage a 
future stream of anticipated Federal grants to pay for up-front 
costs for major capital improvements on the highway system such 
as the Brent Spence Bridge.
    The USDOT supports and encourages the type of out-of-the-
box thinking being demonstrated by the States of Ohio and 
Kentucky. In addition to tolling authority, the USDOT provides 
credit support to leverage toll revenues, including assistance 
through the TIFIA and Private Activity Bond (PAB) programs. 
FHWA's Office of Innovative Program Delivery is also available 
to provide technical assistance through all stages of the 
project development process, including procurement using 
public-private partnerships in order to maximize the leverage 
of future streams of revenues from tolling.
                                ------                                


   RESPONSE TO WRITTEN QUESTIONS OF SENATOR SHELBY FROM JOHN 
                          HICKENLOOPER

    Q.1. Mayor Hickenlooper, as a mayor you appreciate the 
importance of preserving local decision making related to land-
use and planning. How do you view this emphasis on smart growth 
and sustainable development and how does the Conference of 
Mayors believe such programs should be implemented nationwide? 
How do you believe the rural versus urban difference can be 
addressed without penalizing those that do not choose to 
implement such policies?

    A.1. Did not respond by publication deadline.

    Q.2. I touched on the issue of New Starts with the 
Secretary but I want your input regarding specific changes that 
need to be made to the overall process to ensure that projects 
continue to receive a thorough evaluation and move at a more 
expeditious pace?

    A.2. Did not respond by publication deadline.

    Q.3. Are there specific policy impediments that prevent 
transit systems from benefitting from economic development 
opportunities in planning and designing new projects and if so, 
could you identify them and offer specific policy changes?

    A.3. Did not respond by publication deadline.

    Q.4. I understand that private financing is not an option 
in every situation, but I do believe that we can do a better 
job of implementing innovative financing options rather than 
always relying on federal dollars. Across the globe we see that 
private investments are being made each year in public 
transportation projects and I wonder why we aren't doing the 
same here. Can you talk about some of the impediments that you 
have experienced in pursuing such financing opportunities?

    A.4. Did not respond by publication deadline.
                                ------                                


RESPONSE TO WRITTEN QUESTIONS OF SENATOR SHELBY FROM JOSEPH F. 
                             MARIE

    Q.1. Commissioner Marie, could you elaborate on the issue 
of maintaining a state of good repair and what difficulties 
systems encounter in doing so, specifically why the backlog is 
so significant. How do we ensure that systems can maintain a 
constant state of good repair? Finally, do you support 
requiring systems to achieve and maintain a state of good 
repair in order to receive additional Federal funding for new 
or expanding systems? If not, why not?

    A.1. Maintaining a transportation asset in good condition 
is easier and less expensive than repairing one in poor 
condition, but it has become increasing difficult to do so. 
Over the past decade, both Federal and State gas taxes, the 
main source of funding for transportation in Connecticut and 
the nation, have remained flat, while inflation and the cost of 
doing business have risen significantly higher. It is fair to 
say that it is difficult to keep up with state-of-good-repair 
projects, as costs have gone up and funding has remained 
static. Simply put, we cannot do the same amount of projects 
today, with the same funding amounts from a decade ago.
    As buses and rail cars age, they need to repaired and 
replaced. The infrastructure on which the rail system operates 
requires routine inspection and repair. The maintenance 
facilities that service all of the intermodal rolling stock 
need to be maintained as well as updated to keep up with 
technology changes. Everyday wear and tear on bridges and 
highways requires continual maintenance, rehabilitation and 
resurfacing. All this occurs as new demands are placed on our 
systems each year. There needs to be a consistent increase in 
Federal investment levels for these programs. The reality of 
allowing many years to pass without changes to the Federal and 
State user fees has substantially reduced purchasing power of 
the surface transportation investment program.
    While the Connecticut Department of Transportation believes 
and adheres to a strategy of ``fix it first'', it is done along 
with the ability for strategic capacity enhancement. (For 
example, the Department is repairing the Pearl Harbor Memorial 
Bridge in New Haven, Connecticut, but at the same time, adding 
lanes to address capacity needs.)
    It is important to recognize a significant distinction 
between routine preservation and maintenance and major 
overhauls and modernization of infrastructure systems, whether 
they be highways or signal control systems for railroads, for 
example. Many States and regional transit authorities are being 
financially overwhelmed by costs associated with major 
infrastructure replacement and modernization. The reality is 
that our industry does a fundamentally effective job in 
maintenance and preservation. While the cost associated with 
these activities has risen, largely due to increased health 
care costs for employees and inflation for things like asphalt 
and concrete, the major drain on our resources is due to the 
objective reality that much of our transportation 
infrastructure has or is fast approaching the end of its useful 
life cycle.
    Connecticut and other States must have the resources to 
preserve, maintain, modernize, modify, and increase system 
productivity, and provide for strategic capacity improvements. 
The implementation of performance measures and an asset 
management program should help justify and direct funds for 
state-of-good-repair projects, before significant dollars are 
programmed for the expansion of the system.

    Q.2. I touched on the issue of New Starts with the 
Secretary but I want your input regarding specific changes that 
need to be made to the overall process to ensure that projects 
continue to receive a thorough evaluation and move at a more 
expeditious pace?

    A.2. I have had the opportunity to work on two highly 
successful New Starts projects since 2002, in Minneapolis and 
Phoenix. These projects moved rather expeditiously once the 
grantees signed Full Funding Grant Agreements with the Federal 
Transit Administration (FTA). In both cases, the projects were 
completed within 3 years from the time construction activities 
commenced. It is the extensive planning effort leading up to 
that point that takes considerably more time and where FTA and 
grantees must partner to facilitate the appropriate process 
improvements.
    One example I can give is the experience my current agency, 
the Connecticut Department of Transportation (ConnDOT), has had 
with the New Starts process as it has tried to design and 
implement the New Britain-Hartford Bus Rapid Transit project.
    First, the entire New Starts process has been built around 
rail projects even though there are several bus rapid transit 
projects in the New Starts pipeline. From the structure of the 
cost estimate forms to the evaluation criteria used, there has 
been little adaptation of the process to acknowledge that the 
program funds bus rapid transit as well as rail rapid transit. 
The New Starts requirement to compare the ``build'' project 
with a lower cost alternative is also not handled consistently 
by the process. A rail project often will look at enhanced bus 
service including potentially bus rapid transit as the lower-
cost alternative for comparison and scoring purposes. But what 
does a bus rapid transit project look at for as a meaningful 
comparison with a lower-cost project? In many cases the 
alternatives analysis has already defined bus rapid transit as 
the lower cost alternative to other more capital-intensive 
projects in the project area. Flexibility in the overall 
process, in particular, project justification requirements and 
the evaluation criteria are areas the Department would 
recommend for review based upon our experience with the program 
to date.
    Further, ConnDOT, the sponsor of the busway project, is a 
multi-modal agency with responsibilities in highway 
construction, operation and maintenance, as well as being the 
owner of the CTTransit bus system that provides 80 percent of 
the bus service in the State, and the owner of the New Haven 
Line, the nation's busiest single rail line, Shore Line East 
commuter rail, Bradley International Airport, the second 
busiest airport in New England, and two ferries across the 
Connecticut River. ConnDOT expends about $1 billion a year on 
construction projects in the various modes. And we have strong 
systems built up over the years in quality control and project 
management. However, the New Starts process forces us to 
develop an entirely new system of project management plans and 
processes as FTA looks for project processes to be 
standardized. The duplication forced by that process, and the 
delays built into the design and construction process will 
result in much higher construction costs by the time the 
project is ultimately built.
    Finally, while we acknowledge and welcome the oversight 
Congress requires of FTA in assuring wise management of public 
funding, FTA should work with grantees to establish a more 
balanced oversight approach. Rather than progressing the 
project, Department staff is often diverted by new or 
additional reporting required by FTA or their consultants, 
rewriting a management plan, or preparing a new version of a 
cost estimate for review. There needs to be balance in the 
process that allows for successful management of the project by 
States and other recipients and meaningful oversight by FTA.

    Q.3. Are there specific policy impediments that prevent 
transit systems from benefiting from economic development 
opportunities in planning and designing new projects and if so, 
could you identify them and offer specific policy changes?

    A.3. The Department has not come across any major 
impediments in the planning and design processes for new 
projects. FTA is generally accommodating when it comes to 
leveraging public and private investment in, for example, a 
transit parking structure that may also have the ability to be 
shared with a private, non-transit use. At the State level, 
``home rule'' issues might allow a State agency to provide 
incentives for a project, but it cannot mandate a certain 
project for the benefit of commuters. So, the barriers may be 
more at the local level than at the Federal level.

    Q.4. I understand that private financing is not an option 
in every situation, but I do believe that we can do a better 
job of implementing innovative financing options rather than 
always relying on Federal dollars. Across the globe we see that 
private investments are being made each year in public 
transportation projects and I wonder why we aren't doing the 
same here. Can you talk about some of the impediments that you 
have experienced in pursuing such financing opportunities?

    A.4. Issues surrounding innovative financing options in 
Connecticut generally surround the private sector's ability to 
live up to their original agreements on a project. In several 
instances, our partners have consistently returned to the State 
for additional funding or project commitments, extension of 
time and outright reneging on a proposal.
                                ------                                


 RESPONSE TO WRITTEN QUESTIONS OF SENATOR SHELBY FROM BEVERLY 
                          SCOTT, Ph.D

    Q.1. Dr. Scott, could you elaborate on the issue of 
maintaining a state of good repair and what difficulties 
systems encounter in doing so, specifically why the backlog is 
so significant. How do we ensure that systems can maintain a 
constant state of good repair? Finally, do you support 
requiring systems to achieve and maintain a state of good 
repair in order to receive additional Federal funding for new 
or expanding systems? If not, why not?

    A.1. FTA has been actively evaluating the state of good 
repair issue with an emphasis on some of the nation's largest 
transit systems. This report will show that agencies do not 
define the term consistently and that national definitions are 
lacking within the transit industry. There is, no doubt, a 
backlog of capital needs across the country and the current 
Federal program must be expanded to fully meet these needs.
    Though we agree that the current transit funding levels are 
inadequate at current levels to fully meet the needs of transit 
systems, we do not believe that receiving funds for new or 
expanding service should be predicated upon meeting a state of 
good repair. With regard to general policy, we cannot ignore 
expanding needs and demands for transit service as regions grow 
and prosper. Failing to provide adequate transit infrastructure 
will limit a region's ability to invest in land use decisions 
that will have long lasting benefits for economic development, 
air quality and mobility. The absence of transit service will 
deter high-density development needed to support transit 
investment. Further, regions facing capacity constraints on 
existing service will likely face limits on economic growth, 
particularly if long term transit investments are in question.
    As with the highway program, we must recognize both the 
need to maintain our existing assets while providing new 
capacity to meet growing demands. The answer is to provide 
additional funding. The counter approach is to penalize systems 
for a lack of Federal investment. Ridership growth, economic 
growth, and unsustainable land-use patterns all affect a 
transit system's total resources, and specifically the 
decisions we have to make on system maintenance and expansion. 
The fact is that the multi-level government financing needs we 
face are undeniably tied to this delicate balance of growth and 
asset management.
    With regard to implementation, we already see the 
weaknesses of the overly complex New Starts process which has 
added countless delays and often cost to large projects across 
the country. Conditional approval for new capacity based on the 
achievement of a ``state of good repair'' will require a 
complex assessment of how this might be defined, a likely 
increase in data collection, and the implementation of a 
Federal process to review an agency's success in meeting these 
defined requirements. The addition of yet another difficult to 
define and complex requirement will only further delay the 
existing process required to add new transit capacity.

    Q.2. I touched on the issue of New Starts with the 
Secretary but I want your input regarding specific changes that 
need to be made to the overall process to ensure that projects 
continue to receive a thorough evaluation and move at a more 
expeditious pace?

    A.2. The New Starts process is an extremely cumbersome one 
that requires streamlining. However, a simplified and 
streamlined process need not jeopardize proper and appropriate 
agency review. Even with improvements to the process that 
simplify and expedite project delivery, the New Starts process 
will still remain the most vigorous infrastructure development 
process overseen by the Federal Government.
    It is important to recognize that local project sponsors 
develop projects through this long, difficult, and time 
consuming federally mandated process. There should be clear 
Federal decision points in the process that can be adhered to 
and explained locally. Federal delays and requests for yet more 
information increase project costs and can erode project 
sponsors credibility and undermine support.
    We are advocating for the creation of a simplified and 
streamlined rating process that would expedite the delivery of 
Small Starts, but have FTA oversight proportional to the 
Federal contribution. In addition, the $75 million and $250 
million thresholds established for Small Starts in SAFETEA-LU 
should be escalated annually over the life of the bill.
    Also we recommend the reestablishment of an exempt project 
category as part of the New Starts/Small Starts program for 
projects that require a modest amount of Section 5309 funding. 
The $25 million threshold established in previous surface 
transportation authorization bills should be increased to 
reflect inflation since the threshold was established and it 
should be escalated annually over the life of the bill to 
reflect future inflation.
    In order to streamline and simplify the New Starts review 
and approval process to expedite project delivery, we are 
recommending that Congress replace the current Section 
5309(d)(5)(A) requirement that FTA approve the advancement of a 
New Starts project into Preliminary Engineering with a 
requirement that FTA approve a project into the New Starts 
Program. Approval to enter the New Starts Program would convey 
FTA's intent to recommend a project for funding, provided the 
project continues to meet certain broad criteria and satisfies 
NEPA and other project development conditions.
    We are also recommending the elimination of the Section 
5309(d)(5)(a) requirement that FTA approve advancement of a New 
Starts project into Final Design. This additional step is 
unnecessary and duplicative, as the initial entry into 
preliminary engineering is already rigorous and should serve as 
the primary decision point in the process.
    We would like to see the concept of Project Development 
Agreements (PDA) advanced as a management tool to minimize 
uncertainties and reduce risks, with flexibility built in to 
make changes to the agreement as the project evolves. The PDA 
should include schedules and roles for both FTA and the grantee 
and should define the criteria and conditions a project must 
meet to streamline and expedite overall project delivery and 
could be the basis for an Early System Work Agreement once the 
National Environmental Policy Act (NEPA) process is completed 
with a Record of Decision (ROD) or Finding of No Significant 
Impact (FONSI).
    Congress can also expedite New Starts project delivery by 
expanding pre-award authority at the time of the NEPA finding 
beyond just property acquisition to include preliminary 
engineering, final design, and any early construction 
activities that are advanced with local funds. Further, 
Congress can expand the opportunities for advance property 
acquisition by developing a class of acquisition for willing 
sellers or friendly condemnation at fair market value. Provided 
no alterations are made to the property prior to completion of 
NEPA, this change in property ownership will not prejudice the 
NEPA process.
    We are also urging Congress to reinforce the full range of 
factors that Congress has set forth in the statute for the New 
Starts Rating Process. Clarify that in addition to considering 
cost effectiveness, FTA must consider both transit supportive 
land use and economic development in a way that simplifies and 
does not make the New Starts rating process more complicated. 
The FTA should recognize environmental benefits of a project, 
including reductions in greenhouse gases and increased energy 
efficiency. Also, the cost effectiveness index should be based 
on the Federal Section 5309 share and the mandatory 20 percent 
local match that go to the project costs, excluding funding 
from other sources including private investment. Additionally, 
local project sponsors should be provided with increased 
flexibility to define the New Starts Baseline in a manner that 
is more reflective of and responsive to local conditions and 
priorities.
    Finally, we are calling for the return of the Program of 
Interrelated Projects (PIP) provision of ISTEA. It would be 
very helpful to allow the individual projects in a program of 
interrelated fixed guideway projects to move forward 
simultaneously, in order to capture the inflation and overhead 
savings that can result. Allow some projects within the program 
of interrelated projects to be funded entirely with local 
funds, and other projects in such a program to be funded with a 
share of Federal New Starts funds. Allow a higher New Starts 
share for individual projects using some Federal funds, without 
prejudice to a project's financial rating, where the Federal 
New Starts share for the entire program of interrelated 
projects is 20 percent or less. This could serve as a greater 
incentive to leverage State, local and private funds, for 
certain projects that within the overall PIP. Federal 
procedures should only be required for those projects/elements 
utilizing Federal dollars.

    Q.3. Are there specific policy impediments that prevent 
transit systems from benefiting from economic development 
opportunities in planning and designing new projects and if so, 
could you identify them and offer specific policy changes?

    A.3. Here again we are interested in the simplification of 
the process as a whole. Our most pressing concern is the 
prospect of adding burdensome analysis to the evaluation 
process without concomitant value added to Federal oversight or 
decisionmaking.
    As expressed in our comments to the Docket in response to 
the Notice of Availability of Discussion Paper on the 
Evaluation of Economic Development [published January 26, 2009, 
at 74 FR 4502], we believe economic development should be 
measured through a mix of quantitative and qualitative measures 
and metrics with the primary focus on the conditions and 
benefits in the specific travel corridor and sub-area served by 
the proposed project.
    Transit supportive land use and economic development should 
be viewed as distinctly separate measures in a way that 
simplifies the New Starts rating process and doesn't require 
FTA to use scarce resources hiring additional contractors to 
conduct evaluations that yield little or no constructive data. 
We believe that methodologies currently being considered could 
cause significant additional burdens on grantees and 
municipalities without a clear return in terms of promoting 
better projects, or more effective Federal decisionmaking and 
oversight.
    Previous industry discussions relating to the 
simplification of the New Starts process urge movement away 
from attempts to quantify inherently unquantifiable factors, 
and continue to work with the industry to find ways to look at 
all New Starts projects in the context of corridor scale 
evaluations. This approach would ``right size'' the level of 
Federal oversight to the level of Federal risk. One way of 
moving toward a more simplified process is to introduce a 
warrant approach to project evaluation. In the warrant 
approach, FTA would still establish criteria and measures that 
projects need to meet but would identify certain conditions or 
merits that, if met, would allow the project to advance without 
the evaluation process currently used. This method is a strong 
step toward simplifying the New Starts process and reducing the 
cumbersome reporting and evaluation for both project sponsors 
and FTA. In addition, we suggest under this warrants approach, 
projects be tiered to address characteristics relating to a 
corridor's density and other conditions important to the 
community. For example, a warrants approach could establish 
criteria for corridors to scope projects to maintain or expand 
service depending on current and planned density size. Such an 
approach would provide both for greater flexibility in the 
program as we as expedite the delivery of projects large and 
small.

Economic Development Evaluation

    Under the current New Starts process, we have various 
concerns regarding how Economic Development is defined and 
evaluated. APTA addresses the primary concerns below.

Separation of Land Use and Economic Development as Project Measures

    We believe that land use and economic development cannot be 
combined as one measure. Although the two measures are related, 
they should be treated separately and distinctly. The 
distinction between general land use and economic development 
could be incorporated into simple definitions, such as:

  <bullet>  Land Use: the extent to which localities can 
        demonstrate policies and procedures are in place to 
        support development that promotes transit ridership

  <bullet>  Economic Development: The extent to which developer 
        agreements or sponsor commitments contribute to 
        transit-supportive development as well as retaining 
        existing economic development patterns

While the measures are distinct and separate in their benefits and weight, 
the related nature of land use and economic development provide an 
opportunity for streamlining reporting and documentation. Documentation for 
demonstrating economic development should not require an onerous amount of 
detail to be added to documentation already required for land use. We have 
encouraged the FTA to incorporate any new information on economic 
development into the existing land use templates.

Warrants Approach versus Ratings Approach

    A warrants approach as opposed to ratings could be 
beneficially used for some of the measures. In the case of 
warrants, thresholds could be established related to both 
existing and potential future development. For the mature 
highly transit oriented portions of a corridor, these 
thresholds might be satisfied by existing land development, 
while for less mature, less developed areas the potential for 
further development would need to be assessed. For the former, 
the focus should be on the extent to which there is already 
significant economic activity and dense land use in the station 
area. For the latter, the focus should be on the extent to 
which there is potential for and commitment to higher density 
and mixed use development. Among the factors to be considered 
are existing station area conditions, supportive plans and 
policies, and developer agreements.

Economic Development Benefit Measures

    Economic development is difficult to measure through 
strictly quantitative measures and we suggest that more focus 
be given to developing qualitative factors that could be used 
to indicate the potential economic development effect of 
proposed projects. To the extent quantitative measures are 
retained, they should be based on simple, easily gathered data, 
similar to what is already required for land use criteria. FTA 
could create a panel comprised of FTA and public transportation 
system industry experts to develop a mix of appropriate 
quantitative and qualitative judgments. Reviewers of land use 
benefits may also be able to review economic development 
benefits. Although economic development benefits are primarily 
seen and supported on a corridor level, it is important to 
acknowledge the system or region-wide benefits associated with 
a region's investment in a corridor or a combination of strong 
economic corridors, as well as areas adjacent to or near the 
transit corridor. We encourage FTA to work with the industry to 
develop a methodology to capture these benefits.
    Some final comments and recommendations on the economic 
development and how to move forward include:

  <bullet>  FTA should identify a few demonstration projects in 
        order to work with project sponsors on simple 
        methodologies to measure economic development.

  <bullet>  FTA should acknowledge that economic development 
        projects associated with concentrated land use in 
        station areas has the benefit of reducing the cost of 
        sprawl and projects should receive credit or, at a 
        minimum, not be rewarded for inducing sprawl.

  <bullet>  Concerns regarding reporting on property value 
        assessment as an economic development indicator stem 
        from a lack of consistency of how properties are 
        assessed, even on a corridor level. There is 
        variability in property assessment that should be 
        acknowledged since assessments are often used for tax 
        purposes and updated rarely.

    Q.4. I understand that private financing is not an option 
in every situation, but I do believe that we can do a better 
job of implementing innovative financing options rather than 
always relying on Federal dollars. Across the globe we see that 
private investments are being made each year in public 
transportation projects and I wonder why we aren't doing the 
same here. Can you talk about some of the impediments that you 
have experienced in pursuing such financing opportunities?

    A.4. One of the most significant challenges facing transit 
agencies today is the onerous and unpredictable New Starts 
process. Projects are required to provide detailed finance 
plans to receive funding, yet private investors are unlikely to 
consider investing in a project that may or may not receive 
funding. Private investors seek predictability and 
sustainability in their review of investment opportunities. 
However, the New Starts process which requires finance plans at 
the early stages precludes private investors from having the 
certainty they seek. The private market will demand the ability 
to ascertain risk, something made ever challenging by the 
process used to obtain Federal funding for new projects. Add to 
this, the recent rapid increase in construction costs, the 
challenge facing long-term projects is further emphasized.
    In order to encourage greater interest within the private 
sector, Congress needs to reform the New Starts process to 
speed project delivery and encourage earlier decisions and 
commitments by the Federal Government.
    Similarly, one of the most important catalysts in 
generating private sector interest in projects is the 
guaranteed funding of the underlying program. A full commitment 
of long term financing and the certainty provided is what 
drives private sector finance partners to a project, or away 
from it. The FFGA process is part of this, but the underlying 
program funding is of truly critical importance.
    One of the best opportunities for private sector 
involvement is in the joint development aspect of projects, 
whereby the private sector can link private development 
projects to transit facilities and stations in ways that both 
provide financial incentives and opportunities for public and 
private stakeholders. It is important to maintain maximum 
flexibility for local project sponsors in the joint development 
process.

</pre></body></html>
